<html>
<title> - NOMINATION OF DR. JOHN KING TO SERVE AS SECRETARY OF EDUCATION</title>
<body><pre>[Senate Hearing 114-757]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-757
 
     NOMINATION OF DR. JOHN KING TO SERVE AS SECRETARY OF EDUCATION

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING THE NOMINATION OF JOHN B. KING, OF NEW YORK, TO BE SECRETARY 
                              OF EDUCATION

                               __________

                           FEBRUARY 25, 2016

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and Pensions
 
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  




                                


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
 

                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 29-727 PDF               WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
  
  

      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming             PATTY MURRAY, Washington
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              BERNARD SANDERS (I), Vermont
RAND PAUL, Kentucky                  ROBERT P. CASEY, JR., Pennsylvania
SUSAN COLLINS, Maine                 AL FRANKEN, Minnesota
LISA MURKOWSKI, Alaska               MICHAEL F. BENNET, Colorado
MARK KIRK, Illinois                  SHELDON WHITEHOUSE, Rhode Island
TIM SCOTT, South Carolina            TAMMY BALDWIN, Wisconsin
ORRIN G. HATCH, Utah                 CHRISTOPHER S. MURPHY, Connecticut
PAT ROBERTS, Kansas                  ELIZABETH WARREN, Massachusetts
BILL CASSIDY, M.D., Louisiana

                                     
                         

               David P. Cleary, Republican Staff Director

         Lindsey Ward Seidman, Republican Deputy Staff Director

                  Evan Schatz, Minority Staff Director

              John Righter, Minority Deputy Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                      THURSDAY, FEBRUARY 25, 2016

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Murray, Hon. Patty, a U.S. Senator from the State of Washington..     4
Enzi, Michael B., a U.S. Senator from the State of Wyoming.......    16
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................    18
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...    19
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    21
Scott, Hon. Tim, a U.S. Senator from the State of South Carolina.    23
Murphy, Hon. Christopher, S., a U.S. Senator from the State of 
  Connecticut....................................................    25
Collins, Hon. Susan, a U.S. Senator from the State of Maine......    27
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    28
Roberts, Hon. Pat, a U.S. Senator from the State of Kansas.......    30
Murkowski, Hon. Lisa, a U.S. Senator from the State of Alaska....    32

                          Guest Representative

Scott, Hon. Bobby, a U.S. Representative from the State of 
  Virginia.......................................................     6

                                Witness

King, John B., Jr., Ph.D., Acting Secretary, Department of 
  Education, Tacoma Park, MD.....................................     8
    Prepared statement...........................................    10

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Letter submitted by Senator Alexander........................    42
    Title IX letters submitted by Senator Murray.................    42
    Letters of support...........................................    56
    Response by John B. King, Jr., Ph.D.to questions of:
        Senator Alexander........................................    69
        Senator Enzi.............................................    75
        Senator Murkowski........................................    76
        Senator Scott............................................    79
        Senator Hatch............................................    81
        Senator Cassidy..........................................    82
        Senator Murray...........................................    84
        Senator Sanders..........................................    88
        Senator Franken..........................................    90
        Senator Bennet...........................................    91
        Senator Whitehouse.......................................    94
        Senator Warren...........................................    95

                                 (iii)

  


     NOMINATION OF DR. JOHN KING TO SERVE AS SECRETARY OF EDUCATION

                              ----------                              


                      THURSDAY, FEBRUARY 25, 2016

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:05 p.m., in 
room 430, Dirksen Senate Office Building, Hon. Lamar Alexander, 
chairman of the committee, presiding.
    Present: Senators Alexander, Murray, Enzi, Isakson, 
Collins, Murkowski, Scott, Roberts, Cassidy, Casey, Franken, 
Bennet, Whitehouse, Murphy, and Warren.

                 Opening Statement of Senator Alexander

    The Chairman. The Committee on Health, Education, Labor, 
and Pensions will please come to order.
    Our hearing today is on the nomination by the President of 
Dr. John King to serve as the U.S. Secretary of Education. 
Senator Murray and I will have an opening statement, and then 
we'll introduce the nominee. After Dr. King's testimony, 
Senators will each have 5 minutes of questions.
    We especially welcome Bobby Scott from the House of 
Representatives, whose leadership played such a key role in the 
passage of the Every Child Succeeds Act. It would not have 
happened without him. He was forceful and diplomatic and 
oriented toward results, so we admire that and appreciate his 
work on that, and I'll introduce him later to introduce Dr. 
King.
    And we welcome Dr. King's family, who I know are here, and 
I'll let him introduce them at a later time.
    I'm very glad we're having this hearing today. When Senator 
Murray and I and Representative Scott and others were at the 
White House on December 10th for the signing of No Child Left 
Behind by President Obama, I urged the President to send to the 
Senate a nominee to succeed Education Secretary Arne Duncan. I 
did that because this is such an important year for schools.
    We need an education secretary who is confirmed and 
accountable to Congress while we're implementing a law that may 
govern elementary and secondary education for years to come. I 
want to be sure that we're working together to implement it as 
Congress wrote it. So, congratulations on your nomination, Dr. 
King.
    And if you'll permit a personal note, this very month 25 
years ago, I was sitting in the very same position that you're 
sitting today, having been nominated as U.S. Education 
Secretary by President George H.W. Bush. I remember thinking 
that the Senators had deliberately sat me way down there and 
them way up here so I'd be intimidated by that. The hearing 
lasted 4 hours. We won't do that to you today, I don't think. 
My appointment was announced in December, but I wasn't 
confirmed until March 14th.
    What happened to me at the hearing--and my family was 
there, like yours; I can remember it vividly--Senator 
Metzenbaum from Ohio said, ``Well, Governor Alexander, I've 
heard some disturbing things about you.'' And I said, ``Oh?'' 
And he said, ``But I'm not going to bring them up here today.''
    [Laughter.]
    And Senator Kassebaum leaned over and says, ``Well, Howard, 
I think you just did.''
    [Laughter.]
    And he probably put a hold on me, and I hung for about 3, 2 
months waiting for that to be lifted. I don't suspect you're 
going to have any of that sort of problem today.
    Senator Dan Coats, currently a Senator, was on this 
committee then, and he said at that hearing 25 years ago many 
of the States are way ahead of the Federal Government in terms 
of opening themselves up to more innovative solutions in 
education. That was true then; it's true today.
    When the President signed into law the Every Student 
Succeeds Act in December, he was signing a law that passed the 
U.S. Senate 85 to 12. Nineteen of the 22 members of this 
committee voted for it. I believe it's fair to say that every 
single member of this committee made some contribution to the 
result. We achieved the result because, as Newsweek said, this 
was a law that everyone wanted fixed, and fixing it was long 
overdue.
    Not only was there a consensus about the need to fix the 
law, there was a consensus about how to fix it, and the 
consensus which we repeated over and over again was this: 
Continue the important measures of the academic progress of 
students, disaggregate the results of tests and report them so 
everyone can know how the school teacher and children are 
doing, and then restore to States, school districts, and 
classroom teachers and parents the responsibility for deciding 
what to do about the tests and about improving student 
achievement.
    This new law is a dramatic change in direction for Federal 
education policy. In short, it reverses the trend toward what, 
in effect, had become a national school board and restores to 
those closest to children the responsibility for their well-
being and academic success. The Wall Street Journal called the 
new Every Student Succeeds Act, ``the largest devolution of 
Federal control of schools from Washington back to the States 
in a quarter of a century.''
    More importantly, I believe the new law can inaugurate a 
new era of innovation in student achievement by putting the 
responsibility for children back in the hands of those closest 
to them, the parents, the classroom teachers, principals, 
school boards, and States.
    The law is so important that the Nation's Governors gave it 
their first full endorsement of any piece of Federal 
legislation in 20 years. The last time they did that was the 
welfare reform bill in 1996. The law has the support of 
organizations that do not always see eye to eye. In fact, 
almost every education organization that supported the bill is 
already beginning to work together to help to implement it.
    We held a hearing with several of them on Tuesday. Those 
groups have formed a coalition made up of the following: the 
National Governors Association; the School Superintendents 
Association; the National Education Association; the American 
Federation of Teachers; the National Conference of State 
Legislators; the National Association of State Boards of 
Education; the National School Board Association; the 
Association of Elementary School Principals and of Secondary 
School Principals; the National Teachers Association; and it 
also has the support of the Chief State School Officers.
    Any of us who have been around education knows that these 
groups do not always see eye to eye all the time, but they do 
on this bill. You already know this because they've sent you a 
letter in which they said,

          ``Although our organizations do not always agree, we 
        are unified in our belief that ESSA,'' or, as Senator 
        Franken says, ESSA, ``is an historic opportunity''--
        that's your suggestion, right? For what we call it? 
        Right.

[Laughter.]

          ``ESSA is an historic opportunity to make a world-
        class, 21st century education system, and we are 
        dedicated to working together at the national level to 
        facilitate partnership among our members and States and 
        districts to guarantee the success of this new law.'' 
        Continuing their letter, ``The new law replaces a top-
        down accountability and testing regime with an 
        inclusive system based on collaborative State and local 
        innovation. For this vision to become a reality, we 
        must work together to closely honor congressional 
        intent. ESSA is clear: education decisionmaking now 
        rests with States and districts and the Federal role is 
        to support and inform those decisions.''

    I will include the letter in our record.
    [The information referred to can be found in additional 
material.]
    The Chairman. The letter accurately reflects the consensus 
forged by these disparate organizations and by the Democrats 
and Republicans in Congress. The consensus ended the practice 
of granting conditional waivers through which the U.S. 
Department of Education has become, in effect, a national 
school board for more than 80,000 schools and 42 States. 
Governors have been forced to go to Washington and play 
``Mother May I'' in order to put in a plan to evaluate 
teachers, or help a low-performing school, for example. That 
era is over.
    This law ends what had become, in effect, a Federal Common 
Core mandate. It explicitly prohibits Washington from mandating 
or even incentivizing Common Core or any other specific 
academic standards. It ends the ``highly qualified teacher'' 
definition and requirements, teacher evaluation mandates, 
Federal school turn-around models, Federal test accountability 
and adequate yearly progress, because it moves decisions about 
whether schools and teachers and students are succeeding or 
failing out of Washington, DC and back to States and 
communities and classroom teachers, where those decisions 
belong.
    This hearing provides Congress with the opportunity to ask 
questions, learn more about your background, and get your 
commitment to work with us if you are confirmed. My colleagues 
and I will have questions about such important issues as should 
parents have the right to opt their children out of federally 
mandated tests, and how will you balance the new law's 
requirement on that important issue with deference to State and 
local decisionmaking; how will you manage the Department's $1 
trillion portfolio of student loans; how do you plan to deal 
with the issues raised by Congressman Chaffetz in the House 
about the security of information technology systems at your 
department; what are your plans for addressing the Office of 
Civil Rights' practice of treating guidance issued without 
notice and comment as binding on our Nation's college campuses 
on the serious issue of campus sexual assault.
    You have a distinguished career. You've been a public 
school student, a teacher, you founded a charter school, served 
as Education Commissioner in New York, a State of nearly 20 
million, with responsibility of more than 7,000 public schools, 
as well as 270 colleges and universities. You were delegated 
the duties of Deputy Secretary of Education by Secretary 
Duncan, and you are also the father of two children. You've 
seen our education system from nearly every angle.
    As you and I have discussed, I believe that if you are 
confirmed we will be able to work together not only to 
implement the new law governing elementary and secondary 
education, but that we can take some bipartisan steps, which we 
have already begun in the committee, to make it easier and less 
expensive for students to go to college, and that we can begin 
to cut through the jungle of red tape that is strangling our 
6,000 institutions of higher education. Many of these steps are 
well underway. They have broad support, and we should finish 
the job.
    Welcome to you and to your family. I look forward to 
hearing from you today.
    Our new Every Student Succeeds Act is an important change 
in direction. It is excellent policy. It should provide a much-
needed period of stability for Federal policy in schools for 
several years. But we all know that a law is not worth the 
paper it's printed on unless it's implemented the way Congress 
wrote it. That's why I'm glad the President has appointed an 
Education Secretary who can be confirmed and be accountable to 
the U.S. Senate. If you are confirmed, I look forward to 
working with you to help you and our new law succeed for the 
benefit of 50 million children, 3.5 million teachers, and 
100,000 public schools.
    Senator Murray.

                  Opening Statement of Senator Murray

    Senator Murray. Thank you very much, Chairman Alexander. 
Thank you to all of our colleagues for joining us today.
    Dr. King, thank you for being here. I, too, want to 
acknowledge your wife and two daughters for joining us today.
    As we all know, in public service, we cannot do our job 
without the incredible support of our families, and having two 
daughters in public schools I'm sure provides some tremendous 
motivation for you and inspiration for all you do.
    I also want to acknowledge my good friend, Representative 
Bobby Scott, who is the Ranking Member of the House Education 
and Workforce Committee, who has joined us today to introduce 
Dr. King to our committee. And I want to take this opportunity 
personally to thank you for all your great work and leadership 
on education. You've been a true partner throughout your career 
on efforts to improve outcomes for all of our children, 
regardless of where they live or how they learn or how much 
money they make, as well as championing efforts to ensure that 
college is affordable to all Americans. So, Bobby, welcome here 
to our committee as well.
    This is an important time for students of all ages, from 
our very youngest learners all the way to those who are 
pursuing college and career training. In recent years, the 
costs of college have skyrocketed, leaving families and 
students to struggle with high costs and the crushing burden of 
student debt. And there have been recent cases of institutions 
that deceive and mislead students, and of student loan 
servicers making it harder for borrowers to pay back their 
loans.
    When it comes to early learning, we've seen improvements, 
but we have much more to do to expand access to high-quality 
pre-school so more kids can start school on a strong footing.
    And this is a critical moment for K-12 education as schools 
and districts and States transition from the broken No Child 
Left Behind law to our bipartisan Every Student Succeeds Act 
that the President did sign into law late last year. I'll talk 
more about that transition a little later.
    But with all of these challenges and opportunities, it is 
important for the Department of Education to have strong 
leadership, and I am confident that Dr. John King is a strong 
nominee to transition from Acting Secretary to taking on the 
position of Secretary of Education.
    Through his personal background he knows firsthand the 
power that education can have in a student's life. He has 
enriched students' lives as a classroom teacher and as a 
principal. He has worked with schools to close the achievement 
gap, and he served as the Commissioner of Education for New 
York State for 4 years.
    Overall, he has spent his career fighting on behalf of 
students so they get the chance to learn and grow and thrive in 
a classroom and beyond. No one can question his passion for our 
Nation's young people.
    This Administration, as we all know, has just a little less 
than a year left in office, but that is still plenty of time to 
make progress in several key areas.
    In higher education, I, along with my Democratic 
colleagues, will continue to focus on ways to make college more 
affordable and reduce the crushing burden of student debt that 
is weighing on so many families today. I would also like to see 
the Department take new steps to protect students who are 
pursuing their degrees, and that includes issuing clear 
guidelines for students like those who attended Corinthian 
College who went to an institution that did engage in 
widespread deceptive practices. These students have the right 
to seek loan forgiveness and get some much-needed relief 
through what's known as defense to repayment.
    I've also been especially concerned by cases where 
servicers have overcharged men and women in the military on 
their student loans while they served on active duty. In August 
Senator Warren, Senator Blumenthal and I requested that the 
Inspector General examine the Department's review of servicers' 
compliance with the Service Members Civil Relief Act, and I am 
anticipating that IG report very soon. I will continue to press 
the Department to fully address cases of service members who 
were over-charged and take corrective steps to make sure it 
never happens again. All of our borrowers should receive the 
highest level of customer service and protection under the law.
    And, of course, the role of Education Secretary has become 
especially important as the Department begins implementing the 
Every Student Succeeds Act. This new law gives States more 
flexibility, but also includes strong Federal guardrails to 
make sure every student has access to a high-quality education. 
I expect the Department to use its full authority under the 
Every Student Succeeds Act to hold our States and schools 
accountable, to help reduce reliance on redundant and 
unnecessary testing, and to expand access to high-quality pre-
school.
    I look forward to hearing more from Dr. King about his 
vision for implementing the Every Student Succeeds Act to help 
every student gain access to a quality education regardless of 
where they live or how they learn or how much money their 
parents make. A good education can be a powerful driving force 
for success in our country, and it can help more families live 
out the American Dream. That's what makes education such a 
vital piece of our work to help our economy grow from the 
middle out, not the top down. And as Secretary of Education, I 
hope Dr. King will be a valuable partner in that work. I look 
forward to working with all of our colleagues on moving this 
nomination forward.
    Thank you, Mr. Chairman.
    The Chairman. Thanks, Senator Murray.
    Before I present Dr. King to the committee, I would like to 
call on Representative Bobby Scott, who Senator Murray and I 
both talked about and who played really an indispensable role 
in this new law as the Ranking Member of the Education and 
Workforce Committee in the House of Representatives, and who 
represents Virginia's 3d congressional District.
    Representative Scott, we welcome you, and we know you have 
a busy schedule. So, after you make your remarks, you are 
certainly welcome to stay or to go, whichever fits your 
schedule, and then I will introduce the nominee.

STATEMENT OF HON. BOBBY SCOTT, REPRESENTATIVE FROM THE STATE OF 
                            VIRGINIA

    Mr. Scott. Thank you, Mr. Chairman and Ranking Member 
Murray. I want to join in the comments made about the work that 
was done on the Every Student Succeeds Act. The work that was 
done was cooperative and collaborative and constructive, and I 
think we ended up with an excellent bill. You indicated the 
list of people that support it, and it would not have been 
possible without that cooperative effort, and I want to thank 
you and the Ranking Member for that work.
    That couldn't have been done without a cooperative 
committee. So I want to thank all of the committee members.
    I also thank you for the opportunity to introduce Dr. John 
King, an inspirational and tested leader who is before you 
today as President Obama's nominee to serve as U.S. Secretary 
of Education.
    Our Nation continues to make strides in closing achievement 
gaps, improving graduation rates, increasing minority 
attainment in higher education, but there's much more work that 
needs to be done to fulfill our moral and civil rights 
obligation to ensure that every student has the opportunity to 
fulfill his or her academic and lifelong potential.
    There is no one more qualified than Dr. King to lead the 
Department as it endeavors to fulfill that obligation, 
especially as we implement Every Student Succeeds Act. The 
fight for educational equity is a deeply personal and lifelong 
fight for Dr. King. His life is an extraordinary testament of 
the powerful role that education plays in creating opportunity. 
His life's journey, support by New York public school educators 
he credits as role models, is a symbol of what we collectively 
seek for millions of disadvantaged students across the country.
    His belief in both the centrality of educational 
opportunity to the American Dream and a vital necessity of 
second chances for our young people are founded in his 
impressive and improbable journey, overcoming daunting 
challenges early in life, going on to earn not one but four Ivy 
League degrees, empowering young people as an effective 
teacher, school leader, and charter school founder, serving as 
educational commissioner for the State of New York, and now 
sitting before you today nominated by the President of the 
United States of America to serve as the Nation's top education 
official, charged with protecting and promoting educational 
opportunity for all students.
    Acting Secretary King brings a continued commitment to 
advancing excellence and equity for every student, elevating 
the teaching profession, and improving access to higher 
education, college affordability, and completion rates. And 
while it's impossible for me to highlight his long list of 
experience and accomplishments with the limited time I have, 
I'd like to share with you just a few of his accomplishments.
    Before becoming Acting Secretary, Dr. King served at the 
Department as Principal Senior Advisor. In that role he carried 
out duties of Deputy Secretary, overseeing all pre-school 
through 12th grade education policies, programs, and strategic 
initiatives, as well as the operations of the Department.
    Prior to his arrival at the Department, he served as a 
Commissioner of Education for the State of New York, where he 
served as Chief Executive Officer of the State Education 
Department and as President of the University of the State of 
New York. At the time of his appointment, Dr. King was one of 
the Nation's youngest State education leaders and the first 
African American and Puerto Rican to serve as a New York State 
education commissioner.
    Dr. King also brings to his role extensive experience 
leading urban public schools that are closing the achievement 
gap and preparing students to enter, succeed in, and graduate 
from college. Prior to his appointment as Senior Deputy 
Commissioner in the New York State Department of Education, he 
served as Managing Director with Uncommon Schools, a non-profit 
charter management organization that operates some of the 
highest-performing urban public schools in New York, New 
Jersey, and Massachusetts.
    Dr. King earned a Bachelor of Arts in Government from 
Harvard, a Master of Arts in Teaching and Social Studies from 
Columbia, a Juris Doctorate from Yale, and a Doctorate in 
Educational Administrative Practice from Columbia. For his 
leadership on issues in education equity, Dr. King has been 
honored with the Anna Scheele Award from the New York Urban 
League, the Eugene M. Lang Lifetime Achievement Award from the 
I Have A Dream Foundation, from the New York Immigration 
Coalition the Builders of the New New York Award, and the Robin 
Hood Foundation Heroes Award.
    Many of you became familiar with Dr. King during last 
year's successful reauthorization of the Elementary and 
Secondary Education Act, and no doubt found him and his staff 
to be accessible, responsive, and collaborative. Knowing the 
character and leadership of Dr. King, I know that accessibility 
and collaboration will persist through the remainder of his 
term as he and his staff in the Department work closely with 
this committee and with the House Committee on Education and 
the Workforce, and I could not be more confident that Dr. King 
will effectively lead the Department as the Nation's 10th U.S. 
Secretary of Education.
    Mr. Chairman, it's my pleasure to introduce Dr. King.
    The Chairman. Thank you, Representative Scott. Thank you 
for being here.
    Dr. King has been well introduced by Representative Scott. 
We welcome him, his wife and his children.
    He is currently the Acting Secretary of Education. Before 
joining the Department, he served as Commissioner of Education 
in New York, the Managing Director of the Uncommon Charter 
Schools in New York, and Co-Founder of Roxbury Preparatory 
Charter School in Massachusetts.
    Dr. King, we now invite you to give 5 minutes of opening 
remarks, and I know that if you would like to introduce your 
family, we would like to meet them. Your written statement will 
be entered into the record in its entirety, and then following 
that we'll have a 5-minute round of questions because we have a 
number of Senators here who would like to talk with you.
    Dr. King.

   STATEMENT OF JOHN B. KING, Jr., Ph.D., ACTING SECRETARY, 
            DEPARTMENT OF EDUCATION, TACOMA PARK, MD

    Mr. King. Thank you so much. Thank you, Chairman Alexander, 
Ranking Member Murray, and members of the committee, for 
welcoming me here today. I am humbled and honored to appear 
before you as President Obama's nominee for Education 
Secretary. I'm proud to be here today with my wife Melissa and 
my two wonderful daughters Amina and Mireya.
    I am grateful to the President for his faith in me. I am 
appreciative of the committee's hard work and continued focus 
on behalf of our Nation's learners. And I am mindful of how 
remarkable it is that I'm here at all.
    As some of you may know, I believe education is the 
difference between hope and despair, between life and death 
even, because it was for me. I grew up in Brooklyn, the son of 
two lifelong New York City public school educators. Although I 
never had the chance to know them well, my parents' faith in 
education continues to inspire me.
    When I was 8, my mother died of a heart attack. My father 
passed away just 4 years later after suffering through 
undiagnosed Alzheimer's disease that made our home a scary and 
unpredictable place.
    Amidst that trauma and uncertainty, school was my refuge, 
and teachers were my saviors, and it is because there are so 
many young people out there like me that I feel such urgency 
about the work of education.
    Thanks to the efforts of this committee, the Obama 
administration, and our Nation's educators and parents, there 
are many reasons to feel hopeful. Last year we achieved the 
highest graduation rate we've ever had as a country. Since 2008 
we halved the number of dropout factory high schools. Tens of 
thousands of children now have access to high-quality pre-
school, and millions more children have access to higher 
education. These are meaningful, positive steps; and yet, so 
much work remains.
    For all our progress, students of color, low-income 
students, English learners and students with disabilities still 
lag behind their peers in nearly every important measure of 
school achievement. And in far too many schools we still offer 
them less, less access to the best teachers and the most 
challenging courses, less access to the resources necessary to 
thrive. So we have urgent work to do.
    But I believe we stand well-positioned for that work, in 
part thanks to the Every Student Succeeds Act. The new law 
preserves the critical Federal role to ensure guardrails to 
protect civil rights, but the locus of decisionmaking is 
rightly shifting back to States and districts and away from the 
one-size-fits-all mandates of No Child Left Behind.
    As a former teacher, principal, and State commissioner, I 
know from personal experience that the best ideas come from 
classrooms, not from conference rooms. The new law creates a 
renewed opportunity to focus on equity and new freedom for 
State and local leaders to establish better, more balanced ways 
of assessing student learning. Together, I hope we can harness 
the bipartisan momentum of its passage to transform career and 
technical education and to advance college access, 
affordability, and completion. It won't be easy; the most 
critical work rarely is. But I sit here today ready for the 
challenge and mindful of its tremendous urgency.
    If you'll indulge me, I'll close with a story about my 
father that captures that sense of urgency.
    My father was a teacher in the New York City public 
schools, and he loved to play basketball on the weekends. And 1 
weekend he broke his wrist playing basketball, and so he had to 
have a cast on his wrist. He came in on Monday after the 
weekend and was headed to his classroom, and the principal told 
him you can't go to class, you can't teach your class with a 
cast on. And my father asked why that was, and the principal 
said there was some sort of regulation or rule that he couldn't 
teach with a cast on. My father said, no, no, it's important, I 
want to teach my class, and the principal said, no, absolutely 
not, you can't teach with a cast on.
    So my father walked over to the counter, and if you've been 
in the New York City public schools, older buildings have these 
very high counters, usually in the main office, and my father 
laid the cast down on the counter and brushed the pieces into 
the trash can and put his hand in his suit pocket and said I'm 
going to go teach my class now. And when I was a kid, whenever 
someone in the family said something was too hard or too 
challenging, my father would say, huh, seems like it's going to 
rain soon, I can feel it in my wrist. It was his way of 
reminding us of that story and of his sense of clarity about 
the role of education.
    My father knew that schools saved lives, and though he 
couldn't have possibly imagined it then, I sit here decades 
later as living proof that he was right. Like my parents, like 
the President and First Lady, like all of you, I believe that 
education is at the heart of the promise of equality of 
opportunity for all Americans. If confirmed, it will be my 
great privilege and honor to continue working with you to 
realize that promise in the months ahead.
    Thank you again for your consideration, and I look forward 
to your questions.
    [The prepared statement of Mr. King follows:]

             Prepared Statement of John B. King, Jr., Ph.D.

    Thank you, Chairman Alexander, Ranking Member Murray, and members 
of the committee for welcoming me here today. I have dedicated my 
career to serving the needs of children and their families, so it is 
with great humility and a deep sense of honor that I appear before you 
as President Obama's nominee to continue that work as education 
secretary.
    I am proud to be here today with my wife, Melissa, and our two 
wonderful daughters, Amina and Mireya.
    I am grateful to the President for his faith and confidence in me.
    I am appreciative of the longstanding work and continued focus by 
every member of this committee on the education of our Nation's 
learners--from early childhood through post-secondary success. I'm 
especially thankful to Chairman Alexander and Senator Murray for your 
personal commitment and leadership on education, and for the recent 
effort of the committee to reauthorize the Elementary and Secondary 
Education Act. This committee's work on that bill is a reminder to all 
of us that bipartisan compromise is not just still possible; it's 
capable of delivering meaningful legislation and necessary changes. I 
look forward to continuing to work with all of you in that same 
bipartisan spirit.
    And I am mindful of how remarkable it is that I am here at all. As 
some of you may know, I believe education is the difference between 
hope and despair--between life and death, even--because it was for me.
    I grew up in East Flatbush, Brooklyn; the son of John and Adalinda 
King, two lifelong New York City public school educators. My father 
grew up poor in Bedford Stuyvesant, yet by the end of his career he had 
become one of the highest-ranking African American educators in the 
country. My mother came to New York from Puerto Rico as a little girl 
and was raised by a single mother who was a garment worker, yet she 
found a way to become the first person in her family to graduate from 
college.
    Although I never had the chance to know them well, my parents' 
faith in education continues to inspire me.
    When I was 8, my mother had a heart attack and passed away. My 
father died just 4 years later--after suffering through undiagnosed 
Alzheimer's that made our home a scary and unpredictable place.
    Amidst all the trauma and uncertainty, school was my refuge, and 
teachers were my saviors.
    I am here today because of Mr. Osterweil, my teacher at PS 276 in 
Canarsie who required me to read the New York Times every day, and who 
made me feel safe, nurtured, and challenged.
    And I am here because of Celestine Dessasure--Miss D--who turned 
her social studies classroom at Mark Twain Junior High School in Coney 
Island into an actor's studio, and whose lessons proved that rigor and 
joy are not mutually exclusive.
    My New York City public school teachers literally saved my life. If 
not for them, I could not have survived that turbulent period, and I 
certainly wouldn't be sitting before you today.
    The influence they had on me, coupled with the example my parents 
provided, led me to become a teacher myself.
    But there are still so many young people out there like me, 
children whose paths to school have been marked by burdens no young 
person should have to bear. We owe it to those children to make school 
for them what it was for me.
    That's why I feel such urgency about the work of education. That's 
what led me to help found a school and then a school network. And it's 
what drove me in my tenure as the Deputy Commissioner and then 
Commissioner of Education in New York State.
    Roxbury Prep, the first school I co-founded, and one that is filled 
with young people from backgrounds like mine, became one of the 
highest-performing urban middle schools in the commonwealth of 
Massachusetts. The Uncommon Schools network that my colleagues and I 
created now includes nearly 50 high-performing urban schools, and 
impacts the lives of thousands of low-income students every day. And as 
a result of my tenure in Albany, I am proud to say that New York is now 
a leading State in its work to bring together K-12, post-secondary and 
business partners to expand access to high-quality career and technical 
education; in its commitment to create socioeconomically diverse 
schools; and in its work to improve the preparation and certification 
of its teachers, as the State transitions to more rigorous expectations 
for students.
    I've also learned from each successive challenge about how to 
create lasting change. Since leaving Roxbury Prep and Uncommon, I've 
thought a lot about the importance of both holding students to high 
expectations and fostering a safe, welcoming school climate. Too often, 
we have seen a false dichotomy between the belief that schools alone 
can overcome outside forces and the belief that schools are powerless 
in the face of those forces. In my time in New York, I was reminded 
often of how critical it is that policymakers remain in constant 
communication with parents and teachers--the adults who are most 
responsible for shaping the daily experiences of our children. I have 
been working on that here in Washington.
    All of these experiences have only reaffirmed my belief that 
educational equity and excellence must be national civil rights 
priorities.
    Thanks to the work of this committee, the Obama administration, and 
our Nation's educators and parents, there are many reasons to feel 
hopeful.
    Last year, we achieved the highest graduation rate we've ever had 
as a country--82 percent. This progress was driven in no small part by 
significant reductions in the dropout rate among African American, 
Latino, and low-income students. Since 2008, we have halved the number 
of ``dropout factory'' high schools. A million more African American 
and Latino students are in college today than when the President took 
office. Tens of thousands of children now have access to high-quality 
preschool and millions more students have access to higher education.
    These are meaningful, positive steps.
    And yet, there is still much work to be done.
    For all their progress our children of color and low-income 
children still stand too far behind their peers in nearly every 
important measure of school achievement. So do our rural students and 
students with disabilities, our English Learners, Native American 
students, and homeless students.
    And in far too many schools, we still offer them less--less access 
to the best teachers, less access to the most challenging courses, less 
access to art and music, and less access to the resources necessary to 
thrive.
    We need to support teachers and educators as they raise academic 
expectations for all of our students--so that they are prepared to 
compete with their peers in other nations.
    We need to offer students more affordable college choices, and to 
help more of them graduate. The most affluent students are still six 
times more likely to complete college than low-income students, and too 
many Americans are still struggling to pay back their student loan 
debt.
    So we have urgent work to do.
    We are not yet what we ought to be.
    But I believe we stand positioned to move closer to what we ought 
to be, in part thanks to the Every Student Succeeds Act (ESSA). With 
ESSA, Congress has reinforced the Federal commitment to holding our 
Nation's schools accountable for the progress of all students. In this 
new era, the locus of decisionmaking around the most appropriate 
supports, interventions, and rewards in our schools is rightly shifting 
back to States and districts--and away from the one-size-fits-all 
mandates of No Child Left Behind. As a former teacher, principal, and 
State commissioner, I know from personal experience that the best ideas 
come from classrooms, not conference rooms.
    The new law provides a renewed opportunity to focus on preparing 
every young person for success in college and future careers, and that 
demographics do not determine destiny--starting with our youngest 
learners.
    It preserves the critical Federal role to ensure guardrails to 
protect civil rights. But it also gives educators and State and local 
leaders the freedom to establish better, more balanced ways of 
assessing student learning, including looking beyond just test scores.
    It maintains the principle that, when groups of students or entire 
schools are falling behind, action will be taken to provide the 
supports necessary to foster progress. And it creates the opportunity 
to reclaim the goal of a well-rounded education for all students: an 
education that not only includes strong numeracy and literacy but 
access to science, social studies, the arts, physical education and 
health, and the opportunity to learn a second or third language.
    The start of a new era also brings with it an opening for a much-
needed reset in the national dialog. Over the last few years, education 
policy discussions have too often been characterized by more heat than 
light--especially where educators are concerned. Despite the best of 
intentions, teachers and principals, at times, have felt attacked and 
unfairly blamed. All of us--at the local, State, and Federal level--
have to take responsibility for the climate that exists. And all of us 
must do whatever we can to change it.
    We know--and I know personally, because I lived it--the importance 
of great teachers. That's why one of my highest priorities as education 
secretary would be to lift up the teaching profession, and find more 
ways to celebrate, support, and sustain our Nation's educators.
    In so many ways, this is a unique moment in our Nation's 
educational journey. The passage of ESSA should not be the end of a 
road; it should be the beginning of many.
    Let's harness the bipartisan momentum of last year to make this 
year one of continued progress. Just as No Child Left Behind was 
overdue for a rewrite, so too is the Perkins Act. Let's make 2016 the 
year we transform career and technical education for the 21st century 
by driving innovation and quality.
    Just as we were up for the challenge in pre-K through high school, 
let's work together to advance improvements to the Higher Education 
Act. And let's ensure that every student has the opportunity to obtain 
the post-secondary education needed to gain the knowledge and skills 
that will shape success in today's economy--whether in the form of a 2-
year or 4-year college degree, or an industry credential and direct 
pathway to a well-paying job.
    Together, we can fortify the Pell program as an engine of 
opportunity. And we can support the innovative ideas of schools around 
the country to serve more students at a lower cost, and ensure that 
students don't just start college but complete it with an affordable, 
high-quality degree. That includes working with you to build on our 
efforts to support students and families who are managing their student 
loan debt.
    None of this will be easy--the most critical work rarely is. But I 
appear before you ready for the challenge, and mindful of the 
tremendous urgency we must bring to the tasks at hand.
    If you'll indulge me, I'll close with a story about my father that 
captures that sense of urgency.
    My father loved basketball, and one weekend, while playing, he 
broke his wrist. When he went to work on Monday, with his wrist in a 
cast, the principal stopped him and said, ``Mr. King, you can't teach 
today.'' The principal said there was a regulation back then about not 
teaching with a cast, and the principal refused to budge.
    So what did my father do? He walked over to the counter and smashed 
the cast into pieces. Then he brushed those pieces into a trash can, 
put his hand in his suit pocket, and went to teach his class.
    My father knew that schools save lives. And though he never could 
have imagined it then, I sit here decades later as living proof that he 
was right. Like my parents; like the President and First Lady; like all 
of you, I believe that education is at the heart of our promise of 
equality of opportunity for all Americans.
    If confirmed, it will be my great privilege and honor to continue 
working with you to realize that promise in the months ahead.
    Thank you again for your consideration. I look forward to your 
questions.

    The Chairman. Thank you, Dr. King, and thank you for the 
story about your father.
    We're going to begin a round of questions now, which we'll 
limit to 5 minutes back and forth for each Senator.
    Let me start with some nuts and bolts. You've been at the 
Department for a while. You know how it works. We're coming to 
a transition point in Federal education policy in a variety of 
ways. When we have a new law, that means that every State will 
need to submit a new plan to you in order to receive the title 
I and title II money. That's about $17.5 billion.
    The law requires that organizations work together--States, 
teachers, ET cetera--and that you work with them. The 
conditional waivers that exist now are repealed on August 1 of 
this year. I would assume that we would hope that new State 
plans would be in place in time for the 2017-2018 school year, 
so I'm thinking that maybe plans would need to be in by mid-
summer of next year. The plans have to go through a peer 
review.
    Over the weekend I met with the Governors, and the 
Governors and teachers, all those people that I mentioned in my 
testimony, are forming coalitions State by State to work 
together on their plans. So you have a lot of people affected 
here. We've got 100,000 public schools, 50 States, 3.5 million 
teachers, 50 million children.
    And the other thing to say about this that's good, I think, 
is that this is a good law. It has broad support. It lasts 4 
years, but my guess is it may set Federal education policy for 
a longer period of time than that.
    So we've got a new multi-year law. We're going to have new 
plans that won't have to be amended unless there is dramatic 
change. So we could be ushering in not only a new direction but 
a new period of stability in Federal education elementary and 
secondary school policy, which I think teachers and principals 
and school boards would welcome. And because there are so many 
people working together to do this, it may help move--it won't 
entirely do it--move politics to the back burner and education 
to the front burner.
    What can you tell all of these States, teachers, chief 
State school officers about the schedule? When will your 
regulations be final? When do the plans need to be submitted? 
What's the schedule you'll use to implement the new law?
    Mr. King. Thanks for the question, Senator. We believe it's 
very important that the process we follow in implementing the 
Every Student Succeeds Act builds on the notion that 
stakeholder feedback and input is critical. So we have begun 
that process of gathering stakeholder feedback and input. We've 
held two public hearings. We published a notice in the Federal 
Register and received hundreds of comments from over 800 
individuals and organizations. We've held countless meetings 
with stakeholders, civil rights organizations, educators, 
community-based organizations as we gather input about 
implementation of the law.
    We are looking to understand from stakeholders, from 
schools and districts what kinds of guidance and regulations 
they think would be necessary for strong implementation. We 
have begun the process of negotiated rulemaking with respect to 
assessments and supplements to plans, two areas where 
stakeholders asked us to provide more clarity, and we will 
continue to work to review that comment and to----
    The Chairman. If you were still in New York, what would be 
your goal to have a State plan in? What would you be aiming at?
    Mr. King. Yes, we certainly have to have the plans in 
place, as you said, for the 2017-2018 school year. I think we 
want to make sure we have a deliberate process to provide 
guidance and regulations, and I think there's a real eagerness 
on the part of State chiefs to get started. As you indicated, 
many State chiefs are already beginning to consult with 
stakeholders and beginning to frame their plans.
    The Chairman. We had a hearing earlier this week with a 
number of the chief State school officers, Governors, ET 
cetera, and they expressed both points of view, really. They 
wanted to get on with it, but they also want to take the time 
to get it right, which is a nice balance.
    The only other thing I would say is--and I'll have other 
questions as we have time for a second round--we'll be having a 
half-dozen hearings this year on the implementation of the new 
law because, as I said, the law is not worth the paper it's 
printed on unless we implement it the way Congress wrote it, 
and oversight is as important a part of our job as passing the 
law is.
    So my request of you is that if you're confirmed, will you 
be available to me and to Senator Murray and other members of 
the committee and to our staff to promptly answer our questions 
as you go through this important period of time?
    Mr. King. Absolutely. I look forward to collaborating on 
implementation.
    The Chairman. I personally will promise not to bother you 
with a lot of politically inspired, long letters, but what I 
would like to do is if I've got a question, I'd like to get an 
answer, and if we have a disagreement, I'd like to find a way 
to resolve it promptly. I know that there are tens of thousands 
of people around the country who are affected by these plans, 
and they would have the same feeling.
    Senator Murray.
    Senator Murray. Thank you.
    Dr. King, I've been really impressed with this 
Administration's work over the years to protect civil rights, 
including promoting educational opportunities for students of 
color, women and girls, students with disabilities, LGBT 
students, and I look forward to continuing to work with you on 
those issues. But I wanted to raise one specific issue with you 
today, campus sexual assault and violence.
    It's a growing national crisis, and depending on the 
survey, we know that at least 1 in 5 women are being sexually 
assaulted while on our college campuses. That's stunning. One 
in five of our daughters, granddaughters, sisters, loved ones 
are being sexually assaulted while in college. That is, by the 
way, the lowest of the estimates out there, which is really 
appalling and unacceptable.
    I hear over and over again from students, from 
administrators, from survivor groups, schools, and everybody 
about the important work the Office of Civil Rights does to 
enforce title IX. In fact, before this hearing today, I 
received many letters from professors and students and sexual 
assault survivor groups supporting the work of the Office for 
Civil Rights, and I ask unanimous consent to include those 
letters in the record, Mr. Chairman.
    The Chairman. They will be.
    [The information referred to can be found in additional 
material.]
    Senator Murray. The Office for Civil Rights has taken some 
critical actions to make sure that our college campuses do have 
the tools and resources necessary to comply with title IX and 
keep our campuses safe, and I applaud their work. But I wanted 
to ask you, can you talk with us about the importance of having 
safe campuses and your Department's commitment to addressing 
that?
    Mr. King. Absolutely. It is a top priority for the 
President, for the Vice President, for the Department to ensure 
that we do everything possible to protect our students, male 
and female students, from sexual violence and sexual assault.
    In the period before the Administration and in the early 
years of the Administration, we saw both the challenge of 
sexual assault on campuses and genuine lack of clarity on the 
part of higher ed institutions about what they should be doing 
to protect students and what their responsibilities were under 
title IX.
    We issued guidance early in the Administration intended to 
try to address that lack of clarity. That guidance has been 
very helpful to higher ed institutions in creating safer 
environments for their students. We've worked very productively 
with higher ed institutions to adjust their policies to make 
sure that students are safe while protecting due process rights 
as well.
    We certainly want to continue that work. The White House 
Task Force on Sexual Assault has gathered extensive feedback 
and input, and we continue to try to steer institutions toward 
best practices that will help them keep their campuses safe.
    But all of us, I think, as parents and as citizens have to 
worry about the safety of our students. We want them to be able 
to go off to college or to be in a K-12 school and feel safe 
and know that the institution will do everything possible to 
protect their safety.
    Senator Murray. OK. This is something I will continue to 
followup, so I appreciate that.
    I also wanted to ask you about the teacher shortage. I hear 
this all over my State. It's exacerbated in schools that serve 
a high percentage of low-income students, rural areas, in hard-
to-teach subjects like STEM.
    Why do you think we are facing this teacher shortage?
    Mr. King. We've got two challenges. One is shortages in 
specific States in specific areas or driven by specific 
conditions in States. There are some States where teacher 
compensation is quite low relative to other fields. I think 
that makes it a challenge to recruit folks. There are some 
States that have experienced rapid growth in their population 
of English language learners and are struggling to recruit the 
necessary teachers.
    There are certainly districts and States around the country 
that are struggling with recruiting teachers to rural 
communities, which can be a challenge as rural communities lose 
population.
    But then I think there is a broader challenge, which I 
think is a tone in the conversation around educators over the 
last decade that has at times left teachers and principals 
feeling attacked or blamed for the challenges that we have as a 
society. I think the new law gives us an opportunity for a 
reset on that conversation to broaden how we think about 
educational excellence to make sure that teachers and 
principals are very much a part of how districts and States use 
the new flexibility under Every Student Succeeds Act.
    And I think we have an opportunity to build on the 
bipartisan work on the Every Student Succeeds Act with some of 
the President's budget proposals. The President proposed a $1 
billion investment in making teaching the best job in the 
world, investing in the time for collaboration that teachers so 
desperately want, creating incentives for teachers to go into 
the highest-need communities and to teach in high-need subjects 
like math and science and so forth; ambassador teacher 
preparation and school leader preparation, because we know 
strong preparation helps people arrive better prepared and 
makes it more likely that they will be able to stay.
    I think there's real opportunity to shift the conversation, 
but there's an urgent need to do so.
    Senator Murray. I agree, and I look forward to your 
Department really working to elevate that conversation 
nationally, so thank you very much.
    The Chairman. Thank you, Senator Murray.
    Senator Enzi.

                       Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman. I want to thank you 
for urging the President and our leader to do some rapid 
confirmation so we'd have an actual Secretary of Education in 
place. I know from your background that you realize the 
importance of getting that done because you've been through 
that lengthy waiting time yourself.
    I want to thank Dr. King for the opportunity to visit a 
little bit yesterday. I will have some numbered questions for 
you. I don't ask those in hearings because I found that it puts 
people to sleep. So I'll focus my questions today on cyber 
security at the Department of Education and the important 
protections that we need for the student information.
    In 2015 there was an audit, and the Inspector General 
conducted a cyber-security review in which he was able to 
penetrate one of the Department's networks and move throughout 
the system undetected. The Inspector General concluded,

          ``We determined that the Department's overall 
        incident response and reporting program was not 
        generally effective because we identified key 
        weaknesses in its detection and prevention system 
        penetration.''

So the Department's inability to detect an outside actor as it 
moved throughout the system raises concerns that the Department 
has already been breached and is unaware of the compromise to 
its systems. These systems include 139 million Social Security 
numbers in the Federal Student Aid Program, which is about $1.2 
trillion in Federal assets.
    In the prior year's report the IG reported,

      ``In some instances, although the Department said it has 
completed a recommendation, we continue to find that the 
corrective actions were not implemented, and we had to issue 
modified repeat recommendations because of the exact similar 
conditions continuing to exist.''

    Protecting the privacy and security of the student's 
personal and financial information is one of the greatest 
responsibilities, I think, of the Department, and I do find the 
history of the Department's capability to execute that pretty 
alarming.
    To what level are you concerned about this? And, if 
confirmed, what plans do you have to strengthen the cyber 
security and to improve the incidence response and the 
reporting?
    Mr. King. Cyber security is a top priority for me and the 
senior leadership team at the Department. Since I joined the 
Department in January 2015, I've been focused on trying to 
strengthen our cyber security posture, even to the level of 
having weekly meetings when I was in the role of Deputy, weekly 
meetings with our senior leadership team across the Department 
focused on making rapid progress on cyber security.
    I can tell you some encouraging progress has been made over 
the last year. Last spring and summer, when there was a Federal 
cyber security sprint to evaluate the cyber security posture 
across Federal agencies, it was found that the Education 
Department was only at 11 percent in terms of the percentage of 
our privileged users using two-factor Level 4 authentication, 
that level of security that is recommended for protecting our 
data information when users come onto the system.
    Since then we worked very diligently, amended nearly 60 
contracts, and today I can tell you 95 percent of privileged 
users are using Level 4 two-factor authentication, and we are 
closing in on 100 percent by the end of next month.
    We're making progress in closing items from our FSMA audit 
that were identified. We are working with the Inspector General 
and want to address the concerns that the Inspector General has 
identified.
    We are also working very closely with the Department of 
Homeland Security to leverage their best expertise from across 
the Federal Government.
    This is a top priority. It is fair to say that there is 
more work to do, and we've got to move quickly to strengthen 
our cyber security posture. But the threats that are out there 
are numerous and will continue to grow and evolve, and we've 
got to make sure that we have the strongest possible posture.
    Senator Enzi. I appreciate the steps you've taken, and 
we'll be looking forward to additional ones. I know that in 
that report there were 16 findings of security weaknesses, and 
six were repeat findings from the previous year, and now there 
are 26 recommendations to solve those weaknesses, and 10 of 
them are repeat recommendations.
    So what steps are being taken to address the 
inefficiencies? And, if confirmed, will you commit to working 
with the Inspector General to implement all 26 recommendations?
    Mr. King. I'm very committed to implementing the 
recommendations. I think over time there have been challenges 
both in terms of resources and talent acquisition. I think we 
see this challenge across the Federal Government, trying to 
identify strong cyber security professionals. We recently added 
a new chief security officer to our IT team. I think that will 
be very helpful. He's got military experience, military 
intelligence. I think that will add a lot to our team.
    FTARA I think will be helpful. One of the historical 
challenges in the Department has been separate IT structures 
between the Department and Federal student aid, and FTARA will 
bring those together.
    I think we're well positioned to make progress on all 26. 
We're committed to closing out those items.
    Senator Enzi. Thank you.
    My time has expired. I'll submit some numbered questions.
    The Chairman. Thank you, Senator Enzi.
    Senator Whitehouse.

                    Statement of Senator Whitehouse

    Senator Whitehouse. Dr. King, welcome. I am glad you're 
here, and I intend to support your nomination. But I want to, 
first, behind you, say how well your daughters are doing 
through the tedium of this hearing.
    Mr. King. Thank you.
    Senator Whitehouse. I'll channel a bit what I hear from my 
teachers in Rhode Island. I worked very, very hard on the 
middle school piece of the ESSA, and on the innovation schools 
piece, with literally years of work with educators to try to 
get those pieces as good as they could be. And in that process 
I spent a lot of time listening and learning, and some of the 
things that I learned are that the classroom teachers don't 
have a lot of faith in the education oversight machinery. They 
very often see it as propagating a jargon cycle where people 
come and offer the latest jargon to them for their classrooms, 
and then after a couple of years, when the jargon gets stale, 
they go off to other conferences and learn new jargon and come 
back. And after you've seen rinse and repeat a few times, it 
begins to look pretty repetitive.
    They have seen sort of Celebrity Chef type folks come 
through who seem to have their eyes more on the approval of 
faraway foundations than on the classrooms in which they serve. 
They see more forms, they see more tests, they see less 
resources, they see less freedom. I think, to use your father's 
story, they see more rules about casts, and I don't know that 
rules about casts served your father or his classroom very 
well.
    I think what they want more than anything else is the 
benefit of the doubt, where teachers and the community support 
local innovation, and to be able to support and implement that 
with the least obstruction and delay.
    So I would hope that as you discharge your duties, you will 
do so with a keen eye for the hazard of unintended 
consequences, which the testing regime is a prime example of; a 
prudent judgment about the tools of particularly Federal 
oversight; with an abiding confidence in the value of local 
innovation and initiative; and with an appreciation that 
sometimes the course of wisdom is to get out of the way.
    I think if you can do that, be there when we need you and 
be out of the way when the schools are trying as hard as they 
can to get it right, I think that will make a very big 
difference in our schools.
    Teachers are fed up, and they're not just fed up with the 
old buildings and the budgets that they have to deal with. I 
think a lot of them are also fed up with an oversight mechanism 
that they don't feel is serving their classroom interests. So I 
urge you to take that to heart, and you'll have our full 
support.
    Mr. King. Thank you very much. I appreciate that. I think 
every ounce of feedback gives us some great opportunities to 
foster that local innovation and allow districts and States to 
rethink the definition of educational excellence beyond just 
English and math test score performance, to think about the 
role of science and social studies and art and music, to 
rethink how they approach closing achievement gaps based on 
innovation, and I think we've got an opportunity as well with 
education innovation and research programs within the Every 
Student Succeeds Act to continue to build an evidence base 
around innovations that work with students, locally driven, and 
then to scale those innovations through local decisionmaking.
    I'm very optimistic about the potential. Thank you.
    Senator Whitehouse. We'll be on the same page, then. But as 
you know, I think, from dealing with folks, it's a pretty 
strong feeling out there. They don't have the tools to do the 
job. People are in their hair, and they are so urgent about the 
need to do their job better in the classroom. They need 
resources, not restrictions.
    Mr. King. I think that's right. We have the Teach to Lead 
initiative at the Department, bringing together teacher leaders 
from across the country, and that is exactly the sentiment we 
hear, and people are excited when they have the opportunity to 
work with colleagues to do innovative things in their 
classrooms, in their schools, in their districts to try and 
improve outcomes for students.
    The Chairman. Thank you, Senator Whitehouse.
    Senator Isakson.

                      Statement of Senator Isakson

    Senator Isakson. Thank you, Chairman Alexander, and thank 
you for your conversation yesterday on the phone, Dr. King. I 
appreciate it. It's good to have your family here. Your 
daughters are beautiful.
    Mr. King. Thank you.
    Senator Isakson. So is your wife, by the way.
    Mr. King. Thank you.
    Senator Isakson. You and I suffered a similar criticism in 
our careers. When you were in New York and Commissioner of 
Education, you caught a lot of hell for having too much 
testing, if I read correctly some of the articles. I'm one of 
the last remaining people who voted for No Child Left Behind in 
the Congress of the United States, and we caught plenty of hell 
for requiring too much testing.
    The current bill that Chairman Alexander and other members 
of the committee brought about in terms of testing allows 
parents to opt out of testing. That opt out provision was in 
there precisely to address the concern that many people had 
about too much testing. The 95 percent participation rate is 
still required in Every Student Succeeds Act, as it was under 
No Child Left Behind. The difference is the State is the 
authority that enforces that requirement, not the Federal 
Government. You have the ability to say you'll withhold title I 
funding, but only the State can see to it that it's withheld, 
and they can have another mechanism to ensure participation.
    Given that we have the opt out provision, which I authored 
because of my experience with too much testing, and given that 
we still have the 95 percent participation rate, how are you as 
the Secretary of Education going to work with the States to 
ensure we have a participation rate that gives us the good 
metrics we need to know without forcing it down the throats of 
parents and educators?
    Mr. King. I appreciate the question. I think it's very 
important that we had in No Child Left Behind and have in Every 
Student Succeeds the expectation for all students to 
participate in the assessments. At the same time, I think we 
have an opportunity with the Every Student Succeeds Act to 
shift the tone, that we want to work with States on this. We've 
asked States that haven't met their participation requirements 
to develop State strategies to try to respond to that.
    I think one thing I learned in New York, and I wish we'd 
done sooner, was we ran a grant program to ask school leaders, 
teachers, in some cases parents to look together at the 
assessments that are given in any given district and ask do we 
need all of these, are these the right ones, do they make 
sense, could we reduce the number, are some of these 
assessments low level and should we replace them with things 
like essays and research projects and science experiments and 
lab reports. That grant program was very successful. That is 
similar to the testing action plan that the President announced 
in the fall. We've given guidance to States and districts on 
how they can use existing funds for those kinds of audits.
    I do think we have to acknowledge that there are places 
around the country over the last decade where there has 
genuinely been too much time spent on testing and too little 
time, as a result, or a loss of time on instruction, and I 
think we have an opportunity to shift that. The President has 
in his budget a proposal to increase funding for assessment 
grants so that States have additional resources that they can 
put toward those kinds of audits where they review assessments 
and get rid of ones that are unnecessary.
    So I'm optimistic that the new law, the thoughtfulness of 
State leaders I'm seeing across the country in looking at how 
they reduce assessments to the minimum necessary to support 
good instruction, I'm optimistic that those things will help us 
get to a better place.
    Senator Isakson. I appreciate your answer. You have a 10-
month period of tenure, I guess, for sure, through this 
Administration, but that 10 months will include the beginning 
of the upcoming school year, which starts around the country as 
early as the first week in August in Georgia. So you're going 
to be having a lot of situations to have communication with the 
States regarding requirements and regarding the flexibility of 
the Every Student Succeeds Act.
    I hope you will take that opportunity to realize that the 
States went to the Federal Government for relief by asking for 
waivers from No Child Left Behind because we didn't do the 
reauthorizing we should have. Now that we have done a 
reauthorization, now that the States are more engaged in the 
implementation of elementary and secondary education, I hope 
you'll treat this as a partnership between the Federal 
Government and the States, not a dictatorship from the Federal 
Government to the States.
    And thank you for your service.
    The Chairman. Thank you, Senator Isakson.
    Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman.
    Millions of Americans are being crushed by student loan 
debt. More than 90 percent of that debt is either owned or 
guaranteed by the Department of Education through its Federal 
Student Aid Office. In other words, the Department of Education 
runs what amounts to a trillion-dollar bank, with exactly one 
product, student loans, and exactly one obligation, fairly 
serving millions of student loan customers.
    It is clear to me that the Department's bank is in need of 
some serious improvement. Would you agree with that, Dr. King?
    Mr. King. As we discussed, I look forward to working with 
you and the rest of the committee to try to strengthen the 
student loan system. I worry that too many students don't 
understand their options with how to manage the debt that they 
have. I worry that there are institutions that are bad actors, 
where there's a need for more enforcement. We just added a new 
enforcement unit to focus on that. So I'm very committed to 
continuing to work with you and with the committee to 
strengthen our efforts in this.
    Senator Warren. I appreciate that and I'm glad to hear it 
because I want to put in the record just a few of the problems 
about how the Department's student loan bank has been falling 
down on the job.
    First, the Department of Justice found that the student 
loan servicer Navigant, formerly known as Sallie Mae, had been 
cheating the women and men of our military on their student 
loans and fined the company $60 million. But the Department of 
Education's bank took no action. Instead, the Department's bank 
let them off the hook after conducting its own separate and 
deeply misleading review. The bank then rewarded the company 
that cheated our members of the military by renewing another 
$100 million contract.
    Second, the CFPB identified widespread failures in student 
loan servicing. Servicers routinely mistreat borrowers and 
break the rules, but the Department of Education's bank 
consistently renews their contracts. And in 2014, the bank even 
gave these companies a raise.
    Third, over the last decade the Department of Education's 
Inspector General has criticized the bank's failure to police 
debt collectors who casually break consumer protection laws. 
The Department of Education's bank is still paying those same 
debt collectors that break the law.
    Fourth, the student loan bank won't share data about the 
student loan program with anyone, not even the rest of the 
Department of Education. This means that nobody, nobody has any 
insight into how this trillion-dollar bank is being run.
    And fifth, the last one I'll mention here, despite these 
massive and ongoing problems, the Department's bank thinks that 
it is doing such a great job that in 2014 they gave dozens of 
their own senior officers--those are your Department's 
employees--bonuses, and some of those bonuses were as high as 
$75,000.
    So there are five examples, and I understand, Dr. King, 
these problems existed long before you ever set foot in the 
Department of Education. But if you are confirmed as the next 
Secretary of Education, you will be responsible for how the 
Department's trillion-dollar bank runs. Will you commit 
yourself to cleaning up this bank's operation and making sure 
that it works for the students that it is supposed to serve?
    Mr. King. I am deeply committed to ensuring that Federal 
student aid serves students well, serves borrowers well, and 
protects the taxpayer interest.
    Let me tell you four things that I think are promising. One 
is the Department has worked on the gainful employment 
regulations, which I think will help to ensure at the outset 
that institutions provide good information to students and 
ensure that we act when there are bad actors.
    Two, on the servicing issues around service members, we 
have now in place a system where there is automatic 
notification between the Department of Defense and FSA when 
service members go into active duty, and that automatic 
notification then protects service members. We also have tried 
to make whole any service members who did not have the proper 
interest rate prior to that system going into place.
    Third, we have created this new enforcement unit that I 
mentioned. Robert Kay, who has been an enforcement litigator at 
the FTC, has joined us to lead that unit, and we are committed 
to taking action with bad actor institutions.
    And fourth, we will shortly re-compete the servicing 
contract, and as we do that we will integrate into that 
servicing contract many of the suggestions that you have made, 
that other advocates have made regarding how we're going to 
protect students' and borrower interests, and feedback we've 
gotten from higher ed institutions as well that worry about 
their students and their borrowers and want to make sure they 
are well served.
    So I think there are promising indicators, but you are 
right, there's a lot of work to do to ensure that we protect 
our students and borrowers, and we intend to do that.
    Senator Warren. I very much appreciate it. I appreciate the 
steps that you are already taking. I just want to say it is the 
Department of Education's job to stand up for students, not for 
the student loan companies that are making money off these 
loans or these for-profit colleges that want to suck down more 
taxpayer dollars.
    The Department's student loan bank is failing massively at 
this critical task, Dr. King, and the American people need to 
know that if you are confirmed you will make it a priority to 
fix these problems. Thank you.
    Mr. King. Thank you.
    The Chairman. Thank you, Senator Warren.
    Senator Scott.

                       Statement of Senator Scott

    Senator Scott. Thank you, Mr. Chairman.
    Dr. King, good to see you again. Thank you for coming by 
the office yesterday and spending some quality time on the 
issue of education. Certainly, your friend and my friend, Mo 
Cowan's opinion of you is very high, and thankfully so. It 
certainly has had some influence and impact, though he needs to 
come back from Massachusetts to DC more often.
    [Laughter.]
    A question for you on charter schools. I know that you were 
intimately involved in Roxbury Prep and had a lot of success 
there. When I saw a similar program being replicated through 
the Uncommon Charter Schools, it was very successful. What can 
we expect from you in terms of charter schools, and how will 
your approach be different from the approach of Secretary 
Duncan?
    Mr. King. I appreciate the question. We think charters can 
play a key role in fostering innovation in education and 
providing better outcomes for high-need students. Certainly 
that's what we tried to do at Roxbury Prep and at Uncommon.
    We have two programs that are supporting charters, our 
Charter School Program, which is designed to spur the creation 
of new, high-quality charters, and also strengthen charter 
school authorizing; and we have a program that's focused on 
scaling high-performing charter management organizations. The 
President has proposed increased funding for charter efforts.
    We are very focused on how we grow the number of high-
performing schools that students can choose, whether it's 
district or charter schools. As we do that, one of the things 
we have to be vigilant about is authorizer quality. As we 
talked briefly about, I do worry that there are places where 
authorizers aren't doing a good enough job. We have to make 
sure that authorizers act when schools aren't delivering on the 
promises of their charter. I think that will help lift the 
sector.
    But as States move forward with the Every Student Succeeds 
Act and think about what interventions they will put in place 
in high-need schools, growing the number of innovative high-
need schools, whether that's innovative district schools or 
innovative charter schools, should be a part of that 
discussion.
    Senator Scott. One area where we may have to agree to 
disagree is on the D.C. Opportunity Scholarship. I know that 
there are some parents and students in the audience who have a 
very passionate position, as I do, on the importance of the 
D.C. Opportunity Scholarship, especially when you look at your 
commitment to equity and excellence and the fact that we have a 
classic example here in Washington, DC of a process and a 
program that has produced numbers and success in a way that's 
inconsistent with other schools.
    I think the graduation rate of those students attending a 
D.C. Opportunity Scholarship program is around 90 percent. 
Other schools in the DC area is around 62 percent, with some 
going as low as 38 percent. The cost per pupil for the D.C. 
Opportunity Scholarship program is somewhere around $9,000 to 
$12,000. For the other schools it's over $18,000. You get a 50 
percent better graduation rate. Eighty-eight percent of those 
students go on to a 2-year or 4-year college experience.
    It seems to me that the Administration and you as Secretary 
should take a second look at that program and look for ways to 
integrate it and to use the carryover money, $35 million, to 
fund more scholarships. Frankly, this is not just my 
perspective. This is a bipartisan perspective. When you look at 
the support of Senators like Republican Senator Ron Johnson, as 
well as Senators Feinstein and Cory Booker, all have the same 
opinion of D.C. Opportunity Scholarship.
    What can we do to move the Administration, and perhaps you 
as the new Secretary, in the direction of using that $35 
million in carryover funds to fund more scholarships? When you 
take into consideration the fact that in the DC area there are 
basically three approaches to education, the DC public schools 
get about $20 million a year. The Opportunity Scholarship 
program is around $20 million a year. So the funds that are 
necessary to continue the scholarships apparently are already 
there.
    What we have an opportunity to do is to take the $35 
million to use for more scholarships so that we see more kids--
97 percent of these kids are either African American or 
Latino--we see more kids succeeding at high levels, especially 
when you think about the fact that 60 percent of these kids are 
receiving TANF or SNAP benefits, and yet they are out-
performing their peers throughout the DC area and perhaps 
throughout the country.
    Mr. King. As we talked about, I very much respect your 
position. I think our view is that the number of slots in the 
DC voucher program should be based on annual appropriations. To 
the extent that there are open slots within the annual 
appropriation, those would be filled. We think the carryover 
funds should be maintained to ensure that the currently 
enrolled students, if new appropriations are not made, have the 
opportunity to complete their education in the schools where 
they are now enrolled.
    Again, I respect that we have a difference of opinion on 
that. I think we share an urgency around equity and excellence. 
I do not personally believe that vouchers are a scalable 
solution to the equity and excellence challenge and prefer the 
route of public school choice but respect, certainly respect 
your position on this.
    Senator Scott. I'll just close with this, Mr. Chairman. I 
certainly think that your success on charter schools is 
undeniable, and thank goodness that you've taken that try. It 
has been a successful try. I think when you look at the D.C. 
Opportunity Scholarship and the fact that over a 10-year period 
of time we've seen 6,000 students go across, and 95 or 93 
percent of those kids graduate, that it would be a shame for us 
not to take advantage of a system or a program that is working 
so well, that we have so many kids that would have been denied 
access to higher education now being involved in higher 
education, succeeding in higher education. That changes their 
entire family system. So for us not to take a second look at 
this would be a shame.
    Thank you.
    The Chairman. Thank you, Senator Scott.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Mr. Chairman.
    Good afternoon. Congratulations. I have to pass on to you a 
compliment paid to you by a friend shortly after you were named 
to the interim position. This individual said to me it's 
wonderful that a person like John King could become the 
Secretary of Education. I asked him what he meant by that, and 
he said, you know, it's not just his background, to have 
somebody there who has done everything within the educational 
system, someone who wasn't a creature of Washington but a 
creature of local school districts, but just someone of the 
temperament and the disposition that John has. You have a lot 
of fans out there, not because of the work you've done but just 
because of the person you are, and that has come through in 
every post you've had, a real tribute to you.
    Dr. King, I wanted to talk to you a little bit about one of 
the particular provisions in ESSA that I care most about. I and 
others on this committee--Senator Warren, Senator Murray, 
amongst others--fought very hard for requirements in the new 
elementary and secondary education law that would ensure that 
States must step in with evidence-based interventions for the 
lowest performing schools, the bottom 5 percent of schools, 
dropout factories that failed to graduate a third of their 
students, and schools with consistently under-performing 
subgroups.
    These requirements, they're essential to maintain the core 
purpose of ESEA, originally, as a civil rights law. It's not 
really any good to have a Federal education law if it's not 
also a civil rights law. But it's really going to be up to the 
Department to ensure that States have meaningful definitions of 
things like ``consistently under-performing'' and that States 
and districts are monitoring schools with consistently under-
performing subgroups.
    So my question is a general one. The law, it does 
appropriately turn over a lot of flexibility to States in the 
design of these accountability systems, but it also includes 
some really important Federal guiderails. So as Secretary, how 
are you going to ensure that States implement accountability 
systems that protect these subgroups of vulnerable students?
    Mr. King. Thanks. I appreciate the question. The civil 
rights legacy of the Elementary and Secondary Education Act is 
crucial to preserve and advance, and I think States have an 
opportunity to use their flexibility around interventions to 
increase equity. In order to do that, I think you're exactly 
right, we will need to ensure that there are good guardrails, 
that we're gathering comment and feedback from schools and 
civil rights organizations and community leaders and educators 
to understand how we can, through regulations and guidance, 
support the implementation of interventions that actually move 
us closer to closing the achievement gap.
    I think it's a good thing that the Every Student Succeeds 
Act moves us away from the one-size-fits-all solutions of No 
Child Left Behind. If you've got a school that's struggling 
with a population of English learners, you should be able to 
bring in evidence-based professional development and teaching 
practices and help teachers support those English learners. You 
shouldn't have to go to a one-size-fits-all solution that has 
nothing to do with English language learners because that's in 
a Federal law.
    I think there's an opportunity here for States to have 
smarter interventions and districts to have smarter 
interventions. But it will also be important for the Department 
to be vigilant after that first set of interventions is put in 
place. If they aren't working, if they aren't closing 
achievement gaps, if they aren't raising graduation rates, 
there's going to need to be a demonstrated effort on the part 
of States to intensify those interventions, to act on the 
evidence, and to change strategies.
    So we are going to be very careful in our work to regulate 
on this, to provide guidance on this, and to provide technical 
assistance, and we're going to be guided in that by the 
feedback that we get from stakeholders.
    Senator Murphy. I appreciate your focus on this. I want to 
ask one additional question, following up on Senator Warren's 
questions.
    Another one of these for-profit schools, Marinello School 
of Beauty, went out of business earlier this month, leaving 
about 460 students in my State suddenly with unfinished degrees 
and massive student debt. These are just piling up, the 
headlines, by the month.
    You've got the ability in the Department of Education to 
cutoff aid for schools only when they hit a fairly ridiculous 
trip wire, which is 30 percent of their students effectively 
achieving the status of financial ruin, that they have gotten 
so badly behind on their debt that they are defaulting.
    A lot of the conversation around higher ed reauthorization 
here is whether there's a better way to give you power or give 
you the ability to intercede earlier than that moment when one-
third of all students graduating from an institution have 
gotten degrees that are so worthless and meaningless that they 
can't pay back their student loans, this concept of shared 
responsibility.
    What do you think about the need to give the Department of 
Education some new ability to intervene a little bit earlier?
    Mr. King. We would love to work with you on that. I do 
think the gainful employment regulations will help with respect 
to some of the institutions. Our new enforcement unit will 
help. But strengthening the accountability within the Higher 
Education Act would be very valuable, including strengthening 
the accountability for accreditors. If you look at what 
happened with Corinthian, Corinthian was accredited throughout. 
So ensuring that accreditors are paying close attention to 
whether or not students are getting what they pay for I think 
is also a critical step we can take in the reauthorization.
    Senator Murphy. As the Chairman and Ranking Member will 
remember, we had the accreditor of Corinthian before us, who 
defended the accreditor's total and complete inaction in the 
wake of Federal Government intervention, which to many of us 
was a little hard to swallow.
    Thank you very much, Mr. Chairman. Thank you.
    The Chairman. Thank you, Senator Murphy.
    Senator Collins.

                      Statement of Senator Collins

    Senator Collins. Thank you, Mr. Chairman.
    Welcome, Dr. King, and congratulations again on your 
nomination.
    ESSA includes some innovation that is an assessment pilot 
program which I co-authored with Senator Sanders, which ought 
to tell you something about the breadth of support that the 
program has.
    [Laughter.]
    Senator Collins. This is a pilot program that would allow 
seven States to develop alternative models for assessment. One 
such model could be proficiency based, which Northern New 
England is particularly interested in. And the law allows seven 
States, as I mentioned, to participate in the demonstration 
project.
    What are your plans for implementing this pilot program?
    Mr. King. Thank you for the question, and thank you for 
your leadership on this issue. I think we are still in the 
early stages of gathering feedback and comment from some 
stakeholders in areas where regulations or guidance will be 
helpful. As we work on the innovative assessment pilot, I think 
we have a good example to look toward, as we discussed briefly, 
in New Hampshire. New Hampshire I think is doing very good work 
on building a performance-based assessment system led by 
teachers that then will transition into, they hope, their 
statewide assessment system. So we will certainly look to their 
example and leadership, but we want to make sure that we 
support States as they think about taking advantage of this 
opportunity.
    Senator Collins. Turning to another topic, when I talk to 
school administrators in Maine, they tell me that they're very 
concerned that the maintenance of effort requirements under 
IDEA are producing the unintended effect of hindering the 
ability of school districts to provide the most effective and 
cost-efficient services to children with special needs, and let 
me give you an example that one gave to me.
    A school district in Maine wanted to hire an in-house 
school pathologist--sorry--speech pathologist to provide 
services to children with special needs instead of using a much 
more expensive outside contractor. Unfortunately, they found 
they could not do so because it would be considered reducing 
the maintenance of effort because it would be less expensive. 
Yet clearly, from this school district's perspective, having an 
in-house speech pathologist is far more responsive to the needs 
of these students than contracting out that function.
    A GAO report last October also commented on this lack of 
flexibility and said that it discouraged school districts from 
changing spending decisions even when doing so would benefit 
their special needs children. The limited regulatory exceptions 
for adjusting the maintenance of effort requirement do not 
appear to allow for those kinds of changes.
    As Secretary, would you consider refining the maintenance 
of effort regulations so that if a school district is actually 
trying to produce better outcomes for special needs students, 
they can do so even if it ends up lowering the cost?
    Mr. King. I appreciate that. Certainly, the principle--I 
think we'd agree that the principle of maintenance of effort as 
a way of protecting the services that students with 
disabilities are receiving and ensuring that school districts 
meet those needs is clearly the right principle. I would 
certainly like our team to talk with yours about these specific 
cases and to look at how they evolved.
    As we talked about, I think particularly in some of our 
rural areas around the country, these issues are particularly 
pertinent, and it's particularly challenging. One of the things 
that we tried to do in New York was to leverage shared regional 
service providers to try to ensure that districts were able to 
get the students the services they need in a sustainable way. 
But certainly I want to make sure our teams connect on that and 
talk through that because we certainly want to be in a position 
of supporting districts in serving students with disabilities 
as well as possible.
    Senator Collins. Thank you. My final comment is that I hope 
you will have a listening session in a rural area--we talked 
about that in my office--as opposed to just large urban areas 
like L.A. and DC.
    Mr. King. Yes, absolutely.
    Senator Collins. Thank you.
    The Chairman. Thank you, Senator Collins.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thank you, Mr. Chairman.
    Dr. King, welcome, and thank you for your testimony and 
your willingness to serve. We appreciate that commitment.
    I want to commend and salute your family as well, because 
when you serve, they serve with you in one way or another. We 
appreciate the commitment your family has made to this high 
level of public service.
    I wanted to start with an issue we discussed and about 
which we have a disagreement, and that's the student loan 
servicing reallocation question, where I have a disagreement 
with the Department and I think it could have an adverse impact 
on borrowers, and we don't agree, but I hope we can continue to 
engage on that and come to a resolution that's satisfactory. 
So, I hope you'll be open to further engagement on that.
    I wanted to start, though, with an issue which we don't 
hear an awful lot about. As you know, it has a very technical 
name, ``significant disproportionality,'' which I guess the 
simplest way to describe it is children of color 
overrepresented in special education, for a whole variety of 
reasons.
    I'm pleased that the Department has released a draft rule 
to address this issue. We know that this is a huge problem 
across the country. Data that I know you're aware of that 
covers about a 12-year timeframe, data gathered by the Office 
of Special Education Programs indicated, among other things, 
that, for example, African American students were 50 percent 
more likely and Hispanic students 40 percent more likely to be 
identified as a student with a learning disability. Similarly, 
African American students were 70 percent more likely, and 
American Indian and Alaska Native children were 120 percent 
more likely, to be identified as a student with an emotional 
disturbance. All of that, of course, results in those students 
being suspended at much higher rates than other students.
    We know that this issue of so-called overrepresentation is 
a widespread problem. We know that in 2013 the GAO found that 
only 2 to 3 percent of districts nationwide were reporting 
over-identifying students of color as special education. So 
that's obviously a failure of our system when only 2 or 3 
percent of districts are tracking this and identifying the 
problem.
    We know that hundreds, literally hundreds of districts 
across the country with these disparities go unidentified. The 
children don't get the help they need and are misidentified 
early on in life and, in essence, among other horrific 
problems, the problem feeds the school-to-prison pipeline.
    So all of that by way of background, every bit of it I 
think you know. Can you walk us through some of the 
recommendations of the GAO report?
    Mr. King. One of the things that the GAO report asked us to 
do is to look at the methodology that States were using to make 
these determinations around disproportionality. So what we've 
done in the proposed rule is suggested that States develop a 
risk ratio methodology that will help them figure out which are 
the districts where there is this disproportionality as a first 
step to a process of then evaluating why that 
disproportionality is happening and then addressing resources 
to intervene.
    One of the things that we've tried to extract about this 
proposed rule is that it's not intended to necessarily reduce 
the number of students identified as having disabilities. It's 
about ensuring that students are getting the right services. In 
some cases it's that students, African American students, 
Latino students, particularly African Americans and Latino male 
students are in some places disproportionally assigned to more 
time outside of the regular classroom even for the same 
disability issue that other students aren't assigned out of the 
classroom, where we see students disproportionately suspended 
from school or assigned to an alternative placement.
    We want to see this as an opportunity to get States and 
districts to take a second look at why that is happening, and 
that's the goal of this rule. We think it's an important step. 
We're certainly eager to get public comment on it to ensure 
that the final rule addresses the public comments.
    Senator Casey. We appreciate that, because I know--I say 
this as a former State auditor general, where we would have 
audit findings and make a long series of recommendations, and 
you wonder if the State agency would be responsive. In this 
case, you're taking a GAO report addressing a serious problem 
and actually putting into place rules to improve it and to help 
our kids. We appreciate your work on this. We appreciate the 
Department's work.
    Mr. King. Thank you.
    Senator Casey. Thank you.
    The Chairman. Thanks, Senator Casey.
    Senator Roberts.

                      Statement of Senator Roberts

    Senator Roberts. Thank you, Mr. Chairman.
    Dr. King, welcome to the committee, and congratulations on 
your confirmation. It's good to see your family. I just 
happened to notice that your two daughters--I had two daughters 
about that age some years ago, so I want to thank them for 
their patience, No. 1. No. 2, I happened to observe, like my 
daughters, their countenance. I would urge you sir to get up at 
5 in the morning, so you can get home at 6 in the evening. You 
have no idea how many young men are going to be knocking on 
your door.
    [Laughter.]
    I also have a big stick that I can loan you.
    [Laughter.]
    So come to my office on a courtesy call and I'll give you 
that stick.
    Mr. King. Absolutely.
    Senator Roberts. I know that we have differences on Common 
Core. I don't want to get into that, but it is part of existing 
legislation and law, and I want to be absolutely clear. The 
language says, ``No officer or employee of the Federal 
Government, including the Secretary, shall attempt to 
influence, condition, incentivize, or coerce State adoption of 
the Common Core State standards or any other academic standards 
common to a significant number of States, or assessments tied 
to such standards.''
    I know that we, again, may have differences, but 
nevertheless, will you give us your commitment that you will 
respect the intent, as well as the explicit and binding letter 
of that prohibition?
    Mr. King. Absolutely.
    Senator Roberts. Thank you. That's all I need.
    Mr. King. OK.
    Senator Roberts. You were going to come into my office last 
week, and then it didn't work out. Now I want to let you know 
that I held a roundtable discussion in Kansas at Washington 
University, 12 college presidents, 12 colleges and universities 
and 12 business stakeholders to discuss business education and 
workforce development. We heard from the higher education 
leaders about the impact of Federal programs, policies, and 
regulations. And since the Chairman and Senator Whitehouse and 
Senator Enzi and others, and Senator Collins here just a moment 
ago, mentioned regulations, I want to share this handy chart 
from one of the participants, Johnson County Community College, 
that has the most students of any university and/or college in 
the State of Kansas, even KU, Wichita State.
    Thirty-four topic areas of Federal regulation. They have it 
in bubbles here, and I would hope we could burst the bubbles. 
Taxes, academic programs, environment, admissions, auxiliary 
services, financial aid, disabilities, grants, campus safety, 
international programs, insurance, health care, immigration, 
privacy, athletics, contracts, fundraising, employment, 
housing, retirement, intellectual property, sexual misconduct, 
research, accreditation, unions, wages, information technology, 
program integrity--I'm running out of breath--copyright, 
trademarks, contracts and procurement, diversity, accounting, 
ethics and lobby.
    Here's the deal: every one of these regulations have to be 
adhered to, and with the cost/benefit here where the cost is 
exceeding the benefit. And we have an awful lot of people here 
now that are in charge of these regs and trying to fill these 
regs out, and this is not unique just to this community 
college, but it is the same, I suspect, nationwide, and I know 
in Kansas as well.
    My plea to you is that all of these people have jobs to do. 
You can't hire 34 people to do all of this that have expertise 
in this area to keep up with the paperwork and the regs. Just 
like Sheldon Whitehouse said, he said teachers want to be free 
to teach, and they want to be able to teach with regards to the 
time, as opposed to filling out paperwork.
    So my question to you is can you help us and be a partner 
in this effort? All of us have obligations with this--we know 
that--in the education community. But, my goodness, if you 
total all this up and the money spent and the hours spent, like 
the Chairman has indicated, we have to do a better job. I just 
urge you to be a partner in this effort so we can adhere to 
what we want to accomplish. But, quite frankly, I think a lot 
of this could be done on the local level.
    Now you have 32 seconds to respond.
    [Laughter.]
    Mr. King. I am committed to working with you on this issue, 
and I'm committed to working with the committee to try to 
identify places where we can make smart improvements to make 
the system more efficient for higher ed institutions. I will 
say we are making some progress on recommendations that higher 
ed institutions have made in the past.
    For example, one recommendation was around prior use of tax 
information from the prior-prior year as part of the FAFSA 
process. That will be implemented starting next fall, on 
October 1. We have also been asked to move FAFSA data. We've 
done that. FAFSA will be available on October 1.
    So we are making some progress and are certainly willing to 
work with you to identify other places.
    Senator Roberts. I appreciate that.
    My time has expired.
    I'm from Dodge City, KS. Senator Collins underscored the 
need to look at rural areas. We think we have some very fine 
higher institutions of learning, and we have some special 
problems there as well. Please get in touch with my office, and 
we'll look forward to a good visit. Thank you.
    Mr. King. Absolutely.
    The Chairman. Thank you, Senator Roberts.
    Senator Murray has to leave, so I'm going to ask her to 
make her closing comments. Then we'll go to Senator Murkowski. 
Senator Warren I think has additional questions, so you can be 
first in the second round, and then I will close the hearing.
    Senator Murray.
    Senator Murray. I just simply wanted to thank Dr. King for 
being here today. This is such an important time for students 
of all ages. And with all the challenges and opportunities, and 
you've heard them across the board here, it's really important 
that we have strong leadership at the Department of Education.
    Mr. Chairman, I'm really confident that Dr. King is a 
strong nominee to transition from Acting Secretary to taking 
the position of Secretary of Education. I look forward to 
supporting him, and I want to submit for the record statements 
from 18 groups in support of his nomination and thank him very 
much for all he is doing.
    Mr. King. Thank you.
    [The information referred to can be found in additional 
material.]
    The Chairman. Thank you, Senator Murray.
    Senator Murkowski.

                     Statement of Senator Murkowski

    Senator Murkowski. Thank you, Mr. Chairman.
    Dr. King, welcome. Congratulations on your nomination. I'm 
sorry that our schedules didn't work so that we could visit. 
Hopefully we'll still have that opportunity to do so at some 
point in time.
    Both my colleague from Maine and my colleague from Kansas 
have mentioned the rural component of education, and as you 
know, coming from a State that's one-fifth the size of the 
country with about 732,000 people, we've got a lot of rural, we 
have a lot of spaces, and we have a lot of very small schools.
    I had an opportunity just last week to take five of my 
Senate colleagues to a place in Southwest Alaska, Bethel, a 
large regional community, primarily Alaska Native. But we went 
further beyond Bethel to the community of Oscarville, 80 
people, 17 kids in the school, two teachers, challenges in 
delivering education in a very rural, very remote area where 
broadband is an issue; quite honestly, basic water and 
sanitation is an issue.
    The question to you here this afternoon is actually pretty 
general in terms of how we address those in very rural 
communities, how we ensure that these children--and your words 
are there are children who stand too far behind their peers, 
and these are rural students, and these are Native American 
students. Again, Alaska really fills that bill.
    You've also indicated as one of your priorities to do more 
to ensure a diverse pipeline of future educators. One of the 
things that we're struggling with in Alaska is how we get more 
Alaska Native children to believe that being a teacher can be a 
noble calling for them.
    Can you give me a little assurance about how you view some 
of these challenges in educating our rural children and Native 
American children, Alaska Natives?
    Mr. King. Absolutely. I was State chief in New York, and 
even though when folks hear New York they think of New York 
City, we had 700 districts spread all throughout the State, and 
many of the districts are small rural districts in the North 
Country, up near the Canadian border or out in Western New 
York, and I spent a lot of time on rural issues, could see how 
districts were struggling with declining enrollment, the 
difficulty of providing art, music, AP classes, finding a 
physics teacher, districts that were struggling to try and 
preserve the sense of community around school in the face of 
declining opportunity.
    I think it's very important that we focus on rural 
education. I'm proud that we have a competitive priority in 
many of our grant programs to focus on rural areas. We have 
about 20 percent of our current innovation grants that are 
focused in rural communities, and we're seeing some very good 
results from many of those projects.
    One of the things I worked on in New York was a virtual AP 
initiative to try and ensure that maybe folks couldn't hire an 
AP teacher but they could share one across a set of districts 
in a region and, through blended learning, make those classes 
available to students.
    So we want to make sure that rural educators are very much 
a part of the conversations at the Federal level, at the State 
level, and at the local level in the implementation of the 
Every Student Succeeds Act. We're trying to get resources and 
opportunity. The President's Connect Ed initiative is really 
focused on trying to improve issues of bandwidth in rural 
communities, and we want to continue that work together with 
the FCC.
    On the issue of Native students, I'm very worried about the 
stagnant performance of Native students. If you look at our 
high school graduation rate, which just reached a record high, 
we saw increases for every subgroup except for Native American 
students, which was flat. I think there's more that we can do 
to support Native communities in trying to infuse Native 
language and Native culture into the school programs to raise 
students' aspirations. We have a Native Youth Community 
Projects program. The President has proposed an increase in 
funding for that. We're seeing some promising results from 
those grantees, and I would love to work together with you to 
do more on Native issues.
    Senator Murkowski. I'd like to do that, and I particularly 
appreciate the fact that you've mentioned the Native languages. 
That's something Senator Franken and I have worked on and have 
included within ESSA.
    Very quickly, this relates to data and privacy of data. I 
think we all understand that we want to be making data-informed 
decisions about effectiveness of programs, but many parents are 
coming to me with very sincere concerns about the privacy of 
the data that is collected, especially given the Department's 
inability to maintain the security of the post-secondary 
student aid data bases.
    What's your message to those parents, and the students and 
legislators, that are concerned about the data collection, and 
thus the privacy associated with it?
    Mr. King. Data privacy, data security are top priorities 
for the Department. As I mentioned earlier, we're doing a lot 
of work to strengthen our cyber security posture so that we can 
continue to keep higher education data in particular but all of 
the personally identifiable information that we have at the 
Department safe and secure.
    States need to be focused on the same thing as do 
districts. The President has made proposals around additional 
data security measures we think we can take together, focus on 
ensuring that students are not subjected to marketing through 
the tools that they may be using in school.
    I think as a country we have to continue to work to make 
sure that we protect data privacy, and oftentimes, as you know, 
parents and teachers may be unaware of how much information is 
being collected by an application that they have downloaded. We 
have to make sure that we put in place strong legal 
protections, but also provide good guidance. We have a FIRPA 
office that tries to give good guidance to districts and States 
around issues of data privacy and data security.
    Senator Murkowski. I know that that's something also that I 
would like to work with you on as well. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thanks, Senator Murkowski.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman. I appreciate your 
giving me a chance to have a second round of questions here.
    And I appreciate, Dr. King, that you have a lot that you're 
going to deal with at the Department of Education, but I want 
to raise one more issue before we quit for the day, and that is 
another ongoing problem at the Department of Education, the 
students who were cheated by Corinthian College.
    Before Corinthian College collapsed, this for-profit 
college sucked down billions and billions of dollars in Federal 
student loan aid by roping in students with false and 
misleading information, and then saddling them with debt that 
was just going to be impossible to repay. It was outright 
fraud, and in response the Department made a lot of promises to 
Corinthian's victims.
    Last April, the Department promised to give--and I'm 
quoting here--``give Corinthian students the relief they are 
entitled to under Federal law.'' Two months later, the 
Department announced that it would ``find ways to fast-track 
relief based on legal findings for large groups of students,'' 
and that there would be ``no need for students to make any 
individual showing that they were affected by the school's 
fraud.''
    The Department also estimated last summer that about 40,000 
former Corinthian students would be eligible for this so-called 
fast-track relief. Now, that's out of hundreds of thousands of 
total Corinthian students that the Department acknowledged 
could be eligible for the relief. It is now 8 months later and 
just 1,300 of those 40,000 fast-track students have received 
relief, and I want to know what the plan is here to actually 
deliver on the promises the Department has made.
    It seems to me, Dr. King, that the Department is moving 
painfully slow, while students who got cheated are struggling 
under debts that they were conned into taking on. Time is 
running out for these students.
    So what I'd like to know is how do you plan to live up to 
the Department's promises and actually ensure that each and 
every student who was defrauded receives debt relief now, not 
years from now but now?
    Mr. King. I appreciate the question. A few things to know. 
The Special Master, Joe Smith, is working diligently with a 
team, and we're adding capacity to that team to try to respond 
to the existing claims.
    Senator Warren. Can I just stop you right there, though, 
Dr. King?
    Mr. King. Yes.
    Senator Warren. Because this is part of what's bothering 
me. I don't understand why this takes long. This isn't hard, 
what we're trying to do here. Students are waiting, their 
credit is getting worse and worse, the interest is accumulating 
on these loans. The process needs to move faster, and I don't 
get why it doesn't move faster. You know they've been 
defrauded.
    Mr. King. Right. We're trying to make it move faster. I can 
say a promising note is that $115 million has gone to students, 
either through borrowed defense or through closed school 
discharge. We're trying to group claims so that we can respond 
to them as quickly as possible. We are in the process of a 
negotiated rulemaking on new borrowed defense rules going 
forward that will make it easier for the Department to 
efficiently group claims.
    Senator Warren. That's going to be 2017.
    Mr. King. So the challenge has been that the legal 
requirement, as you know, is for a demonstration that there was 
a clear violation of State law. We have students who are in a 
variety of States, and so we are working through those.
    On campuses where we have a clear finding, and this has 
been true I believe in the Heald and Everest cases where we 
have a clear finding at the State level of a State law 
violation, we have been able to group claims or are in the 
process of grouping claims. But you're right, we need to make 
the process move faster, and we intend to.
    Senator Warren. I really want to push on this. We 
potentially have hundreds of thousands of students who have 
been cheated here. You promised fast-track to 40,000. That was 
three-quarters of a year ago nearly, two-thirds of a year ago, 
and we've only gotten about 1,300 people through it.
    I want to remind us that Congress gave the Secretary of 
Education broad authority to cancel the loans of students who 
attend colleges that broke the law. So I hope if you are 
confirmed that you will use that authority to ensure that the 
students get every dime of relief that they deserve without 
making them jump through a bunch of unnecessary hoops. They 
have already been hit hard enough, and this is the time for the 
Department of Education to step up and be on their side.
    Mr. King. Yes. I'm committed to try to protect the 
interests of borrowers and also to do what we can through the 
enforcement unit and gainful employment regulations to make 
sure that we do not have a repeat of Corinthian, that we can 
avoid that.
    Senator Warren. And that is powerfully important.
    Thank you, Dr. King. Thank you very much for your 
willingness to serve, and thanks for sitting through two rounds 
of questions on this stuff. These are important issues. Thank 
you.
    Mr. King. Absolutely.
    Senator Warren. Thank you, Mr. Chairman.
    The Chairman. Yes, thanks, Senator Warren.
    Dr. King, I have just a few questions, and then we'll wrap 
up the hearing.
    Senator Roberts asked you questions about academic 
standards, and you gave an answer, so I don't think I need to 
ask that. But there's a pattern in this legislation which is 
pretty unusual, and it comes from the fact that those of us who 
voted for it--in the Senate 85 to 15, and in the House, the 
President signed it--it felt like the Department was 
overreaching.
    So there are some literal specific prohibitions in the law 
about what the Secretary should not do to reemphasize our 
determination that this is an important shift of direction, 
which you've acknowledged in your testimony, to try to restore 
more of the responsibility to those closest to the children.
    One of those is on challenging academic standards. I asked 
Dr. Evers, the Superintendent of Instruction for Wisconsin, on 
Tuesday. I said, do you read the new law to say that if 
Wisconsin wants to have Common Core, which it does, I believe, 
that it may? If it does not want to have Common Core, that it 
may not? That if it wants part of Common Core or more than 
Common Core, it can do that? It simply has to have challenging 
academic standards that are related to the entrance 
requirements for the public institutions. That's the way he 
read that.
    Let me ask you about teacher evaluation. Under the waivers 
that the Department granted to 42 States, the Department took 
the position that if you want a waiver from the provisions of 
No Child Left Behind, and if you didn't get a waiver, in effect 
it meant that almost all of your schools were labeled as 
failing. In order to get a waiver the Department said we'd like 
you to do a few other things, sort of a ``Mother May I'' 
process I described. One of those was teacher evaluation.
    I'm a big fan of teacher evaluation. In fact, if the 
National Education Association could have had a grade of lower 
than an F, I would have earned it 30 years ago when Tennessee 
became the first State to pay teachers more for teaching well. 
I actually think that finding fair ways to reward outstanding 
teaching is the Holy Grail of public education.
    But when I came to Washington, I did not think that we 
should be telling States how to evaluate teachers. Yet, to get 
a waiver, there were some very specific definitions about what 
a teacher evaluation system should be. In fact, three States--
Iowa was one, Washington was another, California was another--
had their waivers either rejected or revoked because the 
Secretary didn't believe their teacher evaluation system met 
his standards.
    Now, the new law allows but does not require States and 
districts to use funds, mostly title II funds, to support 
teacher and principal evaluations based upon multiple measures, 
but it prohibits the Secretary or any other officer of the 
Federal Government from mandating, directing or controlling any 
aspect of a teacher, principal, or other school leader 
evaluation system or specific measure of educator effectiveness 
or quality.
    To simplify it, do you agree that that means that the 
Secretary of Education does not now need to approve the teacher 
evaluation system in a State?
    Mr. King. Yes, and I think the law is clear that teacher 
evaluation systems are to be designed by States and districts.
    The Chairman. Do you agree, however, that finding fair ways 
to evaluate teachers is immensely important to the future of 
our system of public education and that it would be a good idea 
for the Secretary to look for ways to encourage it and honor 
those who do it well and to make States aware that they could 
use the $2.5 billion or so that's in the title II money for 
that purpose, and that we have the teacher incentive fund, 
which has about $230 million in it, to help local school 
districts who wish to find new ways to do that, to do it?
    Mr. King. Absolutely. I think the teacher and school 
incentive fund creates an opportunity for important local 
innovation and evidence gathering around effective models of 
evaluation. I also think the equity plans that States are 
working on to ensure equitable access to effective teaching is 
going to foster a set of innovations and evidence that States 
can share, and we have an opportunity to lift up best practice.
    The Chairman. One of the things we heard most about was 
testing, and when we started out writing the new law, I 
suggested that maybe we get rid of the 17 Federal test 
requirements because we had such a blowback on the testing. But 
the more I listened and the more we heard from teachers and 
principals and States, the more it became clear to us, those of 
us on the committee, that it wasn't the 17 Federal tests that 
were the problem. It was the State tests. In fact, the 17 
Federal tests--which aren't really Federal tests, they're 
required by the Federal Government but they're State-designed 
tests from years 3 through 12; they probably don't take more 
than 2 hours or so per test over a period of time to be done--
were important, and those tests needed to be given. We need to 
know the results. They need to be disaggregated so people will 
know what was happening.
    So the solution we came to and the problem we found was 
that it was the Federal test-based accountability system, which 
is fancy language for saying because the Federal Government 
decided what to do about the results of the test and attached 
so many consequences to just those tests, that that was 
incentivizing States to give a lot of tests to prepare for 
those 17 federally required tests.
    So the thrust of this legislation is to say keep the tests, 
report it so we know how the children are doing, but restore to 
States and communities and classroom teachers the decisions for 
what to do about the tests. In other words, the States would 
come up with the accountability system.
    There are some requirements about what the accountability 
system should have in it--State tests, graduation rates, a few 
other things--but it also says the Secretary is prohibited from 
prescribing the weight of any measure or indicator used to 
identify or meaningfully differentiate schools in the 
accountability system.
    Do you intend to follow that provision and the intent 
behind it?
    Mr. King. Certainly as we move forward, we intend to follow 
the letter of the law. I think you're right that we have seen 
over the last 10 years, because of the narrow focus of No Child 
Left Behind on test-based accountability, we have seen a 
proliferation of tests in some places, both at the State level 
and at the district level, and I think the new law gives us an 
opportunity for a reset on that, and for State and local 
conversations about right-sizing the amount of assessment.
    The Chairman. And, if I'm not mistaken, you've already 
issued a guidance to suggest to States what might amount to 
over-testing, but it's not a mandate, it's a suggestion. Am I 
correct about that?
    Mr. King. We have given them guidance on how they can use 
Federal funds at the State and district level to review the 
assessments that are given, figure out if some are unnecessary 
or redundant, and also figure out if some are of low quality 
and should be replaced by more performance-based tests.
    The Chairman. But the spirit is here's how you might do 
that, not how you must do that.
    Mr. King. That's right.
    The Chairman. I applaud that, which is why I bring it up, 
because I think that's the spirit of the law as well as the 
letter of the law. The same with identifying and fixing low-
performing schools. This was important to a lot of people. 
Senator Murphy mentioned that. It was important to the 
President that there be a provision in the bill, and so it's 
there.
    But what's also there is that the Secretary is prohibited 
from telling States how to fix so-called low-performing 
schools. Beforehand, with the waivers, there were six different 
ways to do that, and I remember putting in the legislation a 
few years ago that a seventh way would be that the State could 
come up with its own version of how to fix a low-performing 
school. Next thing I knew, within about a year, the Department 
had issued a regulation defining how a State could do it, which 
was contrary to the purpose.
    But in the same spirit, do you agree that while it's 
important that States identify schools that are in need of 
improvement and that there are a number of steps to take and 
there are a number of things to do, that in the end the 
Secretary is prohibited from prescribing the specific 
methodology used by States to differentiate or identify 
schools, and any specific school improvement strategy that the 
State or local education agencies establish and implement to 
intervene, support, and improve schools and student outcomes?
    Mr. King. Certainly, as we move forward with State 
flexibility around design of their accountability systems and 
design of their interventions, we'll adhere to the letter of 
the law. We think that State and local flexibility is a good 
thing. Again, I do think it's important that there are 
parameters around an equity focus, and where those 
interventions are not helping to close achievement gaps, we all 
have to remain vigilant that States intensify or change those 
interventions to make sure they get to closing achievement gaps 
for better outcomes.
    The Chairman. There will probably be some gray areas as 
they come up, but we had a spirited debate about that, both in 
the committee and on the floor of the Senate. Senator Murphy, 
for example, offered an amendment that would have had more--
stricter guardrails I think would be one way to say it, more 
Federal supervision of what the States were doing in a variety 
of areas in the accountability system. That amendment lost. It 
only got 43 votes. It didn't pass. Just as I offered an 
amendment to give States the ability to take all the Federal 
money and let it follow the children to the school of their 
choice, called Scholarships for Kids. That got about 43 votes. 
That didn't pass. So I don't expect you to implement a school 
choice or voucher program because it didn't make it into the 
law, and we hope you will respect the consensus we came to.
    Let me move on and conclude with just a couple of questions 
about higher education. This is really an area where I think, 
as we discussed when you and I visited earlier this week, you 
and the Administration have an opportunity. As you know, my 
attitude toward you or any of the other President's Cabinet 
members in our jurisdiction is that once you're confirmed, I 
want to do my best to create an environment in which you can 
succeed, because if you succeed, then our country and our 
children and our schools succeed.
    That also applies to our colleges and universities, and 
this committee has done a lot of important work in two areas. 
One is making it simpler and easier to apply for student aid 
and to pay back student loans. That's one. And another is to 
cut through the jungle of red tape that interferes with the 
way--to Senator Roberts' point, the way schools, the way our 
6,000 colleges and universities are managed.
    We have lots of bipartisan agreement on that, and one area 
is the so-called FAST Act that Senator Bennet and I and Booker 
and King and Isakson and Burr all support. We want to reduce 
the number of questions on the Federal student aid application 
form. The President thinks that's a good idea and has said so. 
Your Department has already begun to identify some questions 
that are superfluous. We, Senator Bennet and I, wanted to take 
the 108 questions that 20 million families fill out down to 2. 
We may not get to 2, but we'd like to get closer to 2 than to 
108. And then you've already taken steps, as you said, to allow 
the commonsense proposal of students who fill out the form to 
use the tax forms they've already filled out rather than the 
ones they haven't filled out, and to do it at an earlier time. 
That's also a bipartisan proposal here.
    We have bipartisan proposals, and the President has talked 
about this, to streamline student loan repayment options. There 
are nine ways to do that now. Many students don't know how 
generous the repayment provisions are, and if we simplify them, 
we think more will take advantage of that.
    We have bipartisan support for a year-round Pell grant, 
even though we have some disagreement over how to pay for it. 
And in addition to that, we have a report which I like to call 
the Mikulski report, but we'll call it the Kerwin-Zeppos report 
that the Chancellor of Maryland and the Chancellor of 
Vanderbilt put together over the last 3 years with a group of 
higher education officials to identify 59 specific burdensome 
regulations or requirements, a couple of which I've already 
mentioned.
    Chancellor Kerwin and Chancellor Zeppos met with Secretary 
Duncan and talked with him about a dozen of those 59 the 
Department itself could do, and you're already taking steps in 
a couple of cases.
    The four Senators I just mentioned are working--we probably 
have 27 more. We may get up to 35 or 36 that we agree on that 
we could pass which would reduce the onerous paperwork that has 
built up over eight reauthorizations of the Higher Education 
Act.
    So my question is, will you work with us over the next 10 
months, if confirmed, to take those specific proposals from the 
Kerwin-Zeppos Higher Education Report, the jungle of red tape 
report, and if you can implement them, try to implement them? 
And will you work with us on the bipartisan legislation I just 
described on student aid simplification for both the 
application and the repayment, to see if the Department itself 
can do some of that; or, if not, to let us know what sort of 
legislation we need to pass this year so students can take 
advantage of that?
    Mr. King. Yes. I'd like to work with you on both things, 
certainly to try and identify places where the Department can 
reduce burdensome regulations that aren't delivering for 
students. We should do that. And certainly I'd love to work 
together on a bipartisan reauthorization of the Higher 
Education Act.
    The one thing I would add to the list that you shared, and 
I know this is a view that we share, in some way to shift the 
incentives in the higher education sector toward a focus on 
completion. I do worry that we know that many of the students 
who are struggling to pay back their debt are students who 
start but don't finish. They have some courses, they don't have 
a degree, they can't get the good job that would come with a 
degree, and therefore they can't pay back their debt. If we 
could get institutions paying more attention to completion, not 
just enrollment, I think that's another opportunity for 
progress on higher education.
    The Chairman. You're exactly right about that. The default 
rates are especially high for students who don't complete their 
degree, so that's an excellent suggestion. I'll be glad to work 
with you on that. There are other good ideas that we have from 
both sides of the aisle to discourage over-borrowing. There are 
some provisions, and this may be an area where you can take 
executive action that's already authorized that seems to limit 
what colleges are able to do to counsel students to say, well, 
if you go into the theater instead of into biomedical 
engineering, you might have a little harder time getting a job 
and paying it back over a period of time.
    And I would just make the observation, I heard Senator 
Warren's comments on the Corinthian tragic situation for those 
students. My general philosophical attitude is a little 
different. If I buy a car that's a lemon, I sue the car 
company, not the bank. I know that the Federal law does have a 
provision about forgiving loans where there's a fraud. It 
hadn't been used much until recently, and I think it needs to 
be used carefully, because we have, from the taxpayers' point 
of view, $35 or so billion of Pell grants every year to low-
income students that do not have to be paid back. We make $100 
billion of loans every year to students that we expect to be 
paid back, and we have a very generous provision that says for 
many students in public service that you don't have to pay it 
while you're in those jobs, or you don't have to pay more than 
10 or 15 percent of your disposable income, and if it's not all 
paid back after 20 years it's forgiven.
    I would counsel you to follow the law carefully on those 
claims of fraud that require forgiveness, and I'd like to 
continue discussion with you about any expansion of that 
authority when the time comes.
    Dr. King, those are all the questions I have. There may be 
some questions that members of the committee submit to you. I 
would encourage you to answer them as promptly as you can.
    The hearing record will remain open until March the 1st. 
Members may submit additional information for the record within 
that time if they would like.
    Thanks to everyone, especially Dr. King's family and him, 
for being here today.
    The next meeting of the committee will occur at 10 a.m. on 
Wednesday, March the 9th, to consider the second in a markup of 
bipartisan innovation legislation--that's biomedical innovation 
legislation--and to consider the markup of Dr. King's 
nomination to be the United States Secretary of Education.
    The committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                 Letter Submitted by Senator Alexander
                                         February 10, 2016.

John B. King, Jr., Acting Secretary,
U.S. Department of Education,
400 Maryland Avenue,
Washington, DC 20202.

    Dear Acting Secretary King: On behalf of States, school districts, 
educators and parents, we write to express our strong, shared 
commitment to making the Every Student Succeeds Act (ESSA) a law that 
puts students first. We invite you to work with us to ensure that 
communities determine the best methods of educating our Nation's 
children.
    Although our organizations do not always agree, we are unified in 
our belief that ESSA is a historic opportunity to make a world-class 
21st century education system. We are dedicated to working together at 
the national level to facilitate partnership among our members in 
States and districts to guarantee the success of this new law.
    ESSA replaces a top-down accountability and testing regime with an 
inclusive system based on collaborative State and local innovation. For 
this vision to become a reality, we must work together to closely honor 
congressional intent. ESSA is clear: Education decisionmaking now rests 
with States and districts, and the Federal role is to support and 
inform those decisions.
    In the coming months, our coalition--the State and Local ESSA 
Implementation Network--will:

    <bullet> Work together to ensure a timely, fair transition to ESSA;
    <bullet> Coordinate ESSA implementation by Governors, State 
superintendents, school boards, State legislators, local 
superintendents, educators and parents;
    <bullet> Promote State, local and school decisionmaking during 
implementation; and
    <bullet> Collaborate with a broader group of education stakeholders 
to provide guidance to the Federal Government on key implementation 
issues.

    In ESSA, Congress recognizes States and schools as well-suited to 
provide a high-quality education to every child, regardless of their 
background. We have long prioritized lifting up those students who need 
help the most and our members stand ready to continue this work.
    Our organizations look forward to a cooperative, collaborative and 
productive relationship with you and your staff throughout the 
implementation process.
            Sincerely,

    Scott D. Pattison, Executive Director/CEO National Governors 
Association; William T. Pound, Executive Director, National Conference 
of State Legislatures; Kristen J. Amundson, Executive Director, 
National Association of State Boards of Education; Daniel A. Domenech, 
Executive Director AASA: The School Superintendents Association; JoAnn 
D. Bartoletti, Executive Director, National Association of Secondary 
School Principals; Lily Eskelsen Garcia, President, National Education 
Association; Thomas J. Gentzel, Executive Director, National School 
Boards Association; Gail Connelly, Executive Director National 
Association of Elementary School Principals; Randi Weingarten, 
President, American Federation of Teachers; Laura M. Bay, President, 
National PTA.
                                 ______
                                 
              Title IX Letters Submitted by Senator Murray
                        Faculty Against Rape (FAR),
                                         February 25, 2016.


Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
455 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
154 Russell Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: We write to 
commend the DOE and OCR for their unflagging commitment to addressing 
the problem of sexual violence on campuses, and to urge the HELP 
committee not to turn the clock back by challenging the Assistant 
Secretary's right to issue much-needed clarification and guidance--
guidance created in consultation with legal scholars and experts.
    As members of Faculty Against Rape (FAR), a group of more than 300 
faculty and civil rights activists from across the United States, we 
want to share some of what we have learned in our efforts to make 
college campuses a safe place for all. We started FAR in the summer of 
2014 as an ad-hoc volunteer collective whose mission is to get more 
faculty involved in preventing sexual assault and sexual harassment and 
improving response on campus. FAR is also committed to protecting 
faculty who experience retaliation for doing so. Over the past 2 years, 
FAR has provided resources for faculty to learn how to best support 
survivors, tools forzculty who want to get more involved in reform 
efforts, and support for faculty who face retaliation. We have also 
developed curriculum and facilitated workshops for faculty around the 
country on integrating information about campus sexual assault into the 
curriculum, both as syllabi clauses and as key themes. Collectively, 
our members have supported literally hundreds of survivors at campuses 
across the country. Many of them have endured significant retaliation 
from university administrations who want to protect the university 
brand, even at the cost of the safety and well-being of students.
    Our experience has afforded us a unique perspective on key issues 
in understanding the efficacy of the DOE's response to the problem. 
Here are two points we believe the HELP Committee should be aware of:

    1. Higher education is at a watershed moment in understanding the 
problem of faculty sexual predators:

    The problem of serial sexual predators who move from campus to 
campus--of ``open secrets,'' or known problems within a specific 
discipline--has become an issue of increasing concern. Over the past 2-
3 years, there have been national news exposes about faculty sexual 
predators at Yale University,\1\ the University of Miami,\2\ 
Northwestern University,\3\ Berkeley,\4\ UCLA,\5\ Arizona State 
University,\6\ Southern Connecticut State University,\7\ Vanderbilt,\8\ 
Columbia University,\9\ and Montana State University,\10\ to name just 
a few.
---------------------------------------------------------------------------
    \1\ Cf. Tamar Lewin, ``Seven Allege Harassment by Yale Doctor at 
Clinic,'' New York Times, April 13, 2015; Nick DeSantis, ``Campaign 
Raises Money to Aid Lawsuit Accusing Yale Philosopher of Sexual 
Assault,'' The Chronicle of Higher Education, May 13, 2014.
    \2\ Cf. Tyler Kingkade, ``University Of Miami Sued Over Handling Of 
Colin McGinn Harassment Claims,'' Huffington Post, October 16, 2015.
    \3\ Cf. Rebecca Schuman, ``Title Nein: Northwestern University 
found that a star professor violated the sexual harassment code in his 
treatment of a student. Why is he still teaching?,'' Slate, February 
24, 2014.
    \4\ Cf. Azeen Ghorayshi, ``Famous Berkeley Astronomer Violated 
Sexual Harassment Policies Over Many Years,'' BuzzFeed, October 9, 
2015.
    \5\ Cf. Carla Rivera, ``UCLA Graduate Students' Lawsuit Alleges 
Sexual Harassment,'' Los Angeles Times, June 15, 2015.
    \6\ Cf. Nicholas Palomino Mendoza, ``Students Seek Clarity, Closure 
in Student-Professor Relationship Investigations,'' The State Press, 
May 7, 2014.
    \7\ Cf. Jim Shelton, ``SCSU Protest Centers on Sexual Misconduct 
Claim,'' New Haven Register, September 13, 2013.
    \8\ Cf. Peter Jacobs, ``Former Vanderbilt Grad Student Files $20 
Million Lawsuit Claiming Sexual Harassment by Professor,'' Business 
Insider, July 17, 2014.
    \9\ Cf. Barbara Ross, ``Former Students Sue Columbia University, 
Accuse Professors in Sexual Harassment Suit,'' New York Daily News, 
January 23, 2013.
    \10\ Cf. Gail Schontzler, ``MSU Investigation Finds Professor 
Sexually Harassed Student,'' Bozeman Daily Chronicle, September 3, 
2011.
---------------------------------------------------------------------------
    Although some of these faculty have been sanctioned by the 
university or disciplines they work in, it is often impossible to know 
whether a professor has harassed or assaulted students at other 
universities due to non-disclosure agreements and/or labor laws.
    In other words, in order to deal with the problem of faculty sexual 
predators, universities need external help. We are dealing with a 
problem that is likely to be as widespread as the problem of sexual 
abuse in the Catholic Church. In philosophy alone, for example, there 
have been three significant cases of faculty sexual misconduct reported 
in the media over the past 4 years, and some activists in philosophy 
report that they are aware of as many as 30-40 similar ``open 
secrets,'' that is, faculty who are serial predators.
    It is not only appropriate--but in fact necessary--for the 
Department of Education to be actively involved in regulating the 
response to the problem because: (1) faculty predators can move easily 
across State and national lines, from institution to institution, and 
(2) unlike the Catholic Church, institutions of higher education have 
no governing body, no way of ensuring that a serial predator does not 
simply accept a proverbial ``golden parachute'' or voluntary severance 
agreement with a confidentiality clause that enables a problem-free 
transition to another university.
    For each serial predator, there are multiple--even dozens, in some 
cases--scientists, writers, thinkers who have left the field that they 
love, whose talents have been lost, because of the discrimination they 
have been subject to. Clearly, if our goal as a nation is to provide 
equal access to educational opportunities, to tap the talent of the 
widest and most diverse pool possible, to avoid the brain drain that is 
caused by widespread sexual misconduct in academia, we need to talk 
about the problem--to break the unwritten code of silence implied by 
the norms of collegiality. Higher education needs the Department of 
Education to continue to actively provide guidance, clarification, and 
support. We are a close-knit family, and cannot cleanup our own 
problems without external support.
    To put it even more succinctly and explicitly: with new stories 
about faculty sexual misconduct breaking every month, this is a 
watershed moment. Higher education is on the brink of a crisis similar 
to the sex abuse scandals that rocked the Catholic Church, and the OCR 
and DOE are the only agencies empowered to provide the guidance needed 
to chart a path through the storm. We respectfully urge the HELP 
committee not to undermine Federal oversight at precisely the point at 
which it is most needed.

    2. The Dear Colleague Letters serve as much-needed non-legal 
guidance documents:

    In the past 3 years, faculty who have served as advocates for 
survivors on campus have been subjected to both overt and covert forms 
of retaliation; some were denied tenure, others were prevented from 
teaching courses on these issue, and a few faculty members were pushed 
out through legal agreements. Those who remain involved have 
experienced marginalization. The message of college administrators has 
been clear: faculty have been discouraged from playing an active role 
in addressing the problem. Evidence of retaliation against faculty who 
have demanded accountability has had a chilling effect on junior 
faculty as well as students.
    The 2013 Dear Colleague Letter, which reminds universities of the 
fact that retaliation for engaging in an action protected under title 
IX is itself a violation of title IX, has been an absolutely essential 
tool for faculty, students, and activists on both sides of the debate 
to use as a means of securing the right to free speech.
    The same is true of the 2011 Dear Colleague Letter, which provided 
important guidance in understanding what constitutes sexual harassment. 
Although the material provided in the guidance was in theory available 
in the 1997 and 2001 document, which included citations to relevant 
case law discussing the types of conduct that might constitute sexual 
harassment, the reality was that the information was more or less 
inaccessible. Similarly, although the preponderance of evidence 
standard described in the 2011 DCL was being used by an estimated 80 
percent of institutions \11\ prior to 2011, and is the standard used 
for all other civil rights laws, there was confusion regarding the 
appropriate standard due to the fact that certain types of sexual 
violence are also not just civil rights violations, but also criminal 
acts. (To arbitrarily require that complainants in title IX cases 
adhere to a higher standard of proof than is required for other civil 
rights laws would be to discriminate against the title IX complainants, 
most of whom are female.)
---------------------------------------------------------------------------
    \11\ See, for example, http://www.thefire.org/pdfs/
8d799cc3bcca596e58e0c2998e6b2ce4.pdf.
---------------------------------------------------------------------------
    In other words, the Dear Colleague Letters have been an important 
tool in helping clarify the requirements--and limits--of title IX as it 
was already being interpreted in both case law and practice. They were 
issued at critical junctures, in response to the surge of interest and 
attention to campus sexual assault, and in response to confusion about 
specific and well-established aspects of the law that were buried in 
relatively inaccessible documents. Given current confusion regarding 
issues such as the acceptable range of sanctions for perpetrators, the 
permissibility of sharing information about perpetrators who move from 
campus to campus, and the question of whether faculty accused of sexual 
misconduct should be permitted to continue teaching, it is reasonable 
to think that additional guidance will be warranted in the near future.
    As faculty who have worked tirelessly supporting hundreds of 
student survivors across the country, we have seen firsthand, time and 
again, that the problem of sexual misconduct on college campuses is 
real and serious; and the on-campus systems meant to address it are, by 
in large, broken. In virtue of this experience, we believe the OCR's 
continued ability to offer much needed clarification and guidance is 
not only welcome, but crucial to achieving gender equity in educational 
institutions.
            Sincerely,
                                Faculty Against Rape (FAR).
                                 ______
                                 
                                         February 25, 2016.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
455 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
154 Russell Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: As of today, 
title IX complaints that we filed with the Department of Education's 
Office for Civil Rights against the University of Notre Dame, have been 
under open investigation for 898 days. The reasons that prompted our 
filing complaints necessitated our leaving the university.
    Because we are graduate students, though we transferred mid-stream, 
we still left with degrees--just not the ones we came for. We sometimes 
wonder if there will ever come a day when we can remember our status as 
alumnae with pride rather than nausea. For now, we would like to put 
our time at Notre Dame behind us and focus on finishing our Ph.D.'s, 
but that's easier said than done, especially when one feels justice has 
been at best (and hopefully) delayed, at worst, entirely evaded.
    We say this not to impugn the OCR's handling of our complaints. We 
will wait as long as it takes for the right result, we would rather 
their investigation be thorough than cursory, and we believe they've 
done an admirable job operating with what little resources they have. 
We say it instead to underscore the absurdity of the increasingly 
popular narrative that the OCR is zealously holding institutions 
hostage to guidance of questionable legal status under threat of 
revoking Federal funds.
    Developing a full picture of the realities of title IX enforcement 
would require listening to those who have filed complaints, not merely 
those who have been subject to investigation, nor outside groups with 
political interests at stake. When we filed our complaints, Notre Dame 
was already under a resolution agreement with the OCR--a resolution 
agreement that has been in place since the conclusion of an 
institutional review prompted by the suicide of Lizzy Seeberg; a 
resolution agreement that we are alleging Notre Dame violated, 
repeatedly.
    We don't yet know what the outcome of our complaints will be, but 
we do know that even if the OCR determines our allegations are 
substantiated by the evidence, there is no sanction at their disposal 
that would be a genuinely appropriate consequence given the totality of 
the circumstances. There is no undoing the years we spent anguished yet 
determined. There is no rewinding the years lost toward the completion 
of our educations. There is no giving back now, after 898-plus days of 
waiting, what we were promised when we accepted Notre Dame's offers of 
admission. There is only the best we can hope for: another resolution 
agreement, some measure of validation, some measure of closure, and 
hope that the trouble of dealing with the outcome of this investigation 
would deter them from simply violating the next in turn. Since a group 
of current Notre Dame students have reached out to one of us just this 
academic year for advice because their own experiences have mirrored 
ours, we strongly suspect that hope would be naive.
    That title IX is being used as a weapon by student activists and 
that the OCR is overreaching in its enforcement of the law makes for an 
effective framing for incomplete or misleading stories to go viral, but 
it simply doesn't cohere with reality. What students need are strong 
policies and procedures in place so that their concerns about 
discrimination can be brought forward safely, heard equitably, and 
adjudicated fairly in accordance with standards applicable to other 
civil rights claims--not only in theory, but also in fact. What the 
Department of Education needs is more resources rather than less if we 
are to have any hope of realizing gender equity in education in the 
United States--we are, quite simply, not there yet.
            Sincerely,
                                             Jane Doe, One.
                                             Jane Doe, Two.
                                 ______
                                 
                                      Know Your IX,
                                         February 25, 2016.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
455 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
154 Russell Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: For too long, 
gender-based violence in our Nation's schools has been swept under the 
rug, impeding victims' access to their civil right to education under 
title IX of the 1972 Education Amendments.\1\ As young people whose 
educations have been imperiled by gender violence in school, we know 
firsthand that the clarifying guidance issued by the Department of 
Education's Office for Civil Rights (OCR) has proved pivotal in 
protecting student survivors' access to educational opportunities. 
Before OCR issued its 2011 Dear Colleague Letter, schools routinely 
allowed hostile environments to persist on campus, instituted 
disciplinary processes that were neither equitable nor fair, and denied 
survivors the resources they needed to continue their educations. We 
write to commend OCR for its steadfast commitment to addressing the 
issue.
---------------------------------------------------------------------------
    \1\ Title IX of the Education Amendments of 1972, Pub. L. No. 92-
318  901(a), 86 Stat. 235, 373 (codified at 20 U.S.C.  1681(a) 
(2012)).

    I. Gender-based harassment and violence is pervasive in elementary, 
secondary, and post-secondary schools across the country, jeopardizing 
students' ability to access education.
    One in five women, as well as many men and gender nonconforming 
students, will experience sexual violence during their time in 
college.\2\ This violence often limits, or outright precludes, victims' 
ability to learn: Many survivors go to great lengths to avoid their 
perpetrators on campus, skipping shared classes,\3\ avoiding shared 
spaces, or hiding in their dormitory rooms. Others struggle with post-
traumatic stress disorder (PTSD), depression, eating disorders, 
anxiety, flashbacks, and nightmares,\4\ even attempting suicide or 
engaging in self-harm.\5\ Without support and accommodation, formerly 
successful students watch their grades drop as they struggle to 
participate in, or even attend, their classes.\6\
---------------------------------------------------------------------------
    \2\ See David Cantor, et al., Report On The AAU Campus Climate 
Survey On Sexual Assault And Sexual Misconduct, Westat 13-14 (2015), 
http://ow.ly/XOLl5; see generally B.S. Fisher, L.E. Daigle, & F.T. 
Cullen, Unsafe in the Ivory Tower: The Sexual Victimization of College 
Women (2010); Christopher P. Krebs et al., The Campus Sexual Assault 
(CSA) Study, NAT'L INST. JUST. 5-3 (2007), https://www.ncjrs.gov/
pdffiles1/nij/grants/221153.pdf; [https://perma.cc/W6MP-X7VE].
    \3\ See Rebecca Marie Loya, Economic Consequences of Sexual 
Violence for Survivors: Implications for Social Policy and Social 
Change 96 (June 2012) (unpublished Ph.D. dissertation, Brandeis 
University) (on file with Know Your IX) (``Probably like 95 percent of 
the time, students will skip class for one reason or another. And, I 
mean, the reasons are because the perp's in the class, because the 
perp's friends are in the class, because, sometimes schoolwork just 
gets to be too much, again in the aftermath of the assault. Sometimes, 
they've come out to the professor as a survivor, and the professor 
hasn't . . . been particularly supportive, so they won't go back to the 
class. Sometimes it's because they know that on their way to the class, 
they'll see the perp because of their schedules or whatever. Sometimes 
they might be in different majors with different course studies, but 
they'll have like a 101 class together, so that something will 
intersect, so they'll stop going to the 101 class. So they won't stop 
their studies on their own plane, but they'll stop the ones that 
intersect with the perp.'' (quoting a legal services provider)).
    \4\ Id. at 25-28.
    \5\ See Nat'l Ctr. For Injury Prevention & Control, Ctrs. for 
Disease Control & Prevention, The National Intimate Partner and Sexual 
Violence Survey: 2010 Summary Report 1 (2011), http://www.cdc.gov/
violenceprevention/pdf/nisvs_report2010-a.pdf [http://perma.
cc/FM4N-UPZW]; see also Loya, supra note 3, at 25-28.
    \6\ See Loya, supra note 3, at 94; Cari Simon, On Top of Everything 
Else, Sexual Assault Hurts the Survivors' Grades, Wash. Post: Post 
Everything, (Aug. 6, 2014), https://www.washingtonpost.com/
posteverything/wp/2014/08/06/after-a-sexual-assault-survivors-gpas-
plummet-this-is-a-bigger-problem-than-you-think [https://perma.cc/2VXN-
BE75].
---------------------------------------------------------------------------
    Courts have long recognized that sexual violence threatens 
students' ability to learn and that, under title IX, schools receiving 
Federal funding must take action to address violence and remedy its 
effects.\7\ Unfortunately, as students have made clear time and time 
again, too few schools live up to their legal (and moral) obligations 
to do so.\8\
---------------------------------------------------------------------------
    \7\ Gebser v. Lago Vista Indep. Sch. Dist. 524 U.S. 274, 292 (1998) 
(tasking the Department of Education with ``administering and enforcing 
Title IX, see 20 U.S.C.  1682'').
    \8\ See U.S. Department of Education Releases List of Higher 
Education Institutions with Open Title IX Sexual Violence 
Investigations, U.S. Dep't Educ., (May 1, 2014), http://perma.cc/LH9D-
Q8FA; see also Tyler Kingkade, Harvard Forced Sexual Assault Victim to 
Live By Abuser, Lawsuit Claims, Huffington Post (Feb. 17, 2016), http:/
/huff.to/1oqH9is; W. Bogdanich, A Star Player Accused, and a Flawed 
Rape Investigation, N.Y. Times (Apr. 16, 2014), http://www.nytimes.com/
interactive/2014/04/16/sports/errors-in-inquiry-on-rape-allegations-
against-fsu-jameis-winston.html.
---------------------------------------------------------------------------
    As current college students and recent graduates, we have witnessed 
our peers suffer gender violence, only then to be discouraged by campus 
administrators from reporting, denied counseling and academic 
accommodations, and pressured to take time off--or withdraw--from 
school. As a result, victims and their families have incurred steep 
financial costs, some suffering hundreds of thousands of dollars in 
lost tuition, lost scholarships, counseling and medical expenses, or 
accumulated student debt. As one survivor reports:

    I took a year off from classes following the assault and the title 
IX investigation at the school. . . . I was not reimbursed for any 
costs, although we did request partial reimbursement for tuition and 
housing costs. . . . I lost a scholarship when I transferred schools, 
and had to take an entire extra semester of courses at my new 
institution. . . . It has easily cost me and my family an additional 
$100,000 at least.\9\
---------------------------------------------------------------------------
    \9\ See Dana Bolger, 125 Yale L.J. Gender Violence Costs: Schools' 
Financial Obligations Under Title IX (forthcoming May 2016) (on file 
with Know Your IX).
---------------------------------------------------------------------------
    Still other survivors--particularly those who lack the resources to 
obtain mental health services or to transfer schools--report 
withdrawing from their classes or universities as a result.\10\ Others 
remain in school, earning poorer grades, and in some cases, facing 
consequent academic probation, suspension, or expulsion. When students 
are forced to drop out of school in the wake of gender violence and 
institutional neglect, they report suffering long-term penalties to 
their earning potential well into the future.\11\ One survivor reports 
that they dropped out of college and, nearly 3 years later, have yet to 
return. They describe the impact:
---------------------------------------------------------------------------
    \10\ Id.
    \11\ According to the U.S. Census Bureau, students who leave 
college before graduation can lose up to 30 percent of their future 
earnings as year-round, full-time workers. See generally J.C. Day & 
E.C. Newburger, The Big Payoff: Educational Attainment and Synthetic 
Estimates of Work-Life Earnings, U.S. Census Bureau (2002).

          I lost 2 years of income that I would've been in the job 
        market. I was planning to work in politics, earning $30-40,000 
        per year before going to get my Ph.D. . . . I have been 
        chronically homeless and housing unstable for 2 years now.\12\
---------------------------------------------------------------------------
    \12\ See Bolger, supra note 9.

    A crushing debt burden, coupled with lost earning potential, can 
make it impossible for survivors who leave school to return.
    This intolerable status quo--in which victims of gender violence 
are still unable to access their right to education--demands a strong 
Federal response, one that the Education Department--after decades of 
administrative under-enforcement--has only just begun to take on.

    II. Thanks to the important work of the Office for Civil Rights, 
schools are finally beginning to take seriously their responsibilities 
to students.

    Courts have long affirmed the Department's authority--and 
responsibility--to issue and enforce requirements that effectuate title 
IX's nondiscrimination mandate.\13\ In accordance with this authority, 
the Department published guidance in 1997 and 2001 that underwent 
notice-and-comment. These guidance documents explained that a school is 
liable under title IX if it fails to take ``immediate and appropriate 
corrective action'' for sexually harassing conduct about which it knows 
or should have known and which is ``sufficiently severe, persistent, or 
pervasive to limit a student's ability to participate in or benefit 
from an education program or activity.'' \14\ OCR named several kinds 
of corrective action schools might employ in order to satisfy their 
legal obligations under the statute: place the victim and accused 
student in separate classes, alter housing arrangements, provide 
tutoring, offer reimbursement for counseling, or make tuition 
adjustments.
---------------------------------------------------------------------------
    \13\ Gebser v. Lago Vista Indep. Sch. Dist. 524 U.S. 274, 292 
(1998) (tasking the Department of Education with ``administering and 
enforcing Title IX, see 20 U.S.C.  1682'').
    \14\ Sexual Harassment Guidance: Harassment of Students by School 
Employees, Other Students, or Third Parties, 62 Fed. Reg. 12,034, 
12,038-39 (Mar. 13, 1997), http://www.gpo.gov/fdsys/pkg/FR-1997-03-13/
pdf/97-6373.pdf [http://perma.cc/DP2Z-CC43].
---------------------------------------------------------------------------
    Over the last 5 years, OCR has helpfully continued its efforts to 
advise schools and students alike of institutions' specific 
responsibilities under title IX to eliminate a hostile environment, 
prevent its recurrence, and remedy its effects. The 2011 Dear Colleague 
Letter, as well as the 2014 ``Questions and Answers,'' echoed OCR's 
earlier guidance,\15\ providing clarification to students on just what 
kinds of services and accommodations they might access in the wake of 
violence, and to schools on the kinds of circumstances in which they 
should take action to remedy violence's impacts. This collection of 
guidance documents, coupled with student activism, has proven widely 
transformative in allowing survivors en masse to learn their rights and 
begin, at long last, to enjoy the educational benefits of the law's 
enforcement. The guidance has similarly provided helpful clarity to 
schools on OCR's construction of the law that it administers.
---------------------------------------------------------------------------
    \15\ As the Supreme Court unanimously affirmed in March 2015, under 
the Administrative Procedure Act agencies may issue such guidance 
without notice-and-comment procedures--and frequently do. See generally 
Perez v. Mortgage Bankers Ass'n, 575 U.S. (2015).
---------------------------------------------------------------------------
    Indeed, in accordance with its duty to administer and enforce the 
law, OCR has opened an unprecedented number of investigations into 
institutions of higher education that have denied students the 
accommodations they need, such as academic accommodations and mental 
health services. OCR has also investigated institutions that have 
placed uniquely onerous and inequitable challenges, like higher 
evidentiary burdens, in the way of rape victims who pursue disciplinary 
charges against their assailants (to which victims of other student 
conduct code violations, like theft and non-sexual physical assault, 
are not subject).\16\
---------------------------------------------------------------------------
    \16\ Michelle J. Anderson, The Legacy of the Prompt Complaint 
Requirement, Corroboration Requirement, and Cautionary Instructions on 
Campus Sexual Assault, 84 B.U. L. Rev. 945 (2004).
---------------------------------------------------------------------------
    Displeased with the results of OCR's recent enforcement efforts, 
some have called into question OCR's authority to issue clarifying 
guidance or interpretive rules like those contained in the 2011 Dear 
Colleague Letter. But the law is clear: Just last year in Perez v. 
Mortgage Bankers Association, the Supreme Court confirmed that 
interpretive rules--``issued by an agency to advise the public of the 
agency's construction of the statutes and rules which it administers'' 
\17\--do not require notice and comment.\18\ These are precisely the 
sort of interpretative rules OCR has set out in its recent guidance. 
Further, given that other agencies have issued interpretive rules and 
other guidance of this sort \19\ with relatively little objection, it 
is striking that critics have specially singled out OCR's action on 
this particular issue for searching scrutiny.
---------------------------------------------------------------------------
    \17\ Shalala v. Guernsey Memorial Hospital, 514 U.S. 87, 99 (1995).
    \18\ See generally Perez v. Mortgage Bankers Ass'n, 575 U.S. (2015) 
(``Because an agency is not required to use notice-and-comment 
procedures to issue an initial interpretive rule, it is also not 
required to use those procedures to amend or repeal that rule''); see 
also Shalala v. Guernsey Memorial Hospital, 514 U.S. 87, 99 (1995).
    \19\ See U.S. Government Accountability Office, GAO-13-21, Federal 
Rulemaking: Agencies Could Take Additional Steps to Respond to Public 
Comments 8 (2012), http://www.gao.gov/assets/660/651052.pdf (``Agencies 
did not publish a notice of proposed rulemaking (NPRM)[ . . . ] for 
about 35 percent of major rules and about 44 percent of nonmajor rules 
published during 2003 through 2010.'').
---------------------------------------------------------------------------
                                 ______
                                 
    Over four decades since the passage of title IX--during which time 
inequality in education has remained firmly entrenched--we are finally 
beginning to see promising steps toward change. The Education 
Department has courageously led the charge, providing clarity and 
transparency to its construction of the law it is tasked with 
enforcing. It would be deeply inadvisable to condemn the Department's 
work to clarify the law, when schools have abdicated their 
responsibility to ensure educational equity for so long, with such 
devastating consequences for student survivors.
    In sum, without the Federal Government's engaged administration and 
enforcement of title IX, gender violence will, without a doubt, 
continue to cost students their educations and their futures.
    If you have any questions, please contact Dana Bolger, Executive 
Director of Know Your IX, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="86e2e7e8e7c6ede8e9f1ffe9f3f4cfdea8e9f4e1a8">[email&#160;protected]</a>
            Sincerely,

    Better Sex Talk; Brandeis Students Against Sexual Violence; Bruin 
Consent Coalition, formerly known as ``7000 in Solidarity: A Campaign 
Against Sexual Assault''; Coalition Against Sexual Violence (Columbia 
University); Columbia Law Women's Association; The Feminist Society at 
NYU; Georgetown Take Back the Night; Harvard Law School HALT; Iowa 
Student Power Network; Know Your IX; NYU Law Women; Our Harvard Can Do 
Better; #PaceUEndRape; Rebels Against Sexual Assault (University of 
Mississippi); Sexual Assault Network for Grads; Stand Up! (Brown 
University); Student Association for Gender Equality (Morehead State 
University); Student Government of Iowa State University; Students for 
Sexual Respect at NYU; Title IX at Northwestern; United States Student 
Association; Women for Change (University of Hartford); Womyn's 
Awareness Center (Gustavus Adolphus College); Yale Journal of Law & 
Feminism; Yale Law Students for Reproductive Justice; The 2015-2016 
Board of Yale Law Women; The York College Women's Center.
                                 ______
                                 
                                         February 25, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
455 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
154 Russell Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: I write in my 
individual capacity as a legal scholar and academic to support the U.S. 
Department of Education Office for Civil Rights' enforcement of Title 
IX of the Educational Amendments of 1972 in cases involving sexual 
harassment, sexual violence, and bullying. As a law professor and 15-
year university administrator, I have published, to date, 10 academic 
articles, essays, or book chapters on sexual harassment, sexual 
violence, and bullying in education, especially on college campuses, 
including five in peer-reviewed journals or edited volumes. I have also 
written an amicus brief at the request of a university and State 
attorney general's office in a State supreme court case involving 
sexual violence, served as a Negotiator on the Violence Against Women 
Act (VAWA) Negotiated Rulemaking that amended the Department of 
Education's regulations under the Clery Act, and consulted with the 
White House Task Force to Protect Students from Sexual Assault. My law 
school courses have included legislative and administrative law and a 
course that I am presently teaching entitled ``Sexual Violence & the 
Law.'' My most recent publication on this topic is an essay just 
published in the Yale Law Journal Forum (http://www.yalelaw
journal.org/forum/for-the-title-ix-civil-rights-movement-
congratulations-and-cautions).
    Because I have, to my knowledge, conducted a significant majority 
of the published legal research and scholarship on title IX and gender-
based violence on college campuses, I can specifically confirm the 
accuracy and quality the February 17, 2016 letter sent by Assistant 
Secretary for Civil Rights, Catherine Lhamon, to Senator Lankford (made 
available by The Chronicle of Higher Education at http://chronicle.com/
items/biz/pdf/DEPT.%20of%20EDUCATION%20RESPONSE%20TO
%20LANKFORD%20LETTER%202-17-16.pdf). This excellent letter gives a 
clear, research- and precedent-based explanation of the authority of 
Office for Civil Rights (OCR) to issue guidance in the form of Dear 
Colleague Letters and similar guidance documents, one that requires no 
repeat or additional elucidation.
    However, I do want to amplify one part of Asst. Secretary Lhamon's 
letter based not only on black-letter law but also on the realities for 
practitioners and administrators on the ground in our Nation's 
educational institutions. The Asst. Secretary explains that her 
office's guidance documents are designed to ``advise the public of 
[OCR's] construction of the statutes and regulations it administers and 
enforces,'' rather than ``requiring recipients and members of the 
public to discern for themselves solely from the text of the 
regulations what title IX requires as applied to particular facts and 
what actions would result in OCR initiating proceedings to terminate 
Federal financial assistance . . .'' As a professional who has spent 
nearly 20 years as an administrator or in full-time teaching positions 
at four different universities and a major higher education 
professional association, I can say that this guidance is both deeply 
needed and deeply appreciated by those trying to end the epidemic of 
sexual harassment and gender-based violence occurring on our campuses.
    I do not draw this sense of necessity or appreciation for OCR's 
guidance only from my own experience. In addition to the inevitably 
large professional network that one builds during a 20-year career, I 
served in 2014-15 as Associate Vice President for Equity, Inclusion & 
Violence Prevention for NASPA, the Nation's largest association of 
student affairs professionals. With 15,000 members ranging from Vice 
Presidents of Student Affairs to Residence Hall directors, the vast 
majority of NASPA members are likely to be first responders in cases 
involving sexual or other forms of gender-based violence, even graduate 
and undergraduate student members, who are often in live-in, 24-hour 
on-call positions like Resident Assistantships. NASPA hired me in large 
part because it had heard quite clearly from members that they needed a 
lot more training and education to meet their title IX responsibilities 
to protect their students' rights to equal educational opportunity. 
Because the association understood how acute members' needs and desires 
to improve their abilities to respond to this discriminatory violence 
were, NASPA approached me to come on board as its subject matter expert 
on title IX and other such civil rights protections. After I moved on 
to the faculty post I now hold, NASPA made my position permanent and 
hired Jill Dunlap, who also served in 2014 as a Negotiator on the VAWA 
Negotiated Rulemaking.
    In the less than a year that I served as Associate Vice President 
at NASPA, I was constantly reminded of how hungry NASPA members were 
for guidance on how to improve their understanding and skills for 
meeting both their moral and legal obligations regarding this violence. 
I produced a practice brief that was so in demand that members 
exhausted the many boxes of printed copies in less than 24 hours at the 
NASPA annual conference. I was asked to develop a webinar series and to 
keynote, moderate or otherwise lead well-attended presentations on 
campus gender-based violence at numerous NASPA conferences, including 
five major programs to packed audiences in only 3 days at the annual 
conference. During this time, NASPA also worked with a coalition of 18 
other higher education professional associations and victim services 
and advocacy organizations to produce an open letter regarding pending 
State bills on campus sexual violence (http://www.naspa.org/images/
uploads/main/Joint_omnibus_bill_statement_
letterhead.pdf). That coalition represented tens of thousands of campus 
professionals, including in student affairs, student conduct, and 
campus police, all working together, with victim services 
organizations, to oppose State legislative interference with title IX's 
mandates.
    While at NASPA, I was in no way surprised by this frenetic activity 
or the acute needs for title IX guidance that it indicated existed 
among higher education professionals. Indeed, prior to joining the 
association's staff, I had seen for several years the numbers of 
questions and requests for guidance coming from administrators and some 
faculty regarding how to improve their response and prevention efforts 
around title IX. Indeed, when OCR released its guidance document 
addressing frequently asked questions around title IX and sexual 
violence (http://www2.ed.gov/about/offices/list/ocr/docs/qa-201404-
title-ix.pdf), it was nearly three times the length of the 2011 Dear 
Colleague Letter, showing how much guidance the higher education 
community asked for--even demanded--from OCR.
    In light of these constant requests and sincere needs for guidance, 
OCR should in fact be commended for being so responsive to higher 
education institutions and the professionals who are primarily 
responsible for ensuring that their institutions comply with title IX. 
While not all in the higher education community will agree with the way 
OCR engages in enforcement, whether one agrees with the content of the 
guidance is separate both from OCR's power to engage in enforcement and 
its power to publish guidance that explains how OCR enforces title IX 
so that colleges and universities can plan ahead and avoid being 
investigated in the first place. Asst. Secretary Lhamon's letter 
clearly and abundantly establishes both of these powers.
    In addition, however, Asst. Secretary Lhamon's letter also clearly 
points out the solid legal basis, in notice and comment-based guidance 
documents, for specific points in OCR's 2010 Dear Colleague Letter. 
Similarly, Asst. Secretary Lhamon restates the strong legal 
justification for insisting that schools use a preponderance of the 
evidence to investigate and resolve cases involving civil rights 
violations, including cases involving sexual or similar forms of 
gender-based violence. I have provided several additional reasons for 
why the preponderance standard is the only standard acceptable for such 
cases, as with all cases governed by civil rights laws and standards, 
in the Yale Law Journal Forum essay mentioned earlier in this letter.
    On these points regarding the content of OCR's guidance, it is also 
important to note that, as Asst. Secretary Lhamon makes clear, the 
guidance is descriptive of what OCR is likely to actually do when 
exercising its enforcement power and investigating a complaint. In this 
respect, and like with OCR's many helpful responses to the higher 
education community's requests for guidance on how to handle sexual 
violence or other severe forms of sexual harassment, OCR's guidance has 
done the higher education community a favor, and a favor that has a 
high likelihood of saving educational institutions a lot of money. That 
is, if an institution follows OCR's guidance, it is much more likely to 
avoid what is potentially very expensive liability. My research shows 
consistently that violating a student's title IX rights is quite 
expensive and on average significantly more expensive than disciplining 
a student who has been found responsible for sexually assaulting a 
classmate, even in the very few such cases where a court has found 
evidence of an administrative due process violation.\1\
---------------------------------------------------------------------------
    \1\ Note that under U.S. Supreme Court precedent, school 
disciplinary proceedings are not governed by rules of criminal due 
process. See generally Nancy Chi Cantalupo, ``Decriminalizing'' Campus 
Institutional Responses to Peer Sexual Violence, 38 J.C. & U.L. 481, 
513-17 (2012).
---------------------------------------------------------------------------
    I summarized my pre-2012 research on this point for Time magazine 
at http://time.com/99697/campus-sexual-assault-nancy-chi-cantalupo/, 
and subsequent years have only added to the number of publicly 
disclosed title IX settlements in the six-and seven-figures.\2\ Other 
research confirms that violating title IX is getting more expensive for 
schools, not less. For instance, a report by United Educators, a major 
insurer of educational institutions, on claims for campus sexual 
assault cases from 2011-13 shows that schools paid $17 million in costs 
``defending and resolving sexual assault claims.'' \3\ Of these costs, 
84 percent, or $14.3 million, were spent on ``victim-driven 
litigation.'' \4\ This is in contrast to a similar report by United 
Educators on similar claims filed from 2005-10, where schools paid $36 
million in costs related to such claims, with a little over $10 million 
going to claims by ``accusers.'' \5\ Thus, in a little over half the 
time of the earlier 5-year study, institutions' costs based on claims 
filed by victims alleging title IX and similar violations have 
increased by about 43 percent.
---------------------------------------------------------------------------
    \2\ See, e.g., Tatianna Schlossberg, UConn to pay $1.3 Million to 
End Suit on Rape Cases, N.Y. TIMES (July 18, 2014), http://
www.nytimes.com/2014/07/19/nyregion/uconn-to-pay-1-3-million-to-end-
suit-on-rape-cases.html_r=0.
    \3\ See United Educators, Confronting Campus Sexual Assault: An 
Examination of Higher Education Claims 14 (2015), http://www.bgsu.edu/
content/dam/BGSU/human-resources/documents/training/lawroom/
Sexual_assault_claim_study.pdf.
    \4\ Id.
    \5\ See United Educators, Student Sexual Assault: Weathering the 
Perfect Storm 1-2 (2011), https://www.edurisksolutions.org/templates/
template-article.aspx?id=379&pageid=136.
---------------------------------------------------------------------------
    In light of these numbers, it is not only a reality, as I have 
detailed above, that higher education professionals have wanted 
guidance from OCR, but also completely logical, rational, and 
reasonable that an institution of higher education would want more, not 
less, guidance about how to protect their students' title IX rights. I 
certainly know that I wanted as much guidance as OCR had time to 
provide, when I was a campus administrator, and I know the many 
excellent colleagues with whom I worked during those years, as well as 
the many more such colleagues I met at NASPA, would agree. Indeed, at 
this moment in time, it would be quite unreasonable for any institution 
of higher education not to want OCR to provide guidance, to read that 
guidance closely when it is issued, and to follow its advice so the 
school can get out ahead of this discrimination problem and have the 
structures and staff in place to handle cases when they inevitably 
arise and do so in a way that protects the rights of all students 
involved. OCR has devoted hundreds of pages of guidance to schools to 
help them with these tasks, and both logic and evidence indicate that 
the higher education profession as a whole appreciates this guidance 
for both liability- and morality-based reasons.
    For all of these legal and practical reasons, I write in support, 
commendation, and thanks to the U.S. Department of Education Office for 
Civil Rights for issuing their guidance documents. I also thank you and 
the other members of the Senate Committee on Health, Education, Labor, 
and Pensions for their attention to these issues.
            Sincerely,
                                       Nancy Chi Cantalupo,
                                        Assistant Professor of Law,
                                                  Barry University 
                                   Dwayne O. Andreas School of Law.
                                 ______
                                 
                       National Women's Law Center,
                                      Washington, DC 20036,
                                                 February 25, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
525 Dirksen Senate Office Building,
Washington, DC 20510.

Re: In Support of Title IX, the Clery Act & Regulations that Protect 
        Students from Sexual Harassment and Gender-Based Violence in 
        Educational Programs

    Dear Chairman Alexander and Ranking Member Murray: In advance of 
the confirmation hearing for Education Secretary nominee Dr. John B. 
King, the National Women's Law Center writes to recognize the core 
responsibility of the U.S. Department of Education to enforce our 
Nation's civil rights education laws, including title IX and the Clery 
Act. We support regulations and guidance issued by the Department to 
inform institutions of their obligations under these laws and applaud 
the Department for its enforcement of them to ensure that sexual 
harassment and sexual violence does not interfere with a student's 
right to an educational environment free from sex discrimination. 
Because this work will be key to helping schools create safe spaces for 
all our Nation's students, we write with the following recommendations 
to remind schools of their civil rights obligations.

    I. Enforcement of Title IX and the Clery Act are Necessary to 
Create Safe Schools & Reduce Sexual Harassment, including Sexual 
Violence.

    The Clery Act \1\ is a consumer protection law that requires 
colleges and universities to publicly report campus crime statistics on 
an annual basis so that current and prospective students can evaluate 
the safety of an institution of higher education. Title IX of the 
Education Amendments of 1972 \2\ is a civil rights law that prohibits 
discrimination in federally funded education programs based on sex, 
which includes sexual harassment and violence.\3\ Although both laws 
have different goals, they work in conjunction to promote a school 
climate that is a safe and conducive learning environment for all 
students.
---------------------------------------------------------------------------
    \1\ 20 U.S.C.  1092.
    \2\ 20 U.S.C.  1681.
    \3\ Davis v. Monroe Cnty. Bd. of Educ., 526 U.S. 629 (1999).
---------------------------------------------------------------------------
    Sexual harassment in schools is a serious problem with devastating 
effects for students. It takes many forms, from ``unwelcome sexual 
advances'' and ``requests for sexual favors'' to ``other verbal, 
nonverbal, or physical conduct of a sexual nature.'' \4\ In a national 
survey of nearly 2,000 seventh- through 12th-graders conducted in 2011, 
nearly half of all students surveyed reported experiencing some form of 
sexual harassment in the 2010-11 school year.\5\ Unwanted sexual 
comments, jokes, and gestures were the most reported forms of sexual 
harassment, with 33 percent of students saying that they encountered 
this kind of conduct at least once in the 2010-11 school year.\6\ 
However, 8 percent of all students also reported being touched in an 
unwelcome way in the previous school year and 7 percent reported having 
someone flash or expose themselves in front of them.\7\ Additionally, 
public schools recorded 600 incidents of rape or attempted rape and 
3,600 incidents of sexual battery not involving rape in 2009-10, the 
most recent year for which data is available.\8\
---------------------------------------------------------------------------
    \4\ U.S. Dep't of Educ., Office For Civil Rights, Revised Sexual 
Harassment Guidance: Harassment of Students by School Employees, Other 
Students, or Third Parties, at 2 (2001), available at http://
www2.ed.gov/about/offices/list/ocr/docs/shguide.pdf.
    \5\ AM. Ass'n of Univ. Women, Crossing the Line: Sexual Harassment 
at School 2 (2011), available at http://www.aauw.org/files/2013/02/
Crossing-the-Line-Sexual-Harassment-at-School.pdf.
    \6\ Id. at 12.
    \7\ Id.
    \8\ Simone Robers et al., Indicators of School Crime and Safety: 
2013, at 117 (2014), available at http://nces.ed.gov/pubs2014/
2014042.pdf.
---------------------------------------------------------------------------
    The emotional and physical effects of sexual harassment and 
violence can be devastating for students. Victims of such conduct often 
find it difficult to study, reduce participation in school or school 
activities, and/or avoid school altogether.\9\ Sadly, some students 
have even committed suicide in the face of sexual harassment and 
violence. One example is Audrie Pott, a 5-year old who took her own 
life in 2013 after an alleged sexual assault and sexual bullying.\10\
---------------------------------------------------------------------------
    \9\ See AM. Ass'n of Univ. Women, supra note 5 at 3.
    \10\ Christina Sterbenz, Heartbreaking Details Revealed About 15-
Year-Old Who Killed Herself After Alleged Sexual Assault, Bus. Insider 
(Sept. 20, 2013, 2:30 PM), available at http://www.businessinsider.com/
details-on-audrie-potts-suicide-2013-9.
---------------------------------------------------------------------------
    There have been widespread reports of sexual harassment and 
violence at colleges and universities. According to several reports, 
one in five women and one in 20 men are sexually assaulted in 
college.\11\ And before the Department of Education Office for Civil 
Rights (OCR) issued guidance on title IX and sexual violence, 
universities were not doing enough to address the prevalence of sexual 
assault on campus.
---------------------------------------------------------------------------
    \11\ E.g., Nick Anderson & Scott Clement, 1 in 5 college women say 
they were violated, Wash. Post (June 12, 2015), http://
www.washingtonpost.com/sf/local/2015/06/12/1-in-5-women-say-they-were-
violated/; C.P. Krebs et al., College Women's Experiences with 
Physically Forced, Alcohol- or Other Drug-Enabled, and Drug-Facilitated 
Sexual Assault Before and Since Entering College, 57 J. AM. C. HEALTH 
639 (2009).
---------------------------------------------------------------------------
    For example, in 2014 the University of Connecticut settled a 
lawsuit with five students who claimed the school failed to handle 
their complaints of sexual violence properly.\12\ In 2013, Occidental 
College settled a suit with at least 37 students alleging similar 
claims.\13\ That same year, Yale University refused to expel six 
students it found guilty of ``nonconsensual sex,'' and released a semi-
annual report on sexual misconduct revealing that the university 
provided light punishments, such as temporary suspensions, for such 
actions.\14\ In 2012, a U.S.C. student reported a rape to her 
university and even played authorities a tape of her rapist admitting 
to the assault, but they dismissed her case for lack of evidence.\15\ 
And the Department of Education is still investigating a 2013 complaint 
from Swarthmore students alleging that the college violated the Clery 
Act by failing to report sexual assaults on campus.\16\ Students said 
that resident advisors failed to submit formal reports about their 
assaults and administrators declined to report conduct like 
stalking.\17\
---------------------------------------------------------------------------
    \12\ Jake New, Major Sexual Assault Settlement, Inside Higher Ed 
(July 21, 2014), https://www.insidehighered.com/news/2014/07/21/u-
connecticut-pay-13-million-settle-sexual-assault-lawsuit.
    \13\ Tyler Kingkade, Occidental College Settles Lawsuit with Sexual 
Assault Victims, Huffington Post (Sept. 19, 2013), http://
www.huffingtonpost.com/2013/09/19/occidental-lawsuit-sexual-
assault_n_3950830.html.
    \14\ Stacy Teicher Khadaroo, Sexual Assault on Campus: Yale Tries 
To Clarify Consent, Christian Sci. Monitor (Sept. 12, 2013), http://
www.csmonitor.com/USA/Education/2013/0912/Sexual-assault-on-campus-
Yale-tries-to-clarify-consent.
    \15\ Claire Groden, Campus Rape Victims Find a Voice, Time (Aug. 
08, 2013), available at http://nation.time.com/2013/08/08/campus-rape-
victims-find-a-voice/?iid=tsmodule.
    \16\ Joe Mariani, Title IX changes to affect campus procedures, 
Swarthmore Phoenix (Sept. 24, 2015), http://swarthmorephoenix.com/2015/
09/24/title-ix-changes-to-affect-campus-procedures/; Max Nesterak, 
Clery Complainants To File Title IX Complaints, Join National Movement 
Against Sexual Assault, Swarthmore Coll. Daily Gazette (Apr. 19, 2013) 
http://daily.swarthmore.edu/2013/04/19/clery-complainants-join-
national--movement-against-sexual-assault-to-file-title-ix-complaints/.
    \17\ Emma Jacobs, Swarthmore Students File Title IX Complaint over 
Alleged Inaction on Sexual Assault, Newsworks (Apr. 26, 2013), http://
www.newsworks.org/index.php/local/item/54084.
---------------------------------------------------------------------------
    Because of growing concerns about institutions' failure to 
appropriately address sexual violence cases, student activist groups 
have led national campaigns to educate students about their title IX 
rights.\18\ These groups, which include both survivors of sexual 
violence and allies, are responding to growing reports of sexual 
violence on campuses and sharing what they learned from their 
experiences.\19\ As a result of their advocacy, more survivors have 
come forward and filed complaints with OCR--with the Department 
investigating approximately 130 colleges and 40 school districts for 
title IX violations related to sexual assault, as of July 2015.\20\
---------------------------------------------------------------------------
    \18\ See Know Your IX, http://knowyourix.org/ (last visited Sept. 
26, 2013).
    \19\ About KYIX, Know Your IX (last visited Sept. 26, 2013), http:/
/knowyourix.org/about-ky9/.
    \20\ Morgan Baskin, Dept. of Ed: UVA fostered ``hostile 
environment'' for sexual assault survivors, USA Today (Sept. 21, 2015), 
http://college.usatoday.com/2015/09/21/dept-of-ed-uva-fostered-hostile-
environment-for-sexual-assault-survivors/; Tyler Kingkade, 124 
Colleges, 40 School Districts Under Investigation For Handling Of 
Sexual Assault, Huffington Post (July 24, 2015), http://
www.huffingtonpost.com/entry/schools-investigation-sexual-
assault_us_55b19b
43e4b0074ba5a40b77.
---------------------------------------------------------------------------
    The stakes could not be higher for students at all levels of 
education; reports of assaults and schools' failure to address them are 
widespread. Thus, the role of OCR in ensuring that schools prevent and 
address sexual harassment and violence is critical.

    II. OCR's Guidance and Resolution Agreements Are Necessary to Help 
Address the Pervasive Problem of Sexual Harassment and Violence in 
Schools.

    OCR issues guidance documents--including interpretive rules, 
general statements of policy, and rules of agency organization, 
procedure, or practice--to further assist schools in understanding what 
policies and practices will lead OCR to initiate proceedings to 
terminate Federal financial assistance under existing regulations under 
title IX and other civil rights laws. Last year, the Supreme Court 
unanimously confirmed that the Administrative Procedure Act allows 
agencies to issue such guidance without notice-and-comment procedures, 
because such guidance is expressly exempt from these requirements.\21\
---------------------------------------------------------------------------
    \21\ Perez v. Mortgage Bankers Ass'n, 135 S. Ct. 1199 (2015); 5 
U.S.C.  553(b)(3)(A).
---------------------------------------------------------------------------
    OCR's guidance and resolution agreements addressing sexual 
harassment and violence are essential tools that outline schools' 
responsibilities to prevent harassment and help combat this serious 
problem plaguing our Nation's schools. The 2010 Dear Colleague Letter 
on harassment and bullying provided examples of conduct that can 
constitute ``sexual harassment'' in federally funded educational 
programs.\22\ The 2011 Dear Colleague Letter on Sexual Violence \23\ 
emphasized prevention, specific procedures, and remedies that schools 
should use in sexual violence cases, including the preponderance of the 
evidence standard of proof for sexual harassment investigations. In 
2014, the Department also released a Questions and Answers document 
that provided technical assistance to schools regarding their 
obligations under title IX and highlighted proactive approaches schools 
can take to prevent and remedy the prevalence of sexual violence on 
campus.\24\ The 2010 and 2011 Dear Colleague Letters and the 2014 
Questions and Answers document allowed schools to receive guidance in a 
timely fashion and implement policies quickly. And OCR resolution 
letters with individual schools can model holistic approaches for 
ensuring that sexual violence reports are being handled properly by all 
parts of a school system. This is precisely the type of enforcement 
that can prompt reforms to reduce the prevalence of sexual violence in 
educational institutions.
---------------------------------------------------------------------------
    \22\ Russlyn Ali, Dear Colleague Letter, U.S. Dep't of Educ. Office 
For Civil Rights (Oct. 26, 2010) [hereinafter 2010 Dear Colleague 
Letter], http://www2.ed.gov/about/offices/list/ocr/letters/colleague-
201010.pdf.
    \23\ Russlyn Ali, Dear Colleague Letter, U.S. Dep't of Educ. Office 
For Civil Rights (Apr. 4, 2011) [hereinafter 2011 Dear Colleague 
Letter], http://www2.ed.gov/about/offices/list/ocr/letters/colleague-
201104.pdf.
    \24\ U.S. Dep't of Educ. Office For Civil Rights, Questions and 
Answers on Title IX and Sexual Violence (2014), http://www2.ed.gov/
about/offices/list/ocr/docs/qa-201404-title-ix.pdf.
---------------------------------------------------------------------------
    Despite the utility of OCR guidance, some suggest that OCR erred in 
not going through the Notice and Comment process before issuing its 
2010 and 2011 Dear Colleague. But there was no requirement that OCR do 
so, as these guidance documents merely provided clarification of OCR's 
2001 Dear Colleague letter \25\ on sexual harassment that was issued 
after the Supreme Court's decision in Davis v. Monroe County Board of 
Education,\26\ and the 2001 document did go through the Notice and 
Comment process. Requiring notice and comment on similar clarification 
documents would be unnecessary and only create further confusion given 
that the guidance documents clarified existing obligations. In the 
meantime, survivors and victims of discrimination would be deprived of 
their educational rights, and institutions would hide behind 
bureaucracy to delay complying with their obligations under title IX. 
The Department's ability to enforce our Nation's civil rights laws 
should not be obstructed--nor should its ability to offer clarifying 
guidance and technical assistance in a timely manner.
---------------------------------------------------------------------------
    \25\ See U.S. Dep't of Educ., Office For Civil Rights, Revised 
Sexual Harassment Guidance: Harassment of Students by School Employees, 
Other Students, or Third Parties (2001) [hereinafter 2001 Title IX 
Guidance], available at http://www2.ed.gov/about/offices/list/ocr/docs/
shguide.pdf.
    \26\ 526 U.S. 629 (1999).

    III. Title IX & Clery Should Set the Standard for Disciplinary 
---------------------------------------------------------------------------
Hearings Because Both Laws Require Fairness to Both Parties.

    To appropriately respond to sexual and gender-based violence on 
campus, universities must create and maintain policies that are fair 
for both the complainant/survivor and the respondent/accused. Title 
IX's ban on sex discrimination in education requires that all parties 
be treated fairly in the adjudication process, which means, for 
example, that both complainant and respondent must have the opportunity 
to present their positions to an impartial investigator who employs an 
evidentiary standard that distributes the burden of proof equitably.
    For these reasons, due process provisions that mirror those 
guaranteed to defendants in criminal justice proceedings--such as 
providing respondents exclusive appeal rights or requiring that 
universities apply a higher evidentiary standard than the preponderance 
of the evidence standard--are inappropriate in school sexual misconduct 
proceedings. Implementing such measures would give respondents/the 
accused more procedural protections than complainants/survivors, which 
would undermine title IX's goal to promote equality in educational 
programs.
    Both Title IX and Clery contain a number of baseline standards for 
institutional processes that colleges can increase to fit the needs of 
their campus. For example, in addition to notice and an opportunity to 
be heard, title IX requires that grievance procedures be both prompt 
and equitable, that investigations be adequate, reliable, and impartial 
and that written notice informing both parties of the outcome of the 
investigation be provided.\27\ Title IX also allows schools to provide 
the right to appeal a determination, as long as it provides this right 
equally for both parties.\28\ The same goes for the opportunity to 
present witnesses or other evidence during the investigation or hearing 
process.\29\ The Clery Act also sets forth minimum standards for school 
discipline procedures, including the right to have others present 
during disciplinary proceedings/meetings, the right to an advisor of 
their choice, and a requirement that both parties receive the outcome 
of a proceeding in writing at the same time.\30\ Because Title IX and 
Clery contain procedural protections that promote fundamental fairness 
in college proceedings while ensuring that both complainant and 
respondent have equal protections, these laws--not the criminal justice 
system--should provide the framework for any policies that seek to 
enhance due process rights for survivor/complainants and accused/
respondents.
---------------------------------------------------------------------------
    \27\ 2001 Title IX Guidance supra note 25, at 19-20.
    \28\ 2011 Dear Colleague Letter supra note 23, at 12.
    \29\ Id. at 11.
    \30\ 20 U.S.C.  1092 (f)(8)(B)(iv).
---------------------------------------------------------------------------
                                 ______
                                 
    The Department of Education's guidance on and enforcement of title 
IX and the Clery Act have been vital in the effort to curb the epidemic 
of sexual harassment and violence in our Nation's schools. This 
critical work must continue if the promise of these laws is to be 
fulfilled. Thank you for your consideration. If you have any questions, 
please contact Neena Chaudhry at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0a6469626b7f6e6278734a647d66692465786d">[email&#160;protected]</a>, Adaku Onyeka-
Crawford at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f5949a96879482939a8791b59b829996db9a8792">[email&#160;protected]</a>, or Fatima Goss Graves at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a7c1c0d5c6d1c2d4e7c9d0cbc489c8d5c0">[email&#160;protected]</a> of the National Women's Law Center or 202.588.5180.
            Sincerely,
                                        Fatima Goss Graves,
                                 Senior Vice President for Program.
                                            Neena Chaudhry,
                            Senior Counsel & Director of Education.
                                     Adaku Onyeka-Crawford,
                                                           Counsel.
                                 ______
                                 
                           Letters of Support
             National Center for Special Education 
                       in Charter Schools (NCSECS),
                                        New York, NY 10170,
                                                 February 24, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: The National 
Center for Special Education in Charter Schools (NCSECS) is dedicated 
to ensuring that students with disabilities have equal access to 
charter schools and that public charter schools are designed and 
operated to enable all students to succeed. We write today to thank you 
for your consideration of President Obama's nomination of Dr. John King 
as the Secretary of Education.
    Dr. King is an excellent choice to serve as the next Secretary. His 
track record leading up to his current position as Acting Secretary 
shows a deep commitment to high standards and his own impatience with 
entrenched systems that do not serve children well. He demonstrated 
these traits as the founder of a high performing charter school in 
Massachusetts, as a leader in a school management organization creating 
strong new charter schools in several States, and most recently, in his 
role as New York's Education Commissioner. Dr. King has demonstrated 
that he sees the public school landscape as a broad one, strengthened 
by strong districts and a thriving charter sector.
    Dr. King has recently met with civil rights and disability 
organizations where he spoke passionately and firmly about the need to 
ensure every student has equal access to a quality education in a high 
quality school. Given the work ahead--to implement The Every Student 
Succeeds Act (ESSA) and its many important provisions that impact all 
public title I schools, including charter schools--we believe it is 
imperative that Dr. King be formally confirmed by the Senate as soon as 
possible.
    NCSECS worked intently with the civil rights community on ESSA and 
has high hopes the updated law will successfully foster students 
achievement and equity. NCSECS is deeply interested in the 
implementation of the new law because charter schools are public 
schools and should be explicitly included in State title I planning. 
Charter schools must also be open and accessible to all students on par 
with traditional public schools. Therefore, Dr. King's nomination will 
help assure States have the appropriate guidance they need to begin the 
transition to implement the ESSA.
    Thank you for the opportunity to recommend Dr. King for this 
important nomination.
            Sincerely,
                                Lauren Morando Rhim, Ph.D.,
                                                Executive Director.
                                 ______
                                 
  National Center for Learning Disabilities (NCLD),
                                        New York, NY 10013,
                                                 February 18, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
455 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
154 Russell Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: The National 
Center for Learning Disabilities (NCLD), which represents the 1 in 5 
individuals with learning and attention issues, writes in support of 
the nomination of John King to Secretary of the U.S. Department of 
Education.
    Dr. King is well qualified to serve as Secretary of the U.S. 
Department of Education as he has been a champion for students 
throughout his career. His experience includes serving as a teacher, 
principal, a charter school founder, and a leader of schools and 
schools systems. As commissioner of education for the State of New 
York, Dr. King oversaw 3.1 million elementary and secondary school 
students and served as president of the University of the State of New 
York. In this role, he deepened collaboration between the State's 
preschool through grade 12 schools and its institutions of higher 
education, strengthening educator preparation. During his tenure, the 
State's ambitious initiatives included investing in high-quality early 
learning; raising standards; supporting educators through professional 
development, access to instructional resources, and innovative career 
ladder models; expanding career and technical education in high-demand 
fields; and increasing opportunities for students in the highest-need 
communities.
    Dr. King first joined the U.S. Department of Education in January 
2015 as Principal Senior Advisor. In that role, Dr. King carried out 
the duties of the Deputy Secretary, overseeing all preschool through 
grade 12 education policies and programs. Dr. King focused on 
increasing equity, improving outcomes for all students, and closing 
persistent achievement gaps. Dr. King's emphasis on improving outcomes 
and his willingness to collaborate indicate his dedication to 
educational equity and excellence for all students. The ongoing work 
that Dr. King has led at the U.S. Department of Education is essential 
and must continue.
    NCLD supports the swift confirmation of John King as Secretary of 
the U.S. Department of Education. We urge you to confirm his 
appointment as soon as possible so that students with learning and 
attention issues continue to be supported in their educational success.
            Sincerely,
                                             James Wendorf,
                                                Executive Director.
                                             Lindsay Jones,
                         Vice President and Chief Advocacy Officer.
                                 ______
                                 
 Association of University Centers on Disabilities 
                                            (AUCD),
                                   Silver Spring, MD 20910,
                                                 February 22, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: On behalf of the 
Association of University Centers on Disabilities, I write in strong 
support of the nomination of John King for Secretary of the U.S. 
Department of Education.
    AUCD promotes and supports a national network of interdisciplinary 
centers on disabilities. Our members represent every U.S. State and 
territory and include 67 University Centers for Excellence in 
Developmental Disabilities (UCEDDs), 45 Interdisciplinary Leadership 
Education in Neurodevelopmental and Related Disabilities (LEND) 
Programs and 15 Intellectual and Developmental Disabilities Research 
Centers (DDRCs).
    Having earned a Bachelor of Arts in Government from Harvard 
University, a Master of Arts in the teaching of social studies from 
Columbia University's Teachers College, a J.D. from Yale Law School, 
and a Doctor of Education degree in educational administrative practice 
from Columbia University's Teachers College, Dr. King is well qualified 
to serve as Secretary of the U.S. Department of Education. Dr. King 
also brings to his own personal experience leading urban public schools 
that are closing the achievement gap and preparing students to enter, 
succeed in, and graduate from college.
    Before becoming Acting Secretary, Dr. King had served since January 
2015 at the Department as Principal Senior Advisor. In that role, Dr. 
King carried out the duties of the Deputy Secretary, overseeing all 
preschool through 12th-grade education policies, programs and strategic 
initiatives, as well as the operations of the Department. Dr. King 
carried out this work with a focus on increasing equity, improving 
educational outcomes for all students, including those with 
developmental and other disabilities, and closing achievement gaps 
through implementation of key administration priorities in areas 
including early learning, rigorous academic standards, accessible 
curricula, universal design for learning, and the inclusion of all 
groups of students in accountability systems to help schools improve 
their outcomes.
    AUCD strongly supports the confirmation of John King as Secretary 
of the U.S. Department of Education and we urge you to confirm his 
appointment as soon as possible so that students with disabilities 
continue to be supported in their educational success.
            Sincerely,
                                             Andy Imparato,
                                                Executive Director.
                                 ______
                                 
                                 Chiefs for Change,
                                      Washington, DC 20004,
                                                 February 22, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
154 Russell Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: On behalf of 
Chiefs for Change, I am writing in strong support of Dr. John King's 
nomination to serve as Secretary of Education.
    Dr. King joined the Department as Principal Senior Advisor last 
year and has been overseeing all preschool-through-12th-grade education 
policies, programs and strategic initiatives, as well as the operations 
of the Department.
    Prior to his work at the Department, Dr. King served as 
commissioner of education for the State of New York. In that role, he 
served as chief executive officer of the State Education Department and 
as president of the University of the State of New York, overseeing the 
State's elementary and secondary schools (serving 3.1 million 
students), public, independent and proprietary colleges and 
universities, libraries, museums, and numerous other educational 
institutions.
    As commissioner of education, Dr. King pursued ambitious 
educational reforms to increase equity; raise standards for teaching 
and learning; support teachers and school leaders through strong 
professional development, access to rich instructional resources, and 
innovative educator career ladder models; expand career and technical 
education in high-demand fields; and increase educational opportunity 
for students in the highest-need communities.
    As the Department of Education continues work on the implementation 
process for the Every Student Succeeds Act, Chiefs for Change is 
confident that Dr. King's focus on preparing every child for success 
will lead to better educational outcomes, help to close achievement 
gaps among students; and better prepare students for college or a 
career. Importantly, Dr. King brings to this position the unique 
expertise and dedication that comes from a life-long career in 
education, beginning first as a teacher and middle- and high-school 
principal.
    As a nonprofit network of diverse State and district education 
Chiefs dedicated to preparing all students for today's world and 
tomorrow's, Chiefs for Change strongly endorses Dr. King for Secretary 
of Education and looks forward to working with the Department of 
Education to support innovative policies and practices that improve 
outcomes and create educational equity for all students. Please don't 
hesitate to contact me if you have any questions or if there is 
anything that Chiefs for Change could do to assist with Dr. King's 
nomination for Secretary of Education.
            Sincerely,
                                           Mike Magee, CEO.
                                 ______
                                 
           National Association of State Directors 
               of Special Education, Inc. (NASDSE),
                                      Alexandria, VA 22314,
                                                 February 23, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Alexander and Senator Murray: On behalf of the 
National Association of State Directors of Special Education (NASDSE), 
the national nonprofit organization that represents the State directors 
of special education in the States, the District of Columbia, the 
Federal territories, the Freely Associated States and the Department of 
Defense Education Agency, I write to urge the HELP Committee to take 
quick action to confirm John King as the Secretary of Education.
    The Department of Education needs a strong leadership team to 
implement the Every Student Succeeds Act starting now. In particular, 
NASDSE supports John King to be the next Secretary of Education because 
of the leadership and support he gave to meeting the needs of students 
with disabilities while serving in leadership positions in New York 
State.
    While in New York, he ensured that the needs of students with 
disabilities and English Language Learners were specifically considered 
in all State policy development and implementation across the entire 
Department of Education. During his administration, the New York State 
Education Department placed a spotlight on instruction and evidence-
based school practices that would ensure that every student had access 
to learn and be successful in school. John King met with 
representatives from each of the State's 14 Special Education Parent 
Centers to personally hear the voices and perspectives of parents of 
students with disabilities. He addressed all of the State's special 
education technical assistance providers to provide a vision of high 
expectations for their work. His policy and initiatives around data-
driven instruction and use of assessments to inform instruction led 
many schools to develop systems of Response to Intervention and 
Positive Behavioral Interventions and Supports. He also supported 
transition services for students with disabilities, providing more 
access to career and technical education coursework and work-based 
learning opportunities and advancing a credential to recognize a 
student's work-readiness knowledge and skills at the time of graduation 
from high school.
    During John King's administration in New York, the Education 
Department also closely aligned the ESEA and IDEA accountability 
systems, which significantly enhanced the State's school improvement 
work to address the needs of students with disabilities in low 
performing schools. While he was commissioner, access to the general 
education curriculum for students with disabilities took on a renewed 
focus and more schools began to develop standards-based individualized 
education programs (IEPs); the use of research-based specially designed 
instruction increased statewide; and results for students with 
disabilities improved.
    John King has been a voice for all students in the past and NASDSE 
is confident that he will continue to do so as Secretary of Education. 
Therefore, NASDSE is pleased to support his nomination.
            Sincerely,
                            Theron (Bill) East, Jr., Ed.D.,
                                                Executive Director.
                                 ______
                                 
                                       Teach +Plus,
                                          Boston, MA 02210,
                                                 February 23, 2015.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Senator Murray: Thank you for your 
bipartisan leadership in successfully reauthorizing the Elementary and 
Secondary Education Act (ESEA)--and for all of your ongoing bipartisan 
work together. We are particularly grateful to both of you and to your 
staff members for including teachers in a meaningful way throughout the 
reauthorization process.
    We are writing to let you know of our strong support for the 
nomination of John King to be U.S. Secretary of Education. As you know, 
Dr. King is deeply committed to equity and collaboration. He is a 
consensus-builder, and we believe that quality will serve him well in 
this role.
    Dr. King has been a champion in promoting teacher leadership, and 
we have appreciated the time he has spent with our teacher leaders. 
After he met with a group of our teachers in Memphis last year, they 
said they were struck by his thoughtfulness, warmth and commitment to 
students. But most of all, they appreciated how much he listened and 
tried to understand their views, even when they were critical of some 
of the Department's policies.
    We hope you and your colleagues will work together to vote this 
nomination out of committee and ensure that Dr. King is successfully 
confirmed by the full U.S. Senate.
    Thank you for your consideration.
            Sincerely,
                                            Celine Coggins,
                                                   Founder and CEO.
                                 ______
                                 
                National Disability Rights Network,
                                 Washington, DC 20002-4243,
                                                 February 24, 2016.

    To Whom It May Concern: It is with great pleasure that the National 
Disability Rights Network (NDRN) enthusiastically supports the 
nomination of Acting Secretary of Education, John B. King Jr, for the 
position of Secretary of Education.
    NDRN is the national membership association for the Protection and 
Advocacy (P&A) and Client Assistance Program (CAP) System, the 
nationwide network of congressionally mandated agencies that advocate 
on behalf of persons with disabilities in every State, the District of 
Columbia, Puerto Rico, the U.S. territories of American Samoa, Guam, 
U.S. Virgin Islands, and the Northern Mariana Islands, and affiliated 
with the Native American Consortium which includes the Hopi, Navajo and 
Piute Nations in the Four Corners region of the Southwest. For over 30 
years, the P&A/CAP System has worked to protect the human and civil 
rights of individuals with disabilities of any age and in any setting. 
A central part of the work of the P&A/CAP System (nearly 12,000 
individual cases in 2014) has been to advocate for opportunities for 
students with disabilities to receive a quality education with their 
peers. Collectively, the P&A/CAP agencies are the largest provider of 
legally based advocacy services for persons with disabilities in the 
United States.
    Dr. King brings the invaluable experience of having served as a 
teacher, a school administrator, the commissioner of education for the 
State of New York, as Principal Senior Advisor to the Department of 
Education and most recently as Acting Secretary for the Department of 
Education. Dr. King has spoken eloquently about his strong belief in 
the importance of educational opportunity for all students. NDRN fully 
supports this sentiment as educational opportunity is critical (and 
often sadly lacking) for the success of students with disabilities. 
NDRN also had the opportunity to hear Dr. King speak with eloquence on 
the importance of accountability in the education of all students, 
including students with disabilities.
    It is the strong belief of NDRN that, at this critical juncture in 
the progression of education policy in the United States, John B. King, 
Jr. be confirmed as Secretary of Education.
    Please do not hesitate to contact Amanda Lowe, public policy 
analyst, with any questions at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="551438343b31347b393a2230153b31273b7b3a27327b">[email&#160;protected]</a>
            Sincerely,
                                               Curt Decker,
                                                Executive Director.
                                 ______
                                 
                        National Council of LaRaza,
                                 Washington, DC 20036-4845,
                                                 February 24, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
835 Hart Senate Office Building,
Washington, DC 20510.

    Dear Senator Alexander and Senator Murray: On behalf of the 
National Council of La Raza (NCLR), the Nation's largest Hispanic civil 
rights and advocacy organization, I write to express enthusiastic 
support of Dr. John B. King to be the next Secretary of Education. 
During his tenure at the Department of Education and as education 
commissioner of New York, he has shown a deep dedication to raising 
academic standards and advancing equity to give opportunity to all 
children facing the demands of the 21st-century workplace.
    In the coming months, the Department of Education will have a 
daunting task: implementing the Every Student Succeeds Act in a manner 
consistent with the law's civil rights mission. Dr. King has been a 
leader in education since the beginning of his career as a public 
school teacher and is well-suited to oversee ESSA's regulatory process 
to ensure the legislation fulfills its promise to the 13 million Latino 
students and 5 million English learners in American schools.
    In addition, Dr. King's nomination adds much-needed diversity to 
the administration's highest ranks. As a Latino, Dr. King's inclusion 
in the cabinet sends an important signal to the community that Latino 
and English learner children are the future of this country. They will 
have a committed voice in Washington who understands their needs and 
their growing influence in public education.
    We are pleased by reports of plans to move Dr. King's confirmation 
process through the HELP Committee and to the floor as swiftly as 
possible. We look forward to working with your staff to ensure this 
occurs. Please feel free to contact Victoria Benner, Senior Legislative 
Strategist, at (202) 776-1760 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="87f1e5e2e9e9e2f5c7e9e4ebf5a9e8f5e0">[email&#160;protected]</a> if you have any 
questions.
            Sincerely,
                                            Eric Rodriguez,
                                                    Vice President.
                                 ______
                                 
    Council of Chief State School Officers (CCSSO),
                                      Washington, DC 20001,
                                                 February 24, 2016.

    Dear Chairman Alexander, Ranking Member Murray, and members of the 
committee: I am writing on behalf of chief State school officers to 
express support for the confirmation of Dr. John King as U.S. Secretary 
of Education.
    Today is a critical time in education. In 2015, Congress 
reauthorized the Elementary and Secondary Education Act, and States now 
stand ready and willing to implement the new Every Student Succeeds Act 
with the additional flexibility and authority it provides States. To be 
successful, States must forge partnerships at the State, local and 
Federal levels. Just as States sought a stable Federal policy on 
education, we also are eager for stability within the U.S. Department 
of Education during this critical time.
    As a former State education chief and classroom teacher, John King 
brings a unique perspective to the Office of the U.S. Secretary of 
Education. As a State chief and Acting Secretary of Education, he has 
demonstrated a commitment to make sure all students have a high-quality 
education. He is a thoughtful educational leader who understands the 
important role chief State school officers play in shaping education 
policy for all kids.
    For these reasons, I urge the U.S. Senate to confirm John King as 
U.S. Secretary of Education. The Council of Chief State School Officers 
looks forward to continuing to work with John King and his staff to 
create helpful guidance and maintain State authority and flexibility 
under the Every Student Succeeds Act in the months to come.
            Sincerely,
                                     Chris Minnich,
                                                Executive Director.
                                 ______
                                 
                 Council of the Great City Schools,
                                      Washington, DC 20004,
                                                 February 24, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: The Council of 
the Great City Schools, the coalition of the Nation's largest central 
city school districts, writes to express strong support for the 
nomination of Dr. John B. King, Jr. as United States Secretary of 
Education. The long overdue reauthorization of the Elementary and 
Secondary Education Act in Congress must now be implemented in States 
and school districts throughout the Nation, and Dr. King has the 
experience needed to lead this work at the U.S. Department of 
Education.
    Dr. King began serving in the U.S. Department of Education in 
January 2015, and has been Acting Secretary of Education since the 
beginning of 2016. Most importantly, Dr. King served in a number of 
education positions at the local and State level prior to coming to 
Washington, starting as a high school classroom teacher. His subsequent 
roles in founding and managing local schools provided Acting Secretary 
King with unique experience leading urban public schools that are 
closing achievement gaps and preparing college- and career-ready 
students. In 2011, Dr. King was appointed education commissioner for 
the State of New York, where he oversaw the elementary and secondary 
schools that serve over 3 million students, as well as the public, 
private, and proprietary colleges and universities in the State.
    In his time at the U.S. Department of Education, both before and 
since becoming Acting Secretary, Dr. King has focused on improving 
educational outcomes for all students and closing achievement gaps. His 
priorities for expanding early learning, delivering high-quality 
instruction for poor and minority students, and providing special 
education, English language acquisition, and innovative services in 
schools aligns with the goals outlined by Congress in the new Every 
Student Succeeds Act.
    The Council of the Great City Schools urges the Senate to confirm 
Dr. John B. King, Jr. as U.S. Secretary of Education.
            Sincerely,
                                          Michael Casserly,
                                                Executive Director.
                                 ______
                                 
                            Human Rights Campaign,
                                      Washington, DC 20036,
                                                 February 24, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: On behalf of the 
Human Rights Campaign's more than one and a half million members and 
supporters nationwide, I write to urge you to support the nomination of 
John B. King, Jr., to be Secretary of Education. As the Nation's 
largest organization working to achieve equal rights for the lesbian, 
gay, bisexual, and transgender (LGBT) community, HRC believes that Dr. 
King is exceptionally qualified to lead the U.S. Department of 
Education.
    At the Department of Education, Dr. King has emphasized the 
importance of strong enforcement of civil rights protections and 
educational equity. Previously, he served the Department as Principal 
Senior Advisor, carrying out the duties of the Deputy Secretary of 
Education, including overseeing all preschool-through-12th-grade 
education policies, programs, and strategic initiatives. He also 
oversaw the Department's implementation of the My Brother's Keeper 
initiative, a program designed to address the achievement gap among 
boys and young men of color.
    Prior to his tenure at the Department of Education, Dr. King was 
commissioner of education for the State of New York serving the State's 
3.1 million students and overseeing the public university system. Dr. 
King pursued an ambitious agenda that invested in early learning, 
supported teachers' professional development, raised standards for 
students and teachers, and expanded educational opportunities for high 
risk students.
    A lifelong educator, Dr. King understands that the first step 
toward academic success is freedom from discrimination, bullying, and 
harassment, which can lead to lower academic achievement. The 
Department has worked hard to protect students from discrimination, 
sexual assault, violence, bullying, and harassment through strong 
enforcement of Title IX of the Education Amendments of 1972 and the 
Jeanne Clery Act.
    We are confident that Dr. King will continue to be an advocate for 
strong enforcement of students' civil rights, and we urge you to 
swiftly confirm John B. King, Jr., as Secretary of Education. His 
experience, lifelong service in education, and commitment to providing 
every child with a high quality education make him eminently qualified 
to lead the U.S. Department of Education.
            Sincerely,
                                               David Stacy,
                                       Government Affairs Director.
                                 ______
                                 
      The Leadership Conference on Civil and Human 
                                            Rights,
                                      Washington, DC 20006,
                                                 February 24, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Re: Confirm Acting Secretary John King as U.S. Secretary of Education

    Dear Chairman Alexander and Ranking Member Murray: On behalf of The 
Leadership Conference on Civil and Human Rights, a coalition charged by 
its diverse membership of more than 200 national organizations to 
promote and protect the rights of all persons in the United States, we 
write to urge your support for the nomination of Acting Secretary John 
King to be Secretary of Education for the remainder of the Obama 
administration.
    Given the recent enactment of the Every Student Succeeds Act, and 
the need for active engagement by the Department of Education in the 
law's implementation, the civil rights community has a deep interest in 
this nomination. The original Elementary and Secondary Education Act of 
1965, which was renamed the Every Student Succeeds Act in its most 
recent reauthorization, sought to raise achievement for low-income and 
otherwise disadvantaged children. That intent has carried through to 
this most recent version of the law and it is critical that the 
Department of Education is in a position--with the leadership of John 
King as Secretary--to ensure that that intent is faithfully 
implemented.
    As a former teacher, and school, district, and State leader, Acting 
Secretary King is well-suited for the role of Secretary and in 
particular, to facilitate the transition from the No Child Left Behind 
Act to the new law. For more than two decades, Acting Secretary King 
has worked on issues affecting underserved communities. He has served 
as commissioner of education for the State of New York, managing 
director of one of the largest school networks in the country, and 
director of curriculum and instruction at a school in Massachusetts. At 
every stop, Acting Secretary King has worked to close the achievement 
gap. While Acting Secretary King's experience is impressive, most 
importantly, we believe Acting Secretary King understands and 
appreciates the importance of working collaboratively with coalitions 
like The Leadership Conference, which will be essential as we focus on 
ensuring ESSA is implemented in a way that provides equity for all 
students.
    We believe Acting Secretary King will serve as an excellent leader 
for the Department as the agency uses its important and vital role to 
implement ESSA. Acting Secretary King is well-positioned to ensure that 
vulnerable students and communities are meaningfully engaged in ESSA 
implementation and that the Office for Civil Rights continues its good 
work to enforce civil rights laws nationwide. Having his leadership for 
the remainder of the Obama administration will be invaluable and we 
urge the Senate to swiftly confirm Acting Secretary King. If you have 
any questions, please feel free to contact Nancy Zirkin at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7c06150e1715123c1f150a15100e151b14080f52130e1b">[email&#160;protected]</a> or Liz King, Director of Education Policy at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ce7e5e2ebccefe5fae5e0fee5ebe4f8ffa2e3feeba2">[email&#160;protected]</a> Thank you for your consideration.
            Sincerely,
                                            Wade Henderson,
                                                   President & CEO.
                                              Nancy Zirkin,
                                          Executive Vice President.
                                 ______
                                 
                                       New Leaders,
                                        New York, NY 10010,
                                                 February 24, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
154 Russell Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: New Leaders is 
pleased to support President Obama's nomination of Dr. John B. King, 
Jr., as the U.S. Secretary of Education.
    New Leaders is a national nonprofit organization dedicated to 
providing all children with a meaningful, high-quality education that 
prepares and inspires them to be successful in college, career, and 
citizenship. We develop transformational school leaders to serve the 
Nation's highest-need communities and advance the policies and 
practices that enable great leaders to build schools where teachers 
thrive and students excel. To date, we have trained more than 2,500 
leaders who are currently serving 450,000 students across the country.
    For the past year, first as Acting Deputy Secretary and most 
recently as Acting Secretary, Dr. King has demonstrated a deep, 
unwavering commitment to our Nation's students, their families, and the 
dedicated teachers and leaders who serve them--particularly in the 
highest-need schools and communities. His unmatched dedication to 
equity, coupled with his experience as a successful teacher, principal, 
and system leader, make him especially well-suited to lead the U.S. 
Department of Education as it supports States, districts, and schools 
to implement new provisions of the Every Student Succeeds Act (ESSA). A 
former New Leaders board member, Dr. King recognizes that the success 
of any school improvement effort depends on the quality and strength of 
our Nation's school leaders. He is uniquely qualified to oversee the 
Department's support for leaders at the classroom, school, district, 
and State levels so that they may take advantage of the opportunities 
ESSA presents.
    We have utmost confidence in Dr. King's ability to engage diverse 
partners across the education sector to ensure that every student in 
our PK-12 system is prepared for success in college, careers, or 
whatever their next step in life may be. It is our hope that Congress 
will confirm Dr. King in a timely fashion so that he may continue 
providing balanced leadership during this critical period of transition 
for our Nation's schools.
            Sincerely,
                                   Jean Desravines,
                                           Chief Executive Officer.
                                 ______
                                 
                   Association for Supervision and 
                    Curriculum Development (ASCD),
                                 Alexandria, VA 22311-1714,
                                                 February 25, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: ASCD strongly 
supports the nomination of John King to be the next U.S. Secretary of 
Education and we hope that your committee moves swiftly to confirm his 
appointment.
    As an organization that represents over 125,000 educators at all 
levels of the education profession, we appreciate Dr. King's extensive 
and varied experience as an educational leader and the expertise, 
perspective, and passion he brings to serving the needs of all 
students. We are particularly impressed with his commitment to ensuring 
that each child, in each community is healthy, safe, engaged, 
supported, and challenged.
    Appearing before a congressional panel on the President's fiscal 
year 2017 budget request yesterday, Dr. King emphasized his intent to 
continue to focus on excellence and equity for every student, enhancing 
the teaching profession, and ensuring higher rates of college 
completion. ASCD applauds these goals and Dr. King's focus on 
increasing diversity in the educator workforce. Dr. King's experience 
as a State education leader, principal, and teacher give him a diverse 
perspective that will be especially beneficial in leading the 
Department of Education.
    We commend your leadership in moving this nomination forward, 
especially at this critical time when the Department of Education is 
beginning to develop the regulatory guidance that will govern the Every 
Student Succeeds Act. The prospects for the successful implementation 
of the new law will be enhanced by a Secretary confirmed by the Senate 
rather than one serving in an ``acting'' capacity. Toward that end, we 
urge the committee to approve Dr. King's nomination as soon as 
possible.
            Cordially,
                                            David Griffith,
                           Senior Director of Government Relations.
                                 ______
                                 
                               The Education Trust,
                                      Washington, DC 20005,
                                                 February 25, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
154 Russell Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: On behalf of The 
Education Trust, I write to express my enthusiastic support of Dr. John 
B. King, Jr. to be the next Secretary of Education.
    As an educator, Dr. King has important insight into what good 
teaching and good schools look like. He's drawn on that insight in his 
role as commissioner of education in New York, where he worked 
incredibly hard to improve teaching and learning across the State, and 
in his tenure at the U.S. Department of Education, where he's continued 
his efforts to improve outcomes for all young people.
    His compass is always guided by what he believes is right for kids, 
particularly the low-income children and children of color whose very 
futures depend on high-quality education. Like us, he has a driving 
sense of urgency about closing the gaps in opportunity and achievement 
that separate low-income students and students of color from their 
peers.
    The hard work of implementation of the Every Student Succeeds Act 
(ESSA) is underway. Under ESSA, the Department of Education has an 
important role to play through enforcement, regulation, and guidance, 
especially when it comes to ensuring that States and localities are 
taking seriously their responsibility to all children. The confirmation 
of Dr. King as Secretary of Education would be a significant step in 
that process.
    We are pleased by reports that the committee will move Dr. King's 
confirmation process expeditiously. We look forward to working with 
your staffs to ensure this occurs. Please feel free to contact Daria 
Hall, Vice President of Government Affairs and Communications, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="baded2dbd6d6fadfdecec8cfc9ce94d5c8dd">[email&#160;protected]</a> or 202-293-1217 ext. 349 if you have any questions.
            Sincerely,
                                         Kati Haycock, CEO.
                                 ______
                                 
                                      Easter Seals,
                                      Washington, DC 20005,
                                                 February 25, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
154 Russell Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: Easter Seals 
writes today urging the Senate to confirm John King as Secretary of the 
U.S. Department of Education. As the leading provider of early 
education services to young children with and without disabilities and 
their families, Easter Seals believes strongly that our Nation's 
children deserve leadership at the U.S. Department of Education that 
only comes with a confirmed Secretary.
    Our experience in working with Dr. King during his tenure at the 
Department has demonstrated that he is well qualified to serve as 
Secretary of the U.S. Department of Education. His background as a 
student, teacher, principal, charter school founder, and leader of 
schools and schools systems helps him understand the complexity of our 
education system and why student outcomes must always be its highest 
priority.
    Again, Easter Seals urges the Senate to confirm John King as the 
Secretary of Education. Thank you for considering our views.
            Sincerely,
                                             Katy Beh Neas,
                          Executive Vice President, Public Affairs.
                                 ______
                                 
                    The New Teacher Project (TNTP),
                                        Brooklyn, NY 11201,
                                                 February 25, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
154 Russell Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: Today, the U.S. 
Senate Committee on Health, Education, Labor, and Pensions holds its 
first hearing to consider President Obama's nomination of Dr. John B. 
King, Jr. to serve as U.S. Secretary of Education. TNTP strongly 
endorses Dr. King's nomination, and encourages the committee and the 
full Senate to confirm him as soon as reasonably possible.
    TNTP has had the privilege of working with Dr. King since his days 
as a school leader in New York and his term as New York State Education 
Commissioner. From our experiences, we know that Dr. King does not see 
himself as an appointed official navigating politics and policy. 
Instead, he still sees himself as a kid whose life was changed--and 
possibly saved--by great public schools.
    Despite deep personal challenges that could have led him to become 
a bleak educational statistic, Dr. King has epitomized hope through a 
long, accomplished career as a student, an educator, and a leader of 
outstanding public schools that achieved exceptional outcomes for low-
income students. That hope fuels his unbreakable commitment to all 
students, but especially to those most in need of receiving an 
outstanding education to fulfill their potential.
    Our Nation has precious few education leaders like Dr. King, who 
personally know what so many of our students know: what it's like to go 
to bed hungry, or to feel entirely alone, or to be the only dark-
skinned face in a sea of white faces. Students across the country 
deserve a Secretary of Education who will wake up each day fighting to 
make sure they get the great education they deserve--the same kind of 
education that changed his own life.
    We hope you and your colleagues will vote Dr. King's nomination out 
of committee and work to ensure that he receives confirmation by the 
full Senate.
    Thank you for your consideration, and for the work you do on behalf 
of America's students.
            Sincerely,
                                           Daniel Weisberg,
                                           Chief Executive Officer.
                                 ______
                                 
                                 Teach for America,
                                        New York, NY 10004,
                                                 February 24, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
828 Hart Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
615 Hart Senate Office Building,
Washington, DC 20510.

    Dear Senator Alexander and Senator Murray: Teach For America writes 
in support of Acting Secretary John King's confirmation to lead the 
U.S. Department of Education.
    John King is an inspiring leader who has both a personal connection 
to and deep understanding of the power of educators to change lives. 
Having grown up in a low-income neighborhood in Brooklyn, Dr. King's 
academic journey from PS 276 in Canarsie to Harvard University lends 
him a valuable vantage point on the state of American education. With a 
wealth of experience in both teaching in and leading urban public 
schools, we are confident that he will foster collaboration and find 
strength in diverse viewpoints. We are confident that he will put at 
the center the voices of teachers, principals, students, and other 
leaders and advocates working to ensure that every child has the chance 
to reach her full potential.
    As the former commissioner of education in New York State, Dr. King 
understands the value of State and local decisionmaking in education 
and personally brought numerous lasting changes that benefited the 
students of New York. Throughout his tenure, Dr. King demonstrated the 
courage of his convictions, and worked tirelessly to galvanize the 
State around policies that benefited New York's students. As Acting 
Secretary, Dr. King has already shown he is a reliable steward in the 
fight for educational excellence and equity for all students. We look 
forward to continued engagement with the Department under his 
leadership.
    We hope that Congress will move swiftly in confirming Acting 
Secretary John King to be the Secretary of the U.S. Department of 
Education.
            Sincerely,
                                    Elisa Villanueva Beard,
                                           Chief Executive Officer.
                                 ______
                                 
            National Down Syndrome Congress (NDSC),
                                         Roswell, GA 30076,
                                                 February 18, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
455 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
154 Russell Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: The National 
Down Syndrome Congress (NDSC), a member-sustained, nonprofit 
organization, which works to promote the interests of people with Down 
syndrome and their families through advocacy, public awareness, and 
information, writes in support of the appointment of Dr. John King as 
Secretary of the U.S. Department of Education.
    Dr. King has the qualifications to serve as Secretary of the U.S. 
Department of Education. He has experience as a teacher, principal, a 
charter school founder, and a leader of schools and schools systems. In 
his position as commissioner of education for the State of New York, 
Dr. King was responsible for the education of 3.1 million elementary 
and secondary school students. Initiatives under his leadership 
demonstrated a commitment to both students and educators, including 
initiatives to increase opportunities for high-need students. Dr. King 
also served as President of the University of the State of New York 
providing him with experience in higher education.
    In January 2015, Dr. King joined the U.S. Department of Education 
and carried out the duties of the Deputy Secretary. A year later Dr. 
King became Acting Secretary of Education. In his letter to U.S. 
Department of Education staff about goals for 2016, Dr. King recognized 
the progress that has been made for historically underserved students, 
including students with disabilities, but also made a commitment to 
address the persistent achievement gaps. It is critically important to 
continue this focus on equity. NDSC supports the appointment of John 
King as Secretary of the U.S. Department of Education and urges you to 
confirm his appointment as soon as possible.

                                            David Tolleson,
                                                Executive Director.

                                    Richelle (Ricki) Sabia,
                                   Senior Education Policy Advisor.
                                 ______
                                 
                      National Alliance for Public 
                           Charter Schools (NAPCS),
                                      Washington, DC 20005,
                                                 February 19, 2016.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
455 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
154 Russell Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: On behalf of the 
National Alliance for Public Charter Schools I am writing to offer 
enthusiastic support for the nomination of Dr. John B. King to serve as 
U.S. Secretary of Education. I urge the Senate to confirm his 
nomination.
    Dr. King has dedicated his career to strengthening educational 
opportunities for all students. His experience ranges from classroom 
teacher to commissioner of the New York State Department of Education. 
Among his vast resume, Dr. King's experience as Managing Director of 
Uncommon Schools, a charter school network whose core values include 
high standards, accountability, curiosity and a college-going culture, 
illustrates his commitment to closing achievement gaps and providing 
high-quality options for all students.
    Further, as the U.S. Department of Education implements the Every 
Student Succeeds Act of 2015, it is critical that the Department have 
strong leadership. I am confident that Dr. King's experience and 
compelling record of commitment to high standards for all students make 
him a great candidate to fulfill the duties of U.S. Secretary of 
Education.
    Thank you for your consideration on this matter. The National 
Alliance looks forward to continued work with Congress and the U.S. 
Department of Education to advance public education for all students.
            Sincerely,
                                              Nina S. Rees,
                                                 President and CEO.
                                 ______
                                 

     Response by John B. King, Jr., Ph.D., to Questions of Senator 
  Alexander, Senator Enzi, Senator Murkowski, Senator Scott, Senator 
                       Hatch, and Senator Cassidy

                           senator alexander
    Question 1. In the Every Student Succeeds Act, the Secretary is 
prohibited from prescribing the numeric long-term goals or measurements 
of interim progress for academic progress and graduation rates that 
States establish for all students, including timelines for those goals, 
or the progress expected from any subgroups of students in meeting such 
goals. How do you interpret the new law's prohibitions on the Secretary 
from prescribing State goals for student achievement and graduation 
rates? Will you adhere to these prohibitions and congressional intent?
    Answer 1. I understand that the statute does not authorize me to 
prescribe numeric long-term goals or measurements of interim progress 
that a State may establish as part of its statewide accountability 
system for student academic achievement and graduation rates, and the 
Department will adhere to this restriction.

    Question 2. In the ``Every Student Succeeds Act,'' the Secretary 
and political appointees cannot attempt to participate in, or 
influence, the peer-review process. Additionally, the Secretary cannot 
use the approval of the State plan, or revisions or amendments to, or 
approval of a waiver request, to add any requirements that are 
inconsistent with or outside the scope of the law or require a State to 
change its standards. How do you interpret the new law's prohibitions 
on the Secretary from using the State plan or waiver process to add new 
mandates or conditions to the plan? How will you adhere to these 
prohibitions?
    Answer 2. The statute prohibits me and other political appointees 
from participating in, or influencing, the peer review process. I will 
adhere to this prohibition and will ensure that the Department's other 
political appointees do also. The statute makes clear that peer review 
of a State plan is to provide an objective review of State plans and to 
respect State and local judgments, with the goal of supporting State 
and local innovation and providing objective feedback on the quality of 
the State plan. I value this independent review which will provide me 
with advice on whether the State plan meets the statutory requirements 
and therefore warrants my approval.
    In approving a State plan, amendments, or a waiver, I understand 
that I cannot add requirements or conditions that are inconsistent with 
or outside the scope of the law.

    Question 3. ESSA explicitly reflects a bipartisan desire to reduce 
the Federal footprint in America's schools. So can you explain why the 
Administration's 2017 budget requests the creation of 269 new positions 
at the U.S. Department of Education? This would represent an increase 
of 457 positions from 2015, or more than a 10 percent increase in just 
2 years. Can you explain why these positions are necessary, and why the 
Department intends to expand rather than shrink, given congressional 
intent to reduce the size of the Department?
    Answer 3. The Department of Education is the smallest Cabinet 
agency with 4,538 full-time equivalents (FTE), despite the third 
largest discretionary appropriation and the $1 trillion loan portfolio. 
We spend less than 1 percent of the $200 billion we make in grants and 
loans annually on administration. The 457 FTE increase from 2015 to 
2017 is almost all to investigate discrimination complaints and to help 
administer $100 billion in new loans and service an outstanding 
portfolio of over a trillion dollars. The Office for Civil Rights would 
grow by 213 FTE to keep up with the surge in discrimination complaints 
from 6,933 in 2010 to 10,900 in 2016. Without an increase in staff, 
resolution of cases will be delayed. Federal Student Aid staff will 
increase in order for ED to monitor schools and contractors who help 
provide aid to 12 million students each year. While we rely on private 
sector contractors to service the 41 million loan borrowers, we need 
Federal staff to work with the contractors to ensure they are serving 
our customers. Finally, we also need expert staff to manage our cyber 
security efforts and control the privacy of data. That said, we are not 
assigning more staff to ESSA programs.

    Question 4. Since you've been at the Department, you've talked 
repeatedly about the importance of closing racial and economic 
``achievement gaps.'' That's a good and important use of the bully 
pulpit. How will you also shine a focus on addressing the educational 
needs of middle-class and suburban students?
    Answer 4. I have been very clear that I see no task as more 
critical than advancing educational equity and excellence. The goal is 
not to advance equal access to a mediocre education, it is to ensure 
that every student, regardless of race, class, or zip code has access 
to the truly world-class education they deserve and need in today's 
economy. As the question notes, the ``equity'' piece of that equation 
is fundamental to our ability to live up to our ideals as a nation and 
I will continue to focus on improving outcomes for students most in 
need. Despite significant progress over the past several years, 
students from low-income families and students of color lag behind 
their peers in nearly every important measure of school achievement. So 
do our rural students and students with disabilities, our English 
Learners, Native American students, and homeless students. That must 
change.
    However, we are also pursuing work in a number of areas that inure 
benefits to all students. The President's proposal to expand preschool 
for all would give more children--including middle class children--the 
early start that we know bolsters long-term success. Our Computer 
Science for All initiative aims to empower all students, regardless of 
background, with the computer science and computational thinking skills 
to succeed in today's innovation economy. Through our Testing Action 
Plan, we are working to reduce unnecessary, redundant or poorly 
designed assessments that eat up instructional time without providing 
useful feedback for parents and educators. With the passage of the 
Every Student Succeeds Act, States and districts have an opportunity to 
reclaim the goal of a well-rounded education for all students: an 
education that not only promotes strong numeracy and literacy skills 
but also provides access to science, social studies, the arts, physical 
education and health, and the opportunity to learn a second or third 
language.
    As I have in my time at the Department to date, I will continue to 
pursue policies and celebrate local efforts that support excellence in 
all of these ways.

    Question 5. The past year has seen a great deal of turbulence on 
college campuses. Whatever one makes of the current debates, there has 
been a worrisome inclination to stifle certain voices and kinds of 
speech. What do you think of attempts to silence ``hurtful'' speech or 
dis-invite unpopular campus speakers? Can we expect you to speak 
forthrightly and frequently on the vital role of free speech and 
intellectual diversity in higher education?
    Answer 5. On December 31, then Secretary Arne Duncan and I 
(performing the duties of the Deputy Secretary) issued a Dear Colleague 
Letter to enlist the help of education leaders and administrators to 
help promote mutual respect, tolerance, and diversity on our Nation's 
schools and institutions of higher education and ensure that their 
schools and institutions of higher education ``are learning 
environments in which students are free from discrimination and 
harassment based on their race, religion, or national origin.'' The 
letter is available at: http://www2.ed.gov/policy/gen/guid/secletter/
151231.html.
    The focus in the letter on these protections, while always 
essential, is particularly important amid international and domestic 
events that create an urgent need for safe spaces for students. In the 
letter, we emphasized that ``[t]o be very clear, working to maintain 
safe learning communities does not, and must not, mean chilling free 
expression about the issues of the day--this work is about taking 
thoughtful steps to create space for open and constructive dialog, 
while dealing swiftly with actions that create an unlawful hostile 
environment.'' We indicated that ``protecting free speech means 
protecting the ability of your students, faculty, staff, and members of 
the public to hold and express views that may be at odds with your 
institution's strongly held values. Schools should not ignore the 
dissonance that this creates, but should instead consciously use these 
moments as opportunities for reflection, discussion, and increased 
understanding.''

    Question 6. There is concern that the Department of Education is 
using title IX to strip basic constitutional rights from those accused 
of sexual assault on campus. In a letter that 28 members of the Harvard 
Law School faculty published in late 2014, they wrote that, under 
pressure from the Department of Education, ``Harvard has adopted 
procedures for deciding cases of alleged sexual misconduct which lack 
the most basic elements of fairness and due process, are overwhelmingly 
stacked against the accused, and are in no way required by Title IX law 
or regulation.'' What is your response to such concerns? If confirmed 
as secretary, what would you do to address them?

    Answer 6. The Department's regulations implementing title IX 
require that educational institutions adopt ``grievance procedures 
providing for prompt and equitable resolution'' of complaints. 34 CFR  
106.8(b). The Department's Office for Civil Rights (OCR) interprets 
that regulation to require equitable treatment of both complainants and 
those accused. At the current time, OCR has accepted for investigation 
around two dozen complaints filed by accused students claiming they 
were not treated equitably by their schools.
    Under OCR's interpretation of title IX, its implementing 
regulations, and case law as reflected in its guidance documents and 
enforcement actions, both parties must have equal opportunity to 
present relevant witnesses and other evidence and to otherwise 
participate in the process and must be afforded similar and timely 
access to any information that will be used at the hearing. 
Additionally, while OCR does not require schools to permit parties to 
have lawyers at any stage of the proceedings, if a school chooses to 
allow the parties to have their lawyers participate in the proceedings, 
it must do so equally for both parties. This interpretation is based on 
statute and regulation.
    Specifically with regard to Harvard Law School (HLS), I would note 
that the faculty op-ed criticizing the existing HLS sexual violence 
policy was published before the conclusion of OCR's investigation, 
which later concluded that the HLS policy violated title IX and its 
regulations.

    Question 7. The Administration has talked at length about the 
importance of early childhood education. Can you tell us how you will 
work with Congress to assess the benefits of current Federal pre-K 
efforts and reduce unnecessary paperwork or bureaucracy, rather than 
continuing to call for a new Federal pre-K program?
    Answer 7. We appreciate your leadership in helping to authorize, 
and continue, the Preschool Development Grant program as a part of 
ESSA, which began as an opportunity for States to develop or accelerate 
their work to provide high-quality, state-funded preschool to children 
from low- and moderate-income families. We will continue to work 
closely with Congress and other agencies to assess the benefits of 
early childhood education and ensure efficient and high-quality early 
learning programs to meet the need of families, children and States. We 
have invested in research through our Institute of Education Sciences, 
and in partnership with HHS and private sector partners, through the 
National Academies of Science, to identify evidence-based strategies 
that support children's learning and development. In addition, we 
continue to work more collaboratively than ever with our partners at 
the Department of Health and Human Service in jointly administering the 
Race to the Top-Early Learning Challenge and Preschool Development 
Grants. We have also established an Interagency Policy Board to 
coordinate and align Federal early learning programs and policies, and 
to avoid redundancy. As the two largest providers of Federal early 
learning services we will continue to work together and with Congress 
to continue identifying best practices in early childhood development 
and help ensure the needs of our youngest children are met efficiently.

    Question 8. I appreciate your willingness to review the Task Force 
on Federal Regulation of Higher Education's report ``Recalibrating 
Regulation of Colleges and Universities.'' The report identifies 
several provisions and regulations that the Department of Education can 
change or modify on its own, without congressional action. Some of 
these provisions include changing the Return to Title IV regulations 
and updates to the financial responsibility standards. Are there 
specific items or initiatives in the report that the Department of 
Education will undertake to enact smarter and less burdensome 
requirements on our 6,000 colleges and universities?
    Answer 8. The Administration has already taken steps that are 
included in the task force report aimed at reducing administrative 
burden at colleges and universities while maintaining the integrity of 
the student financial aid programs. In September, President Obama 
announced that beginning with the 2017-18 award year students and 
families will be able to access and submit the Free Application for 
Federal Student Aid 3 months earlier, beginning October 2016. In 
addition, applicants will submit ``prior-prior'' income information, 
meaning that 2015 income information, already available in October 
through the data retrieval tool, will be used to inform aid decisions 
for the 2017 award year. Both of these changes will streamline the 
student aid process and provide families with an earlier picture of 
their aid eligibility more consistent with the timeline for applying 
for college and it will also significantly reduce the verification 
burden for colleges and universities as called for by the task force.
    In addition, we have taken administrative steps to improve the 
Federal financial aid process. Today, more than 99 percent of FAFSAs 
are submitted online. On average, students complete the online FAFSA in 
approximately 20 minutes, one third of the time it took 7 years ago. 
Moreover, last year over 6 million students and parents used the IRS 
Data Retrieval Tool (DRT), which allows students and parents to access 
and automatically transfer their IRS tax return information into the 
FAFSA. Despite these improvements we agree more can be done to make it 
easier to apply for college. That is why the fiscal year 2017 budget 
called for the elimination of up to 30 questions related to savings, 
investments, and net worth, since these have very little impact in 
determining aid awards, as well as untaxed income and exclusions from 
income data that are not reported to the IRS. When coupled with the 
steps the Administration has taken to simplify and streamline the FAFSA 
process, these policy changes greatly reduce institutional verification 
burden as called for by the task force. We look forward to continuing 
to work with Congress on how best to address these issues.

    Question 9a. In the Inspector General (IG) Fiscal Year 2015 Federal 
Information Security Modernization Act (FISMA) Report, the IG conducted 
a cybersecurity vulnerability audit in which it was able to penetrate 
one of the Department's networks and move throughout the system 
undetected. The IG concluded: ``We determined that the Department's 
overall incident response and reporting program was not generally 
effective because we identified key weaknesses in it detection and 
prevention of system penetration.'' The Department's inability to 
detect an outside actor as it moved throughout the system raises 
concerns that the Department has already been breached and is unaware 
of the compromise to it systems. If confirmed, will you commit to 
promptly conducting a full scan of all of the Department's systems to 
determine whether outside actors have infiltrated the system 
undetected? Additionally, will you commit to repeating such scans at 
regular intervals?

    Answer 9a. The Department has taken a number of proactive steps to 
manage cybersecurity risk factors, and regular scanning and testing is 
an important part of those efforts. Among other things, the Department 
has sought technical assistance and information about best practices 
from across the Federal Government, including components of the 
Department of Homeland Security. We are committed to aggressively 
implementing best practices in order to proactively identify and 
remediate any weaknesses in our systems and continually address 
evolving cyber risk factors.

    Question 9b. What steps is the Department taking to improve its 
incident response and reporting program?
    Answer 9b. I have directed my team to further strengthen our 
incident response capabilities in the coming year by reviewing and 
implementing best practices and lessons learned from public and 
commercial experiences with incident response. These steps will improve 
our preparedness and the efficiency and effectiveness of our processes 
in order to be ready to respond, if necessary. For example, the 
Department is implementing new and additional incident response 
capabilities and resources to detect the types of malicious attacks 
identified during the audit through funding included in the fiscal year 
2016 budget. The Department is also taking additional steps to ensure 
and validate that all intrusion detection/prevention systems supporting 
the Department's networks are properly configured and monitored. 
Additionally, we are conducting a review of the EDUCATE and VDC network 
security architectures in order to identify and implement plans to 
rapidly address any gaps.

    Question 10. If confirmed, do you expect schools and universities 
to comply with every word of title IX guidance? Please answer yes or 
no. If no, please explain what is required by the guidance and what is 
not.

    Answer 10. We clearly state in guidance documents when the statute 
or regulations require specific action, and also provide best practices 
which do not require compliance. Guidance, by itself, is non-binding. 
The guidance issued by OCR contains both OCR's interpretations of what 
title IX and its implementing regulations and case law require and some 
non-exclusive ways for schools to meet those requirements.
    The Department does not expect schools and universities to comply 
with every word of the Office for Civil Rights' (OCR's) 2011 Title IX 
Dear Colleague Letter regarding sexual violence, or its 2014 Title IX 
Frequently Asked Questions (FAQs) regarding sexual violence. For 
example, OCR's 2014 FAQs regarding sexual violence discourages student 
participation in conduct review boards in cases involving allegations 
of sexual violence. But in two recent examples, OCR issued letters 
resolving investigations at two universities (University of Virginia 
and Michigan State University) that described their violation of title 
IX and how they would be resolved; neither letter identified student 
participation as a title IX violation and both institutions continue to 
include students on those boards.

    Question 11. Does the Office for Civil rights require schools and 
universities to use a preponderance of evidence standard when deciding 
whether an allegation of sexual assault occurred?
    Answer 11. Title IX and its implementing regulations include the 
requirement that educational institutions adopt ``grievance procedures 
providing for prompt and equitable resolution'' of complaints, 34 CFR  
106.8(b)--OCR's use of the ``preponderance of the evidence'' standard, 
as explained in its 2011 Dear Colleague Letter, is based on these 
statutory and regulatory requirements, and is based on case law.

    Question 12. If confirmed, Section 8549 of the Every Student 
Succeeds Act requires that you develop procedures to review guidance 
and allow the public to request guidance be modified or rescinded. Have 
you started that process? If not, when will you begin to work on it?
    Answer 12. This is the beginning of an important and long-term 
process and we want to make sure we are supporting States as they 
transition to the new law. For new or revised guidance, the Department 
continues to use its processes for approving guidance documents 
internally, and to use executive office clearance processes for 
obtaining White House clearance. A list of significant guidance 
documents is available http://www2.ed.gov/policy/gen/guid/significant-
guidance.html, and will continue to be updated. This list provides the 
date in which the guidance was last issued or revised, and includes 
instructions by which the public can submit comment on any of the 
significant guidance documents. For Department guidance that will need 
to be rescinded as a result of ESSA, the Department will implement the 
processes outlined in the Office of Management and Budget, Executive 
Office of the President ``Agency Good Guidance Practices,'' which 
outlines policies and procedures for the development, issuance, and use 
of significant guidance documents by executive branch departments and 
agencies.

    Question 13. I have concerns when Federal agencies attempt to 
institute new policies and rules under the guise of interpretative 
guidance, and in the Department of Education's case, using Dear 
Colleague letters to set new requirements instead of using the 
rulemaking process. In a recent Dear Colleague Letter (DCL GEN 15-14), 
the Department asserts its intent is to ``reState and clarify the rules 
. . .'' regarding guaranty agencies. However, the existing regulations, 
which have been followed for years by guaranty agencies (and for which 
the Department has conducted audits and oversight), were implemented 
and were never challenged by the Department until now. After the 
issuance of this new six-page Dear Colleague Letter, the Department 
attempted to add this very issue to the current negotiated rulemaking 
process regarding borrower defenses in order to, as stated in the 
corresponding issue paper on the proposed regulation, ``codif[y] the 
explanation of regulations provided in Dear Colleague Letter GEN-15-14 
. . .'' Given that the Department wanted to codify the Dear Colleague 
letter, it appears that DCL GEN 15-14 is not simply restating a long-
standing rule. While the issue has been removed from the discussion at 
the ongoing negotiated rulemaking, it is still pending in the courts--
an unfortunate result of the Department not following the proper 
regulatory process.
    Will you retract DCL GEN 15-14 and instead follow the rulemaking 
process? Will you assure this committee that in the future new rules 
and policies will be promulgated through the rulemaking process?
    Answer 13. The Department utilizes Dear Colleague Letters (DCLs) to 
provide clarification to the field on how the Department interprets our 
regulations. We believe this helps institutions keep within the law and 
regulations, and DCLs are often issued in response to questions in the 
field about the implementation of our regulations. The DCL you 
reference was issued by the Department to explain the history of the 
rules governing the imposition of collection costs on borrowers who 
enter into repayment agreements (including a rehabilitation agreement) 
within 60 days of a default. As discussed in that letter and in the 
decision of the United States Court of Appeals for the Seventh Circuit 
in Bible v. United Student Aid Funds, the conclusion that a guaranty 
agency cannot charge collection costs to a borrower who enters into a 
repayment agreement within 60 days of default is based on regulations 
issued by the Department in 1992, which were based in part on earlier 
regulations governing tax refund offset procedures issued in 1986. As 
we also noted in the DCL, it is the Department's experience that few 
borrowers enter into a repayment agreement within the initial 60 day 
period. Therefore, the Department's past reviews of guaranty agencies 
did not focus on that particular issue. However, as noted in the letter 
and in the Court's decision, the Department explained the prohibition 
on charging collection costs to these borrowers when the issue arose. 
In light of the claims made by United Student Aid Funds in the Bible 
case (which were ultimately rejected by the court), we offered to make 
our long-standing and established interpretation of the regulations 
even more clear under the negotiated rulemaking process.

    Question 14. As the committee approaches reauthorizing the Higher 
Education Act, an organization has raised concerns over student safety 
abroad. One of their concerns is that students who attend study abroad 
programs and families of these students are unaware of safety hazards, 
such as dangerous landscapes, harsh weather, diseases or crime, in the 
country or region where they plan to travel. Please update the 
committee on the following:

    (1) Steps the Department has taken to disseminate safety 
information about study abroad locations to institutions of higher 
education, students or families; and,
    (2) Efforts the Department has taken to coordinate with the 
Department of State on disseminating information to institutions of 
higher education, students and families about safety concerns in 
foreign countries or about access to Department of State traveler 
resources.
    Answer 14. The Department of Education's International & Foreign 
Language office (IFLE) continues to disseminate information to its 
listserv and through social media about general study abroad safety. 
The IFLE office continues to require all grantee travelers to register 
with the Department of State's Smart Traveler Enrollment Program (STEP) 
for up to date information on country-related risks. IFLE has posted a 
page on Travel Abroad Safety and Health on its Web site at: http://
www2.ed.gov/about/offices/list/ope/iegps/travel-safety.html and 
referred the public to study abroad safety resources readily available 
online through its social media outlets. The IFLE team is also planning 
a webinar in the spring of 2016 on the subject of study abroad safety. 
IFLE communicates clearly that all Fulbright-Hays participants are 
required to have health insurance that must be valid in the host 
country. The participant's insurance must include emergency evacuation 
coverage. Students who use their title VI funded Foreign Language & 
Area Studies (FLAS) fellowships to study overseas are informed about 
STEP, and IFLE allows students to use the institutional payment portion 
of the fellowship to purchase health insurance.
    The IFLE team coordinates regularly with the Department of State's 
Bureau of Education & Cultural Affairs on issues related to student 
safety abroad. The IFLE team continually assesses the advisability of 
supporting programs in specific nations based on the Department of 
State's safety assessment. The IFLE team also regularly meets with the 
Fulbright Foreign Scholarship Board, which jointly oversees Fulbright 
and Fulbright-Hays programs at the Departments of State and Education, 
respectively to discuss a number of issues related to the programs, 
including safety. Upon notification of a high-risk assessment from the 
Department of State, IFLE staff quickly communicates with staff at 
pertinent institutions of higher education as well as with State 
Department posts or Fulbright Commissions in country to ensure an 
adequate response to protect the health and safety of students and 
faculty in that country, including, when necessary, authorizing 
immediate withdrawal and return to the United States.
                              senator enzi
    Question 1. At a February 2, 2016 hearing before the House 
Committee on Oversight and Government Reform, you testified about rapid 
improvements in the wake of the Department's negative performance in 
OMB's evaluation of cybersecurity programs. That is good progress, but 
it is just a first step.
    Even if the Department is finally coming into compliance with the 
cybersecurity audits it faces from the IG, the Department must 
recognize that cybersecurity cannot solely be compliance based. The 
Department must have a strong cybersecurity posture that can adapt and 
respond to the evolving threat actors who seek to use its 139 million 
student records for nefarious purposes. What steps will you take to 
adopt a proactive cybersecurity posture?
    Answer 1. I agree that the Department has made meaningful progress 
on cybersecurity in the past year, but the work of addressing 
cybersecurity is never done, and I have made the continued 
strengthening of cybersecurity a top management priority for the next 
year. There are a number of areas I have identified for additional 
improvements and I have directed my team to immediately undertake 
additional actions to address those.
    First, the team is continuing to work aggressively to accelerate 
implementation of two-factor authentication for the remaining 
privileged users in order to achieve 100 percent compliance as 
projected during March 2016. Additional steps include continuing to use 
a focused and disciplined approach to systemically resolving--and 
addressing the root causes behind--any cybersecurity related findings 
from both our 2015 FISMA Audit and the 2015 Financial Statement Audit. 
Beyond those compliance measures, I have also directed the team to take 
additional proactive steps to strengthen the cybersecurity of our 
networks, increase end user cybersecurity awareness, support and expand 
further the cybersecurity capacity of our third party partners at 
guaranty agencies and institutions of higher education, grow our 
incident response capabilities, and continue to build the capacity of 
our internal team through hiring of additional professionals with 
expertise on these issues who can assist us in implementing best 
practices to improve the Department's cybersecurity program.

    Question 2. During your time as Commissioner of Education in New 
York, you faced significant backlash from virtually all parties with 
regard to your effort to facilitate the implementation of inBloom. The 
purpose of inBloom was to amass an extraordinary amount of student data 
with the intent of sharing it with private software developers to 
create personalized educational products. This effort was finally 
stopped by an act of the New York State Legislature.
    What did you learn from that lesson with regard to the sensitivity 
of student data and how it belongs to the students and their parents or 
guardians until their consent is explicitly provided?
    Answer 2. While data can be incredibly transformative and 
empowering, student privacy must be prioritized. Data is critical to 
teachers and it allows them to support students, differentiate 
instruction and make real time decisions to help students to succeed. 
Analyzing and acting upon data in smart ways can transform teaching and 
learning and help students, empower parents and inform school leaders 
in order to enable targeted deployment of scarce resources. Using data 
in a smart way is also an essential to expanding equity--data can help 
teachers identify, understand, and address gaps they might not have 
otherwise recognized.
    While we work to harness the power of data to promote access to an 
excellent education for all, we must also be as diligent about student 
privacy as we are about the need to use student data. States and 
districts must adopt best practices to protect student privacy and 
learn from each other as we all move forward to improve outcomes for 
all students. The Department plays an essential role in protecting the 
personal information of our students by ensuring the proper access to 
and use of student data through its administration and enforcement of 
the Family Educational Rights and Privacy Act (FERPA) and the 
Protection of Pupil Rights Amendment (PPRA). In order to stay ahead of 
the growing number of complex student privacy issues, the Department is 
committing additional resources to our student privacy operations in 
order to enhance our ability to administer and enforce these laws, and 
to promote privacy best practices.
                           senator murkowski
    Question 1. What is your vision for the Department of Education?
    Answer 1. I believe education can be the difference between hope 
and despair--between life and death, even--because it was for me. 
Amidst the trauma and uncertainty in my life after my parents passed 
away, school was a refuge. Teachers saved my life. It was, in large 
part, because of them that I became a teacher myself. But there are too 
many children from backgrounds like mine who deserve the same chance. I 
want school for them to be what it was for me. And I believe every 
American, regardless of background, deserves the world class education 
that it will take to succeed in today's economy.
    I have laid out three priorities for the Department for the 
remainder of the year.
    First, we must support States, districts, and educators in their 
work to advance educational equity and excellence for every child. 
Through implementation of the Every Student Succeeds Act, the 
Department will continue to play its critical role in ensuring 
guardrails to protect students' civil rights. At the same time, we will 
support State and local efforts to seize the new opportunity to 
establish better, more balanced ways of assessing student learning and 
to reclaim the goal of a well-rounded education for all students. In 
addition to implementing the new law, the Department will continue to 
use our policy tools and our ``bully pulpit'' to keep the national 
focus on a first-rate education for every child--including supporting 
State and local efforts to expand access to high-quality preschool and 
computer science.
    Second, we must lift up the teaching profession, and find more ways 
to celebrate, support, and sustain our Nation's educators. We all know 
from research and from personal experience the importance of great 
teaching. The start of a new era also brings with it an opening for a 
much-needed reset in the national dialog. Over the last few years, 
education policy discussions have too often been characterized by more 
heat than light--especially where educators are concerned. Despite the 
best of intentions, teachers and principals, at times, have felt 
attacked and unfairly blamed. All of us--at the local, State, and 
Federal level--have to take responsibility for the climate that exists. 
And all of us must do whatever we can to change it.
    Finally, we know that in today's skills-based economy, education 
beyond a high school diploma is more important than ever before. We 
must continue to work together to ensure that every student has the 
opportunity to obtain the post-secondary education needed to gain the 
knowledge to succeed--whether in the form of a 2-year or 4-year college 
degree, or an industry credential and direct pathway to a well-paying 
job. The Department will continue to focus on advancing access, 
affordability, and completion in higher education--including protecting 
students and taxpayers by cracking down on fraud and abuse by bad 
actors and supporting student loan borrowers to manage their loan 
repayment.

    Question 2. Your written testimony was not very specific about how 
you plan to lead the Department to implement the Every Student Succeeds 
Act. What do you feel the role of the Department is in K-12 education 
going forward?
    Answer 2. The passage of the Every Student Succeeds Act (ESSA) is a 
major accomplishment and builds on existing efforts to expand 
educational excellence and equity in partnership with States, 
districts, communities, and educators. ESSA presents us with a moment 
of both opportunity and moral responsibility.
    ESSA advances equity by upholding critical protections and 
maintaining dedicated resources for America's most disadvantaged 
students. Importantly, the law maintains expectations that action will 
be taken to improve opportunities for students in schools that 
chronically underperform, that do not improve low graduation rates, and 
that do not ensure progress for all student groups.
    The new law also embodies much of what the Obama administration has 
supported over the last 7 years. For the first time, ESSA enshrines in 
law high, state-chosen learning standards so that all students are 
prepared for college and careers. The law supports local innovation and 
builds on this Administration's historic investments in quality 
preschool. It requires that information on student progress is shared 
through annual, statewide assessments. And it supports State efforts to 
audit and streamline assessments so that all State and local tests are 
high quality and worth taking.
    Importantly, ESSA builds on work already underway to raise 
expectations for students and establish locally tailored systems for 
school improvement in States. The law rightly shifts responsibility for 
developing strategies to support the highest-need students and schools 
to State and local decisionmakers--and away from the one-size-fits-all 
mandates of No Child Left behind. And it creates opportunities for 
States to reclaim the goal of a rigorous, well-rounded education for 
every child. The Department of Education will work to be a good partner 
to States, districts, and educators as they take on this critical work.
    Education is, and should remain, primarily a State and local 
responsibility. ESSA is a big and complex law with new provisions 
related to data reporting, accountability, support systems, programs, 
and authorities. What we plan to do at the Federal level is to support 
States and districts to improve opportunity for students, invest in 
local innovation, research and scale what works, ensure transparency, 
and protect our students' civil rights by providing guardrails to 
ensure educational opportunity for all children. I, and all my 
colleagues at the Department, take these responsibilities very 
seriously.
    Ultimately, we all want quality implementation of the law that 
supports States, districts, and schools in helping every student to 
succeed.
    ESSA implementation will require an incredible amount of work. The 
Department has heard from stakeholders across the country about where 
guidance or technical assistance is most needed. We've sought input on 
areas in need of regulation, received hundreds of comments via our 
notice in the Federal Register, and held public meetings.
    We're still early in the process, but there's urgency in the work. 
To support States, districts, and educators the Department will engage 
in negotiated rulemaking on assessments and the law's requirement that 
Federal funds be used to supplement, not supplant local and State 
investments in education. Sessions will begin in late March and will be 
open to the public.
    As we continue to meet with stakeholders and determine regulations 
and guidance requiring updates, we look forward to a robust discussion 
on the new law.

    Question 3. The Department of Education has been severely 
criticized by the Inspector General for not sufficiently protecting the 
139 million Social Security numbers of Federal student aid borrowers. 
The IG successfully hacked the Department's computer network in a 2015 
audit and concluded that the Department's ability to protect that 
private data is not effective. Please list the actions that you, as 
Acting Secretary, are taking right now to bring the Department's 
cybersecurity grade from a ``D'' to an ``A'' over the next year.
    Answer 3. I take the Department's responsibility for safeguarding 
sensitive data extremely seriously. While I believe that the Department 
has made meaningful progress on cybersecurity in the past year, the 
work of addressing cybersecurity is never done, and I have made clear 
to my team that we must do better, and continue to do better. That is 
why I have made the continued strengthening of cybersecurity a top 
management priority for the next year. There are a number of areas I 
have identified for additional improvements and I have directed my team 
to immediately undertake additional actions to address those, 
including: completing implementation of two factor authentication at 
the single external vendor by the end of March 2016, systematically 
resolving and addressing identified root causes for all cybersecurity 
related audit findings, strengthening the cybersecurity of our 
networks, as well as the networks of our third party partners at 
guaranty agencies and institutions of higher education, increasing end 
user cybersecurity awareness, growing our incident response 
capabilities, and building the capacity of our internal team through 
additional hiring of expert professionals.

    Question 4. The Every Student Succeeds Act includes two provisions 
that I worked on with my colleagues on this committee as well as 
Senator Boxer and others across the Senate. The first is the 
reauthorization of the 21st Century Community Learning Centers program, 
which supports afterschool programs. We negotiated a provision within 
the 21stC program to allow certain high-quality extended learning 
programs to use 21stC funds for 21stC activities only, and not for the 
general costs of implementing an extended school day or year program. 
Will you commit that the Department will abide by this statutory 
limitation as you develop regulations and guidance under ESSA and as 
you solicit applications for 21stC funds?
    Answer 4. The Department recognizes the important purpose of the 
21st Century Community Learning Centers program to support before- and 
after-school programs, and we will abide by ESSA's requirements for the 
21st Century program, in accordance with the statute.
    Under ESSA, States may use funding to support 21st Century 
activities that are included as part of an expanded learning program 
that provide students at least 300 additional program hours before, 
during, or after the traditional school day. ESSA provides priorities 
for the use of funds that focus on providing services to students who 
attend schools that are implementing comprehensive support and 
improvement activities, along with several other priorities. These 
funds may not supplant school day requirements.

    Question 5. The second ESSA provision that I would like to ask you 
about is one that Senator Franken and I worked on--the authorization of 
funds from Indian Education National Activities to support Native 
language immersion programs and schools. The purpose of authorizing 
this support is to assist American Indian and Alaska Native communities 
throughout the Nation to revitalize their languages, which are so 
closely tied to their cultures and their children's future. Native 
communities are anxious for these funds to become available. When can 
these communities expect to see the first request for applications for 
these funds? How do you anticipate implementing this provision to 
ensure that schools and programs in all regions of the country, serving 
the maximum variety of languages, are able to benefit from this 
support?
    Answer 5. Over the last 7 years, Indian students and communities 
have made progress in reinvigorating efforts to preserve and restore 
Native languages and culture; increasing tribal capacity to influence 
and control educational decisions for Native students; and raising 
awareness about school climate issues that are unique to Indian 
students and communities. The Native language immersion schools and 
programs provisions are an important continuation of this work.
    The administration has begun and will continue to engage tribal 
communities and other interested stakeholders through the summer of 
2016 in order to establish priorities and ensure timely implementation 
of the new provisions and programs authorized in ESSA. We thank you for 
your leadership on Native language immersion issues and will remain in 
close contact with your office as we consider implementation of this, 
and other provisions, within the new Title VI of ESSA.

    Question 6. The committee's staff have been informed of the ten 
investigations the Department's Office of Inspector General has 
conducted between 2012 and 2015 involving senior officials. In one case 
that occurred in 2012--before you arrived at the Department--a GS-15 
employee sexually harassed three contract employees who were under his 
operational control. While the Department of Justice declined the 
matter for prosecution, the Department of Education suspended the 
employee for 12 days. The Department's Office of Civil Rights works to 
ensure that college students who have been harassed or abused are 
protected under their title IX rights, which includes being protected 
from having to study or live in proximity to their abusers. Are the 
Department's employees afforded the same protection? Was the GS-15 
employee removed from proximity to his victims? If not, will you direct 
that such protections are afforded to all employees in the future?
    Answer 6. In 2011, the Department's Office of the Inspector General 
(OIG) forwarded information to the U.S. Department of Education's 
Office of Management (OM) concerning allegations of sexual harassment 
by an ED employee against three contract employees who were under the 
operational control of the ED employee. Immediately upon notification 
of the allegations, OM removed the ED employee from operational control 
and proximity over the office where the three employees worked. OM 
reviewed the information provided by OIG and concluded that the 
information supported a finding that the ED employee made inappropriate 
comments to the three contract employees. Based on OM's findings and 
conclusion, OM, following ED's disciplinary procedures, issued a 12-day 
suspension for ``inappropriate behavior.'' We take very seriously our 
responsibility to help ensure a safe working environment for our 
employees and contractors.

    Question 7. How will you ensure that local communities and States 
will be empowered in the new regulations pertaining to ESSA?
    Answer 7. Education is, and should remain, primarily a State and 
local responsibility and the Department is committed to supporting 
States and local school districts in that responsibility. Importantly, 
ESSA empowers State and local decisionmakers to develop their own 
strategies for supporting the students and schools most in need based 
on evidence, rather than imposing the one-size-fits all approach of No 
Child Left Behind (NCLB). By providing States and districts with more 
flexibility to innovate and implement locally driven reform, ESSA moves 
beyond NCLB in a way that will drive stronger outcomes for all kids.
    In considering whether to regulate, we are working to identify 
areas in which regulations would clarify the law or ensure effective 
implementation of the law.
    This is a big and complex law, with a lot of new pieces and new 
opportunities for States, districts and their students. As I have 
mentioned, this is the beginning of a long process and we want to make 
sure we are supporting States and districts as they transition from 
NCLB to ESSA. This includes the Department gathering input to determine 
our regulatory plans under the ESSA, so I cannot speak to specific 
regulatory provisions here. However, I can say that we are very pleased 
to have received written and oral comments from hundreds, including 
those representing local school districts and States. Further, during 
our upcoming negotiated rulemaking sessions, we will be seating 
negotiators representing both State and local interests, among other 
constituencies. Additionally, during the rulemaking process, the 
public, including local State and district stakeholders, will have an 
opportunity to comment on specific proposed rules before they are 
final.

    Question 8. In your new role as the Secretary of Education, will 
you still be supportive of Boards of Cooperative Educational Services, 
which provide shared educational programs and services to school 
districts and States, and consider policy decisions that support 
sustaining and even growing their role?
    Answer 8. As Chief State School Officer in NY, I recognized how 
vital Boards of Cooperative Educational Services (BOCES) can be in 
building local capacity, supporting implementation, sharing promising 
practices, and sustaining the work over time. They were an asset to 
both my team at the State level as well as local districts and 
educators in the communication, execution, and continuous improvement 
of our work. This was particularly true for smaller and mid-size LEAs. 
By leveraging the additional resources, expertise and capacity of the 
BOCES and through collaboration they were able to make notable 
progress.
    Given my personal experience, I respect the right of a State to 
establish entities such as the BOCES to provide shared educational 
services and recognize that they often can help implement Federal 
education programs. It is a State decision, however, whether to 
establish these entities.
                             senator scott
    Question 1. When we spoke in my office on 2/24/16, you said that 
the Administration would prefer to support DC public schools rather 
than the voucher program. You also said that the Administration is 
holding onto the $35 million in excess carry over funds to preserve 
scholarships for the children currently in the program. You also 
justified this position by saying that the Department must hold onto 
the carryover funds in the case that Congress does not make 
appropriations for DC OSP in future years. As I'm sure you know, the 
SOAR Act ties together funding for all three approaches to DC K-12 
education: DC Public Schools, Charter Schools, and DC OSP. In fact, as 
part of this approach, DC public schools have received more resources 
than DCOSP since 2004. Therefore, under the SOAR Act, if Congress does 
not appropriate funds for the DC OSP, then they do not appropriate 
funds for DC Public Schools either. This being the case, why has the 
Department chosen to withhold administrative funds from the DCOSP, but 
not DC Public Schools or DC Charter Schools?
    Answer 1. The Department is pleased that students in Washington, DC 
are making tremendous progress. High school graduation rates are 
improving, and according to last year's National Assessment of 
Educational Progress (NAEP), fourth grade reading achievement in 
Washington, DC improved more than any other State since the creation of 
the NAEP assessment. In addition, charter schools in Washington, DC are 
producing significant gains in students' learning, especially for 
students from low-income homes. This progress is the result of 
hardworking students, families and educators, and has been supported in 
part by investments from our Department, including through the SOAR 
Act. As you noted, the SOAR Act's programs are tripartite, and these 
funding streams serve different functions. Whereas the awards for 
charter schools support startup costs for new public schools, and 
investments in DCPS largely incentivize excellent educators, under the 
SOAR Act, the DC OSP funds are awarded to a grantee that awards 
scholarships to eligible students seeking to attend private schools. 
The SOAR Act limits the amount of appropriated funds for administrative 
purposes. The Department routinely approves the grantee's request for 
the maximum amount of administrative funds permitted. Also, the 
Department maintains reserves to ensure that scholarships continue for 
students currently enrolled in private schools through the DC OSP with 
minimal disruption to their education.

    Question 2. The SOAR Act provides only 2 simple criteria for 
eligibility for a scholarship: That the student is low income, and that 
she is a DC resident. However, the department is actively blocking 
other categories of students from receiving scholarships. This includes 
students who were previously enrolled in private schools, students 
previously assigned to control groups, and students not using a 
scholarship for 2 years or more. If a student loses access to the 
resources that support their private school education--a common 
scenario--under your rules that student does not qualify for a 
scholarship. Do you have a reason for why the Department is excluding 
these children, and will you commit to returning these eligibility 
requirements according to the standard made clear in the SOAR Act?
    Answer 2. The Department is committed to ensuring that all students 
can earn an excellent education. In implementing the SOAR Act, the 
Department considers the current and future needs of all DC OSP 
scholarship students and families in the context of the statute. All 
applications received by the DC OSP grantee, including applications 
from students who attended private school during the previous year and 
are eligible under the SOAR Act, are reviewed by the grantee to 
determine whether they meet the definition of ``Eligible Student,'' in 
accordance with the law. Furthermore, the SOAR Act prioritizes the 
awarding of scholarships to students who were previously enrolled in a 
public school identified for improvement, corrective action or 
restructuring under the Elementary and Secondary Education Act. In 
executing the DC OSP lottery, the grantee incorporates these priorities 
while seeking to ensure a fair process for interested families. In 
addition, the SOAR Act requires that the Department ``target resources 
to students and families that lack the financial resources to take 
advantage of available educational options; and . . . provide students 
and families with the widest range of educational options.'' Consistent 
with the past several years, the Department implements these 
requirements by giving priority to students who attended public schools 
in the previous school year over students who attended private school 
in the previous school year. In addition, this year, the grantee may 
award scholarships to students previously enrolled in the control group 
who have a sibling currently receiving a DC OSP scholarship.

    Question 3. The Obama administration has consistently zeroed out 
funding for the DC OSP program in its annual budget request. Why does 
the Administration continue to zero out funding for a program that can 
boast a 90 percent graduation rate?
    Answer 3. The Administration is committed to ensuring that there is 
sufficient funding under the DC OSP to provide for the continuity of 
education for students currently enrolled in the program. Sufficient 
funds to accomplish that goal are retained in the Department's DC OSP 
account, and therefore no new funds are required to accomplish that 
goal.
    The Department has focused its budget authority on ensuring equity 
and excellence across K-12 public schools.

    Question 4. Dr. King, in ESSA, Congress solidified support for 
charter schools by streamlining existing programs providing 
accountability measures, and supporting resources to replicate and 
expand high-quality charter schools. Will you commit to following 
congressional intent, and implementing the charter school provisions of 
ESSA so that we may expand and sustain high-quality charter schools?
    Answer 4. As the founder of a public charter school, and one of the 
top performing middle schools in Massachusetts, I know that charter 
schools can transform the lives of the students they serve. Over the 
last 7 years, the Department has helped to accelerate both the growth 
and the improvement of charter schools throughout the Nation. In fact, 
over 40 percent of public charter schools operating in SY13-14 received 
funding through the Department's Charter Schools Programs (CSP) between 
SY06-07 and SY13-14. We are pleased that as the charter school sector 
has grown, charter school performance also has improved, as validated 
by independent researchers. In the year ahead, the Department will 
continue working closely with our partners under the guidelines of ESSA 
to support the creation, replication and expansion of high-quality 
charter schools.

    Question 5. Could you please clarify how States should treat the 95 
percent testing requirements in light of the opt-out provision in ESSA 
and provide an estimated timeframe for when we can expect the 
Department to issue regulations in that regard? What will be the impact 
on States if they are unable to meet the 95 percent requirements due to 
high levels of parental opt-out?
    Answer 5. ESSA maintained the longstanding ESEA requirement that 
States assess all students in mathematics and reading/language arts 
annually in grades 3-8, and at least once in high school, and in 
science in each of three grade spans. A high-quality annual statewide 
assessment system that includes all students is important so that local 
leaders, educators, and parents can have the information they need to 
help every student succeed and ensure equity by holding all students to 
the same high expectations. The Department is still in the process of 
gathering input on what regulations to promulgate and guidance to 
issue, and at this point I cannot estimate a timeframe by which 
potential regulation or guidance documents would be ready.
    We also recognize and share concerns about the amount of time 
students are spending on standardized testing in some places. That's 
why the President has put in place a Testing Action Plan to improve 
assessment systems and eliminate unnecessary or low-quality 
assessments. The Department has taken significant steps forward in 
implementing that plan and will continue to do so.
                             senator hatch
    Question 1. I was heartened that Secretary Duncan abandoned trying 
to calculate a ``rating'' for each our 6,000 colleges and universities 
and instead put out the College Scorecard with discreet statistics, so 
students and families can determine which data points are important for 
them.
    But, I was disappointed to learn that the Department kept no 
records of how the student borrowing and repayment calculations were 
made.
    Recently, my staff recently submitted a request with the Department 
asking for technical assistance in order to model the effects of 
Senator Shaheen's and my Student Protection and Success Act, which 
depends on student loan repayment rates. As the College Scorecard 
featured many years of repayment rates, I wished to use the variables 
that were part of the mathematic formula used to calculate these rates 
prominently featured by the Department's new transparency tool.
    However, my staff was informed that the Department did not keep any 
of the calculations or underlying variables used to calculate the 
College Scorecard repayment rates.
    It is highly unusual to publicize findings, especially ones that 
are used to compare institutions, without being able to reproduce your 
calculations or ``show your work'' as they say in mathematics classes.
    Can you explain the Department's reasoning behind this, and ways in 
which the Department may act in a more mathematically valid way in the 
future?
    Answer 1. My staff was pleased to provide your office with the 
information requested last month. After reviewing the initial request, 
we determined that the exact specifications of the request did not 
align with the backup data that were maintained for the Scorecard 
repayment rates. The request for balances at particular points in time 
could not be accomplished without generating concerns about the privacy 
of student-level data. Instead, in order to meet your request, we were 
able to provide a new data run that better matched the nature of the 
request from your office, and that protected the privacy of borrowers 
in the cohorts. As we continue to produce the College Scorecard, we 
will work to refine the calculations, as well as to evaluate ways to 
maintain other pieces of the underlying data.

    Question 2. I've been glad to see the Department move toward a more 
fair, unbiased system of contracting over the past year. To make sure 
this shift is continued, I would like to know what the Department is 
doing to cultivate good student loan serving in the upcoming rebidding 
process for student loan servicing contracts. Do your plans include 
allowing high-quality, smaller NFP servicers to bid. Will the 
Department ensure a fair, efficient and transparent process, with a 
level playing field for participation in that process?
    Answer 2. Student loan servicing is one of the Department's largest 
and most complex responsibilities, affecting nearly 30 million 
borrowers and having a portfolio over $1 trillion. Our first priority 
is ensuring that all student loan borrowers are afforded a high-quality 
customer experience as they work to responsibly manage their student 
loan debt. Accordingly, we have begun to look at future models of loan 
servicing and we are currently in the planning phase of a new student 
loan servicing acquisition; this effort will streamline and simplify 
servicing systems and processes to improve customer service, increase 
efficiency, and enhance the Department's ability to effectively oversee 
and monitor servicing operations.
    NFPs will have an opportunity to participate in the solicitation 
process, both as bidders and as members of teaming arrangements. In 
managing this undertaking we will work to ensure that borrowers receive 
the highest quality of service while protecting the interests of 
taxpayers.

    Question 3. The Department of Education has consistently tried, 
often with underwhelming results, to either incentivize or mandate 
equitable teacher distribution throughout States. As you know TEACH 
Grants and other tools have shown to not be effective at incentivizing 
teacher placement, nor can you require that States achieve equitable 
distribution. How do you plan to streamline the incentive process for 
individual teachers, and how do you plan to help States do the same?
    Answer 3. Ensuring equitable access to excellent educators for all 
students--particularly students from low-income families and students 
of color, continues to be one of ED's key priorities, and we seek to 
use the tools we have to support increased equity. For example, the 
Department recognizes that existing teacher financial assistance 
programs have proved insufficient to incentivize individuals to join 
and remain in the teaching profession. That is why the President's 
fiscal year 2017 budget proposes simplifying existing post-secondary 
assistance available to teachers by consolidating existing programs 
into a single, more generous loan forgiveness program. The new program 
would reward teachers in high-need schools with forgiveness up to 
$10,000, while those who graduated from effective teacher preparation 
programs, as determined by States, would be eligible to receive up to 
$25,000. This new program would also reward job retention by forgiving 
increasing shares of student loan balances over time.
    Another important effort is the new State Plans to Ensure Equitable 
Access to Excellent Educators that all 50 States submitted in 2015. The 
Department approved all plans, and continues to provide technical 
assistance to the States as they implement their plans. In their plans, 
States have proposed such strategies as making improvements to their 
teacher preparation programs to ensure teacher candidates are prepared 
for success in high-need, hard to staff schools; using data from 
shortage predictor models to drive policymaking; providing financial 
compensation for teachers working in hard to staff areas or subjects; 
and improving working conditions in hard to staff schools. The 
Department will continue to provide support as States implement and 
continuously improve their plans to help create incentives for teachers 
and achieve equitable distribution of teachers throughout their State.

    Question 4. Given the Department's own issues with cybersecurity 
and protecting data, how do you plan to ensure that you can provide 
adequate technical assistance to States and localities who are dealing 
with potential student privacy issues? As you know, the Department 
included third party providers as covered school officials in past 
FERPA regulations, without ensuring that these providers have adequate 
contracts in place to prohibit the use of personally identifiable 
student data for non-academic purposes. Please elaborate on how you 
plan to ensure all data is used for the correct purpose?
    The Department provides substantial technical assistance to 
schools, districts, and State education agencies around student 
privacy. Through staff and the Department's Privacy Technical 
Assistance Center we provide training, make site visits, and develop 
resources to help schools recognize and manage emerging privacy issues.
    With regard to contracting, schools and districts have outsourced 
institutional services or functions that can be better or more 
efficiently procured externally. The Department's 2008 amendments to 
the FERPA regulations recognized this longstanding practice, and 
provided guidance to schools and districts to ensure that they comply 
with FERPA when contracting. We issued important guidance in 2014 to 
assist schools when they contract for online educational resources, 
http://ptac.ed.gov/sites/default/files/
Student%20Privacy%20and%20Online%20Educational%20
Services%20%28February%202014%29.pdf. In recognition of the importance 
of FERPA compliance and privacy best practices, in 2016 we have 
committed additional resources to our student privacy operations, 
adding an additional 5 FTE so that we can streamline enforcement, 
provide guidance on emerging policy questions, and provide augmented 
technical assistance.
                            senator cassidy
    Question 1. As you know, there is a strong opt-out movement growing 
in the country with many parents refusing to allow their children to 
participate in State assessments. I believe that parents should have 
the right to make decisions about their children's education.
    While the new law does maintain the requirement for annual testing 
and that at least 95 percent of students participate in those tests, 
the law clearly gives the States the power to determine how 
participation rates will factor into their accountability systems and 
what consequences or interventions, no matter how minimal, there will 
be for schools that are not compliant. This is Congress' intent.
    Yet, on December 22, 2015, the Department sent a letter to Chief 
State School Officers reiterating to States the consequences for non-
compliance with the 95 percent participation rate requirement. The 
letter also makes suggestions on what sanctions States could impose on 
school districts and schools that are non-compliant--the new law 
prohibits the Department from telling States what those consequences 
should be.
    To me, by sending this letter, the Department is coercing States 
into pressuring their school districts and schools to pressure parents 
to take these tests. Parents should have a say over their child's 
education without threat.
    Given the current opt-out movement, how will the Department support 
rather than threaten to punish States?
    Answer 1. We have a responsibility to ensure that States comply 
with their obligations under the law.
    The ESSA continues the longstanding ESEA requirement that States 
assess all students in mathematics and reading/language arts annually 
in grades 3-8, and at least once in high school and in science in each 
of three grade spans. A high-quality annual statewide assessment system 
that includes all students is important so that local leaders, 
educators, and parents can have the information they need to help every 
student succeed and ensure equity by holding all students to the same 
high expectations.
    It is also important to note, however, that in too many schools, 
there is unnecessary testing and not enough clarity of purpose applied 
to the task of assessing students, consuming too much instructional 
time and creating undue stress for educators and students. The 
Department is working to support States and districts in addressing 
this problem by implementing the President's Testing Action Plan, which 
lays out principles for fewer and smarter assessments. We are providing 
financial support for States to develop better, less burdensome tests, 
seeking additional funding to help States review their assessments and 
develop better assessments, and recently issued guidance explaining how 
Federal funds can be used to support this work.

    Question 2. The new law continues the requirement that States 
annually assess all students in all schools in reading/English language 
arts, math, and science. And the law maintains that at least 95 percent 
of students must participate in such assessments. However, I have a 
concern that students with dyslexia who struggle with reading start at 
a disadvantage for the State reading assessments.
    Dyslexia is an unexpected difficulty in reading due to the 
difficulty in getting to the individual sounds of spoken language. 
Research shows that it is the most common learning disability effecting 
1 in 5 people.
    Knowing the prevalence of dyslexia and that a State's reading 
assessment may not be appropriate for dyslexic students, how will the 
Department take this into consideration as they develop their 
regulations?
    Answer 2. Assessments should be fair, including providing fair 
measures of student learning for students with disabilities--including 
students with dyslexia--and English learners. Accessibility features 
and accommodations must level the playing field so tests accurately 
reflect what students really know and can do. The Department is still 
in the process of gathering input on what regulations to promulgate and 
guidance to issue, and unfortunately at this point I cannot comment on 
the details of any potential regulations or guidance. However, I can 
assure you that we continue to listen carefully to advocates for 
students with disabilities of all types, parents, and educators in this 
process.
    Furthermore, using the $1.5 million provided in the fiscal year 
2016 Omnibus the Administration is supporting a new Comprehensive 
Center for students at risk of not attaining full literacy skills due 
to a disability. The Department is in the process of developing a 
priority to fund this new center and will compete and award the center 
in fiscal year 2016. This new center is only one of several ways in 
which the Department supports States, LEAs, and families of children 
with disabilities, including children with dyslexia. For example, as 
part of Office of Special Education Programs (OSEP's) Results Driven 
Accountability, which shifts the Department's focus from compliance to 
outcomes, OSEP is assisting 36 States with improving results for 
reading or literacy. In addition to $11.9 billion provided under the 
Grants to States program, OSEP has committed resources to assist States 
in improving results through discretionary grant programs under Part D 
of IDEA. Projects awarded under these programs help to improve outcomes 
for children with disabilities, including children with dyslexia, 
through technical assistance, training personnel, professional 
development, and model demonstrations.
    The ESSA provides an opportunity to secure educational equity for 
all students, including students with disabilities. Specifically, the 
new provisions helping to ensure educational opportunity, require 
States to: (1) develop assessments consistent with the principles of 
universal design for learning; (2) develop, disseminate information on, 
and provide for appropriate use of certain accommodations, such as 
interoperability with assistive technology; and (3) describe in the 
State Plan that general and special education teachers, and other 
appropriate staff, make appropriate use of accommodations for students 
with disabilities. These new requirements will help all students with 
disabilities, including those with Dyslexia.
    As the Department provides ongoing guidance and support to States, 
districts, and schools, we stand ready to provide technical assistance 
and support to ensure appropriate accommodations are available for 
students with disabilities. Additionally, our peer review of State 
assessment systems will continue, and it will ensure all students, 
including those with dyslexia, are appropriately assessed.

    Question 3a. As a parent of a dyslexic child, I want to ensure that 
students with dyslexia have the resources they need to succeed. What 
resources are available at the Department to help such students? If 
confirmed as Secretary, what will you do to help provide resources for 
students with dyslexia?
    Answer 3a. In July 2015 the congressional Dyslexia Caucus asked the 
Department to ``Affirm that there is no legal reason why the term 
`dyslexia' should not be used by a State or LEA when referring to the 
identification of and services for a student who does in fact have this 
specific Learning disability.'' In October 2015, the Department both 
issued a Dear Colleague Letter and also did a series of blogs and other 
social media activities to amplify the message that there is no legal 
reason to avoid the use of the terms dyslexia, dyscalculia and 
dysgraphia. The letter and activities were very well-received by the 
dyslexia community.
    Please see the response to your Question 2 for additional ways in 
which the Department provides resources for students with dyslexia.

    Question 3b. In addition, as part of ESSA is a new comprehensive 
center for students at risk of attaining full literacy due to a 
disability, including dyslexia. I look forward to the center's creation 
and hope that the Department awards the center to a highly qualified 
entity with demonstrated ability and experience in the specific 
research on dyslexia and knowledge of the use of evidence-based 
programs that have proven efficacy. If confirmed as Secretary, what 
will you do to ensure the center is implemented as intended?
    Answer 3b. We are in the process of drafting the grant application 
package (Priority) for the new comprehensive center for students at 
risk of attaining full literacy due to a disability, including 
dyslexia. The Priority is being drafted by literacy experts within the 
Department who have a strong research background in dyslexia and 
evidence-based literacy interventions. The Center will be competed 
through the Department's discretionary grant panel review process. The 
applicant with the strongest application will be awarded the grant. 
Literacy experts from the Department who have expertise in evidence-
based literacy interventions will serve as Project Officers for the new 
Center and will ensure that the Center is an efficient, effective and 
productive national literacy resource.

    Question 4. Dr. King, I know you are a supporter of public charter 
schools. As I mentioned in our meeting, my wife started a charter 
school in Baton Rouge to help students with dyslexia. If confirmed as 
Secretary, how will you continue to support the Charter Schools program 
to ensure it continues to expand so that more charter schools will 
open, and give parents and children a public educational choice?
    Answer 4. As the founder of a charter school, I know that high-
quality public charter schools can transform the lives of students, 
including students with disabilities. Over the last 7 years, the 
Department has accelerated the growth and improvement of these schools 
with promising results. Furthermore, in urban areas, special education 
students enrolled in high-quality public charter schools experience 
large gains in additional learning in math and reading according to 
independent evaluators. In the months ahead, the Department will work 
closely with the Charter Schools Program (CSP) and our partners in the 
sector to continue scaling and improving high-performing charter 
schools. We are encouraged that ESSA continues investing in high 
performing charter schools, and we will work to maximize the impact of 
these programs.

 Response by John B. King, Jr., Ph.D., to Questions of Senator Murray, 
 Senator Sanders, Senator Franken, Senator Bennet, Senator Whitehouse 
                           and Senator Warren

                             senator murray
    Question 1. One issue I've been very focused on is improving the 
Impact Aid Program which provides Federal support for school districts 
serving high populations of military families and children living in 
tribal communities. More than 50 school districts in my home State of 
Washington rely on Impact Aid to provide high quality education to 
their students. I was glad that we were able to include language in the 
Every Student Succeeds Act that will simplify the application process, 
ensure timelier payments to school districts and create a new hold 
harmless which will provide districts funding stability from year to 
year.
    One district in particular--the Central Kitsap School District 
(CKSD)--is the only district in Washington State that currently 
qualifies for Heavy Impact Aid (HIA) funding. Unfortunately, due to an 
unexpected change in the way that the Department of Education accepted 
tax rate calculations, the CKSD was denied HIA funding between 2010 and 
2012 causing them to have to reduce staff and delay critical curriculum 
and facility updates. I was proud to work to include language in the 
Every Student Succeeds Act that makes clear that the alternative tax 
rate calculation used by CKSD is acceptable for determining HIA 
eligibility and provided them some much needed relief for the years in 
which they were deemed ineligible.
    As you work to implement this law, how will you ensure that the 
Impact Aid provisions are implemented in the best way possible so that 
districts like Central Kitsap School District in Washington State and 
others throughout the country get the support they need to provide a 
quality education to their students?
    Answer 1. The Department is appreciative of the hard work of you 
and your staff to make critical changes to the Impact Aid program and 
making permanent a number of the changes you had included in the 
National Defense Authorization Act of 2013. Section 7003(b)(2)(F)(ii) 
of the ESEA as amended by the ESSA, which affects school districts that 
did not meet the average tax rate requirements for heavily impacted 
districts for fiscal years 2010-15, took effect upon enactment in mid-
December 2015. A district such as Central Kitsap School District (CKSD) 
that meets the criteria of the provision is permitted to use its 
State's alternative tax rate methodology to retain eligibility for 
2010-15, and in addition may use the same tax rate methodology when 
applying for heavily impacted eligibility for fiscal years after 2015. 
CKSD had already qualified and received a heavily impacted district 
payment for fiscal year 2015 using the Department's methodology earlier 
in 2015 prior to the passage of ESSA. After passage of the provision, 
the Department worked diligently to implement it quickly with respect 
to CKSD. Notes regarding the permissibility of the alternative 
methodology have already been codified in the Impact Aid payment system 
for the affected and future years, and the $14 million payment 
referenced in ESSA was issued to the district on February 2, 2016.
    Department staff is also diligently working on the other ESSA 
Impact Aid provisions that are effective next year. For example, we 
have already initiated programming changes to the payment system that 
will enable implementation of the new hold harmless provision you 
reference. Over 1,350 school districts affected by Federal activities 
apply for Impact Aid annually. We take our responsibility to each of 
these districts seriously and are working to ensure that all of the 
Impact Aid ESSA provisions will be implemented with the same fidelity 
and accuracy that were executed for this section of the law.

    Question 2. A few weeks ago, I launched a tool to enable students 
and families throughout the country to share their story and struggles 
to afford higher education. In just a matter of weeks, I heard from so 
many borrowers who shared how difficult it is to manage the crushing 
burden of their student debt. One in four student loan borrowers are 
currently in default or struggling to repay their loans.
    Unfortunately, many borrowers have experienced problems getting 
consistent answers and help from their student loan servicers--a 
problem that has been well documented by both the U.S. Treasury and 
Consumer Financial Protection Bureau. Fortunately, your Department and 
these agencies together issued a ``Joint Statement of Principles on 
Student Loan Servicing'' last year to improve student loan servicing 
practices, promote borrower success, and minimize defaults.
    Given that the Department is planning a new competition for Federal 
contracts on student loan servicing this year, how will you ensure that 
the student loan servicing process puts customer service front and 
center, becomes more transparent, and guarantees that servicers are 
held accountable for their business practices and compliance with the 
law?
    Answer 2. Over the past few years, and since the President signed 
the Student Aid Bill of Rights memorandum in March 2015, the Department 
of Education has worked with its partners across the Administration and 
in the Consumer Financial Protection Bureau to improve service for all 
student loan borrowers, and in particular, for the most vulnerable 
borrowers. The Student Aid Bill of Rights included a number of projects 
and deliverables, some of which have already been completed, some of 
which are in progress, but on track to complete in the coming months, 
and additional objectives designed to improve borrower service through 
the servicing recompete.
    In August, FSA released the recommendations from an interagency 
task force on best practices in performance-based contracting to better 
ensure that servicers help borrowers make affordable monthly payments. 
As directed by the President's Memorandum, the task force reviewed 
input from its members which consisted of the Departments of Education 
and Treasury, the Office of Management and Budget, and the Domestic 
Policy Council, last July. The task force also solicited input from a 
wide range of other public and private stakeholders. These 
recommendations will inform the process of recompeting our servicing 
contracts prior to the expiration of the existing contracts in 2019.
    In addition, Education, Treasury and the CFPB continue to work 
together to ensure student loan borrowers are aware of and can have 
affordable monthly payments. For Federal student loans, FSA and its 
servicing contractors have been certifying and enrolling, on average, 
over 5,000 borrowers per day into Income Driven Repayment (IDR) plans 
over the past year. Enrollment in IDR plans has increased more than 50 
percent over the past year and is at an all-time high.
    On October 1, the U.S. Department of Education released a report on 
Strengthening the Student Loan System to Better Protect all Borrowers, 
which outlines a series of statutory, regulatory, and administrative 
recommendations to safeguard student borrowers. The report, developed 
in consultation with the Department of the Treasury and the Consumer 
Financial Protection Bureau, builds on years of work by the 
Administration to help Americans manage their student loan debt and 
protect the most vulnerable borrowers.
    The report includes key recommendations to protect Federal student 
loan borrowers such as: increasing borrower protections in the Federal 
student loan program; updating debt collection and offset; enhancing 
Federal data-sharing to improve the Federal student loan borrower 
experience; and strengthening Federal student loan servicing. The 
report also proposed several steps to protect borrowers of private 
student loans, which do not come with the same consumer protections and 
benefits as Federal loans, including to allow private student loans 
that lack sufficient repayment flexibility to be dischargeable in 
bankruptcy.
    The report also included an update on the development of a multi-
year recertification process for income-driven repayment plans. As with 
any policy that provides access to taxpayer data, there are costs to 
developing and operating a secure system with appropriate 
authentication and controls, and mechanisms for secure communication 
with third parties. Both Treasury and Education believe that, with 
sufficient funding, an electronic multi-year certification system can 
and should be developed to simplify the repayment process for many 
borrowers in IDR plans.
    In the coming months we expect to continue the work started under 
the Student Aid Bill of Rights and outline a vision for a borrower 
centric ecosystem ensures accurate and helpful service for borrowers 
with Federal student loans.

    Question 3. Under Secretary Duncan's leadership, States have 
invested more than $1 billion dollars in expanding access to high-
quality preschool. I was proud to continue this work by authorizing 
dedicated funding for early learning for the first time in ESSA.
    How do you intend to continue the push to expand access to high-
quality preschool and how do you plan to work with HHS to ensure that 
the Preschool Development Grants program is implemented effectively?
    Answer 3. Thank you for your continued partnership and strong 
leadership to ensure that every child has access to high-quality early 
learning programs, including your sponsorship of the Strong Start for 
America's Children Act, which closely resembles the President's 
proposal to extend high-quality preschool to all children from low- and 
moderate-income families. We have made tremendous progress toward 
ensuring that more children gain the benefits of high-quality early 
learning programs so that they come to school ready to learn. Forty-six 
States and the District of Columbia fund preschool; five States provide 
funding for every 4 year old and two States fund 3 year olds as well. 
If confirmed, I intend to work hard to continue to expand high-quality 
preschool for all children.
    I am proud of the progress the Department in partnership with HHS 
has made over the past several years. The Department's relationship 
with HHS around early learning is strong and codified in three MOUs 
that outline how the two agencies administer the Race to the Top-Early 
Learning Challenge (RTT-ELC), which has significantly increased quality 
in early learning programs and placed more at risk children in high 
quality programs in 20 States; and the Interagency Policy Board, which 
the agencies set up in 2010 to coordinate Federal early learning 
programs and the Preschool Development Grants (PDG). In partnership 
with HHS, we have awarded PDG grants to 18 States, in more than 230 
communities, serving over 33,000 children in high-quality preschool 
this year in schools, Head Start programs and public and private child 
care centers.
    Although funding authority in fiscal year 2017 will shift to HHS, 
the two departments will continue working closely together to jointly 
administer the program and will develop a Memorandum of Understanding 
that includes joint staffing of PDG implementation and ensures a smooth 
transition for all grantees. In the President's fiscal year 2017 budget 
request, we propose that $250 million be used to fund the fourth year 
of the 18 States, while using the remaining money to fund State efforts 
to create preschool infrastructure, as called for in ESSA. HHS and ED 
will continue joint administration of the program and together, work 
with grantees to continue expanding high quality preschool for our 
youngest learners.

    Question 4. In Washington State, there has been a growing number of 
individuals and families experiencing homelessness. In fact, in 
November, the mayor of Seattle declared a State of emergency to combat 
homelessness. Many of these families have children who attend public 
schools and face challenges due to their lack of school stability. In 
regards to higher education, students experiencing homelessness face 
unique barriers applying for college, attending, and completing their 
degree.
    Under your leadership, what are some ways the Department will be 
working to help students struggling with homelessness get a quality 
education and easing the pathway for these students who want to pursue 
a higher education?
    Answer 4. Students experiencing homelessness are one of the most 
high-risk and vulnerable student populations we serve. We take our 
obligations to meeting their needs seriously. The programs that we 
administer include requirements to assist homeless students. For 
example we administer the Education for Homeless Children and Youth 
(EHCY) program authorized by the McKinney-Vento Homeless Assistance 
Act, which was significantly enhanced by ESSA amendments. In addition, 
we provide technical assistance to States and school districts, and 
engage in an array of Federal interagency groups to coordinate efforts.
    The $15 million increase proposed for EHCY in the President's 
fiscal year 2017 budget reflects the Administration's commitment to 
help States and LEAs address the 45 percent increase in the number of 
enrolled homeless students reported by States since 2008. The requested 
increase--from $70 to $85 million--would help ensure that States and 
LEAs can provide the services needed to improve educational outcomes 
for homeless children and youth, who face significant barriers to 
success. In addition, the Department allocates McKinney-Vento funding 
annually by formula to States based on the State's proportion of the 
ESEA Title I, Part A Federal allocation the State receives. Generally, 
States must distribute no less than 75 percent of their annual 
McKinney-Vento allocation to local school districts in subgrants, which 
are awarded competitively based on need and the quality of the 
application.
    As you know homeless students have numerous rights under Federal 
law and we work to ensure that every school district in the country has 
a school district liaison who is aware of these rights and ensures 
these obligations are met. We are fortunate to have the National Center 
for Homeless Education (NCHE) serve as the Department's technical 
assistance and information center. NCHE provides research, resources, 
and information enabling communities to better address the educational 
needs of children experiencing homelessness. NCHE also supports SEA 
staff, school district liaisons, educators, and others by providing 
training online, at regional and national conferences, and other 
events. NCHE also has a wealth of technical assistance resources 
available in print or electronic format.
    We are also working to ensure that homeless youth are able to 
obtain a higher education. Last year, Federal Student Aid issued a Dear 
Colleague Letter to clarify institutional and applicants' roles and 
responsibilities related to title IV dependency determinations for 
unaccompanied homeless youth. Additionally, during the annual Federal 
Student Aid conference, FSA hosts a session titled ``Understanding 
Federal Aid Policy and Practice for Unaccompanied Homeless Youth.'' 
This session explores the unique needs of the homeless student 
population and offers ways to implement financial aid policies and 
practices on their behalf. The session also provides information about 
the education and human service professionals with whom financial aid 
administrators can collaborate to help these students navigate the 
post-secondary education system.
    Finally, ED staff actively participate in and contribute to 
numerous interagency groups. I am pleased to co-chair the U.S. 
Interagency Council on Homelessness (USICH). USICH coordinates the 
Federal response to homelessness, working in close partnership with 
other Cabinet Secretaries and other senior leaders across our 19 
Federal member agencies. By organizing and supporting leaders such as 
Governors, Mayors, Continuum of Care leaders, and other local 
officials, we drive action to achieve the goals of Opening Doors, which 
was released in 2010. Opening Doors is the Nation's first-ever 
comprehensive strategic plan to prevent and end homelessness among all 
populations and is a roadmap for Federal agency action.

    Question 5. One issue I am deeply concerned about is discrimination 
against students based on gender identity. I have been pleased to see 
the U.S. Department of Education's Office of Civil Rights take action 
to investigate individual complaints by transgender students against 
school districts for title IX violations, and pursue resolution in 
those cases. However, I am deeply concerned about the disturbing and 
growing trend of discrimination against transgender students by 
schools, districts, and, most recently, States. For example, in 
February, the Texas University Interscholastic League decided to 
disregard a student's gender identity when determining participation in 
athletics, and the South Dakota legislature passed a law prohibiting 
schools from providing equal treatment to transgender students. These 
actions are in direct conflict with non-discrimination requirements 
under Title IX of the Education Amendments of 1972.
    As you work to ensure the promise of equality in title IX is 
fulfilled, how will you address this discrimination against transgender 
students?
    Answer 5. The Department is committed to safe and supportive 
environments for all students, including transgender students. In 
various policy guidance documents addressing sex discrimination under 
title IX, the Department's Office for Civil Rights (OCR) has informed 
educational institutions that OCR interprets title IX and its 
regulations to prohibit discrimination on the basis of gender identity 
and transgender status. The Department of Justice and the Department of 
Education have taken the same position in litigation. As you note, OCR 
has also investigated complaints by individual students, found 
violations when a school has failed to treat students consistent with 
their gender identity, and entered into voluntary resolution agreements 
with school districts to address those violations.
                            senator sanders
    Question 1. Dr. King, I don't think that this will come as news to 
you, but former Secretary of Education Arne Duncan and I disagreed on a 
number of issues. While we both held the same belief that every child 
has a right to a high-quality education, we had different beliefs on 
how to achieve this goal. Can you tell me how your tenure as Education 
Secretary will be different than that of Secretary Duncan? What 
specific policies and approaches will set you apart from your 
predecessor? Relatedly, under your tenure which policies or approaches 
will be a continuation with Secretary Duncan's tenure?
    Answer 1. While we have a long way to go in ensuring the promise of 
equity and excellence for all of America's students, we have made 
critical progress over the last 7 years, and thanks to the work of this 
committee, the Obama administration, and our Nation's educators and 
parents, there are many reasons to feel hopeful.
    Last year, we achieved the highest high school graduation rate 
we've ever had as a country--82 percent. This progress was driven in no 
small part by significant reductions in the dropout rate among African-
American, Latino, and low-income students. Since 2008, we have halved 
the number of ``dropout factory'' high schools. A million more African-
American and Latino students are in college today than when the 
President took office. Tens of thousands of children now have access to 
high-quality preschool and millions more students have access to higher 
education.
    I am grateful to Secretary Duncan for his unwavering commitment to 
America's students, especially those who have too often been 
underserved. And I hope to continue that unrelenting focus on 
excellence and equity.
    At the same time, the passage of the Every Student Succeeds Act 
ushers in a new era in American education--and an opportunity for a 
reset in the national dialog. Over the past decade, our educational 
system has been through a period of enormous change. Change is hard, 
and it often brings with it hard conversations and damaged 
relationships. I intend to seize this new moment in national policy to 
help bring about a reset in a national dialog that has, despite good 
intentions, been too often characterized by more heat than light. All 
of us--at the local, State, and Federal level--have to take 
responsibility for the climate that exists. And all of us must do 
whatever we can to change it.

    Question 2. I do not believe that funding for the essential 
elements of a high-quality education--pre-kindergarten, well-rounded 
course offerings, safe and healthy schools, and more--should be up for 
competition. Rather these essential elements should be guaranteed and 
exist in every school. Can you share your philosophy on formula grants 
and competitive grants for the essential components of a high-quality 
education? Small, rural States like Vermont often do not have the 
resources and capabilities to aggressively pursue competitive funding 
like larger States, putting them at a significant disadvantage. If the 
Department of Education must rely on competitive grants for some 
education programs due to constrained appropriations, what safe guards 
are in place to ensure that small rural States are on an equal footing 
with larger States that have more administrative resources at their 
disposal?
    Answer 2. I appreciate the concern that you raise and believe that 
it is important for the Department to take into account the unique 
needs and characteristics of rural school districts. We are committed 
to ensuring that all of our programs serve rural students well. Over 
the past several years we have worked hard to ensure that our 
competitive reform programs are fair to rural States and communities. 
For example, the Promise Neighborhoods program made implementation 
grants to projects serving rural communities (Indianola Promise 
Community in Mississippi, and the Improving Rural Appalachian Schools 
project in Berea, KY). Additionally, through our Investing in 
Innovation (i3) grant program more than one-fifth--34 out of 156 
awards--are serving rural areas, thanks in part to the use of 
competitive and absolute priorities that help highlight rural 
proposals. i3 projects serving rural areas have received about one-
quarter (26 percent) of all i3 funding since 2010--$336 million out of 
$1.3 billion.

    Question 3. As Secretary, how do accomplish the goal of serving the 
diverse student body of our Nation--from children in large urban 
centers to those in rural school districts? For small and rural States 
like Vermont, what additional supports will your Department provide? 
Will there be additional technical assistance, competitive grant 
priorities for small or rural States, appropriate flexibility that does 
not compromise Federal guard rails for States in implementing the new 
Elementary and Secondary Education law, aid in implementing the 
assessment pilot in the new law, or other supports?
    Last, what experience and lessons learned from serving a 
geographically and demographically diverse State like New York will you 
bring to your tenure as Secretary?
    Answer 3. We recognize that nearly 60 percent of LEAs and one-third 
of schools are in rural areas, and that 25 percent of all students 
attend rural schools. That makes it really important for the Department 
to take into account the unique needs and characteristics of rural 
schools districts. The Department has taken concrete actions to level 
the playing field for rural communities in grant competitions. Over the 
past 5 years the Department has included priorities for rural 
applicants or rural-serving applicants in approximately 3 dozen 
competitions across 10 programs.
    There are a number of provisions in the ESSA that will help us to 
address the unique need of rural communities. Foremost, we are taking 
our responsibility under section 5005 of the ESSA aimed at increasing 
the involvement and input of rural schools and districts in developing 
policies and regulations for Department of Education programs very 
seriously. As with most aspects of ESSA implementation, we are in the 
early stages of developing our plans for meeting the requirements of 
the new law, including the initial review due to Congress within 18 
months. We will ensure that the final report will include 
recommendations for increasing the role of rural stakeholders in 
Department policies and regulations. Additionally, the Department will 
support rural communities through implementation of programs in ESSA 
such as Title IV, Part A, which provides opportunity for districts and 
schools to use funds under the Supporting the Effective Use of 
Technology section to expand digital learning opportunities in rural, 
remote, and underserved areas. In addition, the Department will execute 
the additional provisions in the ESSA including the required set-asides 
for discretionary grants including: the STEM Master Teacher Corps 
grant; the Education Innovation and Research grant where there is a 25 
percent rural set-aside for rural grantees; and the Promise 
Neighborhoods and Community Schools grant which requires that no less 
than 15 percent of the funds be awarded to entities that propose to 
carry out activities in rural areas.
    As Chief State School Officer in New York, navigating a State with 
over 700 districts, more than 4,500 schools, and a majority minority 
student population, I understood that a one-size-fits-all model from 
Albany did not work. To meet the needs of communities that ranges from 
dense urban to very rural, it was essential to have policies, rules and 
strategies that supported and protected our highest need students while 
still allowing for local flexibility and context, by listening to local 
practitioners, investing in local and scalable promising practices, 
differentiating based on need, and adjusting practices along the way. 
If confirmed, I plan to apply these same principles and respect local 
practice while still protecting the rights of all students.

    Question 4. The Every Student Succeeds Act (ESSA), which I 
supported, moves away from the one-size-fits-all, test and punish 
approach of the No Child Left Behind law, which simply did not work for 
our communities. Instead of just focusing on test scores, ESSA includes 
multiple measures in evaluating how our students and schools are 
performing. In implementing this law, how will you ensure that test 
scores do not again become an outsized metric in which to judge how our 
students, schools, and teachers are performing?
    Answer 4. The Department has made clear, most recently through its 
implementation of ESEA flexibility and the President's Testing Action 
Plan, that test scores should be just one of multiple measures used by 
statewide accountability systems to assess student, teacher, and school 
performance. And we agree that ESSA provides States with the 
opportunity to take a broader look at the measures that should be 
included in school accountability systems and to consider a rich array 
of data on school performance when differentiating among schools, 
including, for example, English language proficiency for English 
learners, student growth, graduation rates, chronic absenteeism, 
college- and career-ready measures, and school climate. While giving 
States new flexibility to add indicators to their accountability 
systems for identifying low-performing schools, including a new school 
quality and student success indicator that encourages States to 
consider a wide range of academic and non-academic factors, ESSA also 
requires that certain indicators, such as academic achievement, 
graduation rates, and English language proficiency, carry 
``substantial'' weight individually and ``much greater'' weight in the 
aggregate relative to other measures of school quality and student 
success. The Department believes that States will work hard to find the 
right balance among the multiple indicators required by the new law, 
and plans to provide guidance and technical assistance to States in 
this area as they develop plans for implementing the ESSA.

    Question 5. Today, young people around the country are shouldering 
outrageous amounts of student loan debt that is holding them back on 
almost all fronts--purchasing a home, starting a family, saving for 
retirement, and more. Shockingly, many for-profit schools have made an 
already challenging terrain even more difficult for our most vulnerable 
students by saddling them with debt and no degree, or a degree that is 
not worth the paper it is printed on. I am pleased that the Department 
has announced the creation of the Student Aid Enforcement Unit, and I 
hope it will take aggressive action to protect students from predatory 
and illegal practices.
    Under your watch, what policies will be implemented to ensure more 
students are protected from unscrupulous for-profit schools? I am aware 
that the Department is currently undergoing a negotiated rulemaking to 
determine how best to provide debt relief to students defrauded by for-
profit schools. The draft rules seem more concerned with limiting the 
``cost'' of the discharges to the Department than giving students a 
chance to start over, even when our student loan programs are on track 
to make $67 billion in profits over the next decade.
    What will you do as Secretary to help these students and minimize 
the burdens for students to get the needed debt relief they deserve?
    Answer 5. The Department continues its longstanding commitment and 
efforts to ensure that we help reduce the burden faced by student loan 
borrowers and make post-secondary education more affordable and 
accessible to all American families. I will work to ensure that serving 
our student borrowers remains a top priority, and that we are doing all 
we can as an agency to serve and protect students and taxpayers.
    The newly created Student Aid Enforcement Unit, and the interagency 
task force focused on the accountability for poor performing 
institutions, are key mechanisms that the Department has created toward 
this goal, and will be a high priority during my tenure. The Student 
Aid Enforcement Unit will focus on increasing the capacity of the 
Department to respond quickly and efficiently to allegations of illegal 
actions by higher education institutions. The Enforcement Unit will 
include an investigations division that focuses on identifying 
potential misconduct or high-risk activity among higher education 
institutions and protecting Federal funding. The purpose of the task 
force is to provide a means for Federal agencies to share strategies 
and collaborate on the most effective ways to produce complementary 
protections for the public. These include streamlining disclosures, 
developing effective consumer tools, and sharing program expertise to 
identify best practices. I look forward to working with Federal Student 
Aid, our agency partners, and Congress to further this critical work.
    We are also taking steps in other ways, such as implementing our 
Gainful Employment regulations to hold career schools accountable for 
providing quality education and training to students and making sure 
they are not saddling students with high levels of debt that they will 
struggle to repay. In addition, as you note, the Department began a 
negotiated rulemaking process to revise the borrower defense to 
repayment regulations to ensure that the regulations are working both 
for students and for taxpayers. Where students have been harmed by 
fraudulent practices, we are fully committed to making sure they 
receive the relief they are entitled to, and where possible, we will 
recover that money from the schools that created the harm.
                            senator franken
    Question. When I talk to employers around Minnesota, they often 
tell me that they're starving for workers who have a good grasp of 
science, technology, engineering, and math (STEM). And this isn't just 
a problem for Minnesota--it's an issue all over the country.
    Nearly all of the top 30 fastest growing jobs nationwide require 
STEM skills. But our kids are lagging behind the rest of the world, and 
part of the problem is that there's a shortage of effective STEM 
teachers. That's why I wrote the STEM Master Teacher Corps Act to 
recruit top-notch STEM educators and keep them in the classroom. This 
program would provide States grants to recruit, recognize, and reward 
expert STEM educators. These networks of innovative STEM educators 
would mentor their peers and participate in professional development--
while receiving extra pay for their work.
    I'm pleased that there is an optional pot of money in ESSA for 
training STEM teachers that is based on my bill, and ESSA leaves it up 
to the Secretary of Education to award these grants to States. If 
confirmed by the Senate, how do you plan to support STEM educators, and 
will a STEM Master Teacher Corps be included in that effort?
    Answer. STEM education continues to be a key priority for our 
Department, and is incorporated into several initiatives, from early 
learning through college and career. As part of those efforts, a STEM 
Master Teacher Corps can play an important role in bolstering STEM 
equity and excellence. The idea of a STEM Master Teacher Corps 
originated from a recommendation from the President's Council of 
Advisors on Science and Technology and has been a priority of the 
Administration's since the President called for the creation of a 
national STEM Master Teacher Corps that would enlist America's best and 
brightest science and math teachers to improve STEM Education. The 
Department proposed funding to support a STEM Master Teacher Corps in 
multiple budget requests, beginning in 2012 and including most recently 
a $10 million request to continue this work in the 2017 budget. In 
addition, the Department is proposing a number of investments to 
support the training and development of STEM educators.
    For example, the Computer Science for All initiative, a new 
investment proposed in the 2017 budget, would provide $4 billion over 3 
years in mandatory funding and $100 million in discretionary funding to 
ensure access for all students to high-quality instruction in computer 
science, and would include support and training for computer science 
teachers and support staff. Through the Teacher and Principal Pathways 
program, the Department has proposed $125 million to support teacher 
preparation programs and nonprofits partnering with school districts to 
create or expand high-quality pathways into the teaching profession, 
particularly into high-need schools and high-need subjects such as 
STEM. The Department also seeks to use existing resources toward the 
important work of supporting STEM educators; we leveraged $1.2 million 
from the Teacher Incentive Fund's National Activities set aside to 
create the foundations of a robust STEM Master Teacher Corps during the 
current fiscal year. In addition, the Department convened expert 
teacher leaders to build and assemble resources designed for States, 
districts, and educators to advance STEM teaching. Later this summer, 
the Department will publish a Web site that hosts these tools along 
with additional resources to support STEM educators.
                             senator bennet
    Question 1. The reality of Washington, DC, is divorced from the 
reality of our schools, students and educators. Sometimes what we try 
to do from Washington hurts more than helps, but it doesn't happen out 
of vindictiveness or spite. Washington simply doesn't understand the 
reality of what is happening in schools, especially those that educate 
students living in poverty. How will your experiences as an educator 
and a school leader affect your approach and decisions in this job? How 
will you ensure that the Department of Education is connected to the 
reality in our classrooms?
    Answer 1. As a former teacher, principal, and State commissioner, I 
know from personal experience that the best ideas come from classrooms, 
not conference rooms.
    The Every Student Succeeds Act rightly shifts the locus of 
decisionmaking back to States and districts--and away from the one-
size-fits-all mandates of No Child Left Behind--even as it preserves 
the critical Federal role in constructing guardrails to protect civil 
rights.
    As the Department of Education undertakes implementation of the new 
law and the rest of our critical work, I recognize that it is hugely 
important for us to remain connected to the hard work that is happening 
on the ground every day. My team and I will continue to do regular 
outreach to stakeholders through engagement at the Department, and 
across the country. In addition, the Department's Teaching Ambassador 
Fellows and Principal Ambassador Fellows have played a critical role in 
anchoring our work here in Washington DC to educators in the field, to 
gain their perspectives and their day-to-day experiences in the 
classroom.
    In my first weeks as Acting Secretary, I launched the ``Opportunity 
Across America'' tour to see what's working on the ground and meet with 
students, teachers, principals, educators, parents, and community 
leaders in five different cities. Since then I have had regular 
opportunities to visit schools around the country, something I will 
continue to do.
    I will continue to draw on both my own personal experience as a 
teacher, school leader, and State commissioner as well as these 
frequent interactions to inform our work in the weeks and months to 
come.

    Question 2. When I was a superintendent, I found the Department of 
Education to be a compliance driven entity that was often unhelpful and 
sometimes even a bureaucratic barrier to the change we were trying to 
make in Denver. That needs to change, and the Department needs to 
become a source of assistance to States, districts, and schools. As 
districts and States begin to implement ESSA, technical assistance, 
best practices, and even partnerships in improvement efforts have never 
been more important. What is your plan to make the Department useful 
for States and districts, to make it more responsive, and to support 
the efforts of States and districts to change and innovate? How will 
you encourage districts and States to take advantage of the 
opportunities in ESSA for change, improvement, and innovation?
    Answer 2. The Department has taken steps to ensure more 
partnership-oriented relationships to support shared goals of improving 
student achievement and closing achievement gaps. For example, through 
the newly created Office of State Support (OSS) within the Office of 
Elementary and Secondary Education (OESE), the Department supports 
State-led reform efforts, consistent with current law, across several 
programs. Whereas States used to have to deal with multiple program 
teams in the Department, now each State has dedicated points of contact 
in the OSS who are in regular communication with States, partnering 
with them across Federal programs to support implementation and 
continuous refinement of reform efforts. This approach will continue as 
the Department works to support States in transitioning to and fully 
implementing the provisions of the ESSA. As another example, the Office 
of Special Education Programs (OSEP) uses a Results Driven 
Accountability monitoring and support system that focuses on improving 
student results. States identify measurable results to improve and 
design comprehensive plans to support LEAs in making that improvement. 
OSEP and OSS are collaborating in the implementation of this results-
driven model. In recent joint visits to States to provide support in 
implementing improvement plans, State staff commented on the 
collaborative approach both within ED and between ED and States.
    The Department has also invested in programs that drive innovation, 
and encourage learning and improvement in the sector through rigorous 
evaluation. For example, the Investing in Innovation (i3) program, 
which has supported several projects in Colorado, offers resources and 
support to entrepreneurial educators to develop and scale their 
approaches. i3 also requires every project to measure their performance 
and outcomes, which will ultimately yield at least 64 Randomized 
Controlled Trial (RCT) evaluations across the first five cohorts of i3 
grantees. These RCTs, which are considered the ``gold standard'' of 
evidence, include valuable lessons for local and State leaders that are 
building innovative models of their own. The Department will continue 
supporting these district and State-led efforts--and disseminate the 
knowledge that they produce--under programs in the Every Student 
Succeeds Act, including the Education Innovation and Research program.

    Question 3. Our education system should be a source of opportunity 
and a path to advancement and social mobility for students across the 
country. But for too many of our children living in poverty, our 
current education system is reinforcing the income inequality in this 
country, rather than creating the opportunity for our kids to succeed 
in life. At its core, ESSA is a civil rights law, focused on improving 
equity across the country and helping ensure our kids in high-poverty 
communities receive a great education. But we still have a long way to 
go to reach a place where a child's zip-code doesn't determine the 
quality of his or her education. What do you see as the biggest 
challenges in addressing educational inequity? What are the most 
important things States and districts can do to improve education 
equity, as they work to implement ESSA?
    Answer 3. Equity in education is a core tenet of the Federal 
Elementary and Secondary Education Act (ESEA), and I am pleased that 
Congress has reinforced this principle in the Every Student Succeeds 
Act (ESSA)--equity is the impetus for nearly everything we do at the 
Department. From its inception, ESEA was a civil rights law intended to 
ensure, in the words of President Johnson, that ``full educational 
opportunity'' should be ``our first national goal.'' ESSA honors the 
law's civil rights heritage, and the responsibility to ensure that its 
implementation also honors that heritage rests with each State, 
district, and school--and at the Federal level. One of the biggest 
challenges is recognizing and understanding where and how some students 
may be falling behind or not receiving the same opportunities that 
other students receive. Once these problems are identified, the 
challenge is to address them promptly and effectively so they do not 
hold back multiple cohorts of students. Accordingly, in implementing 
ESSA, State and local leaders must ensure that they have timely and 
accurate information about student performance across their schools and 
disaggregated by subgroup, and they have systems of support and 
intervention to ensure that problems are swiftly addressed. The new law 
makes it clear that States and districts should establish policies and 
programs that target resources to the most disadvantaged and should 
take care to ensure true comparability of resources, both across and 
within districts, that levels the playing field and allows historically 
disadvantaged students, particularly those from low-income families, 
students with disabilities, English learners, and students of color, to 
have access to excellent educators, challenging and enriching course 
offerings and extracurricular activities, and modern and relevant 
instructional materials. The role of the Federal Government in meeting 
these challenges is to provide States the guidance and technical 
assistance they need, while monitoring and enforcing the law's 
requirements.

    Question 4. For many families, the cost of college has become a 
prohibitive barrier to receiving a great education. In Colorado, 
tuition at several public 4 year colleges has increased by more than 30 
percent in just the last 5 years. At the same time, the Federal 
Government has set up barriers through complexity and bureaucracy that 
make it more difficult for kids to apply for aid. We need to address 
these problems and make it easier for our colleges, universities, and 
post-secondary providers to innovate and find new solutions to make 
college more affordable and accessible for our students. As we work to 
re-authorize the Higher Education Act and potentially consider a 
package on higher education this year, what in our current budget 
climate could we include to help drive down the costs of college and to 
encourage greater support for innovation by our high-quality schools?
    Answer 4. Every hard-working student deserves a real opportunity to 
earn an affordable, high-quality degree or credential that leads to 
greater economic security and civic engagement. But too many recent 
college graduates feel the weight of their student loan payments 
holding them back from fulfilling their full potential, and far too 
many prospective college students feel as though they are priced out of 
the education they need to set themselves up for future success. Since 
the beginning of this Administration, President Obama has focused on 
expanding college access, improving college affordability and regaining 
our leadership internationally in college attainment. Our 
Administration has taken strong action to ensure college stays within 
reach of American families, doubling investments in tax and scholarship 
aid by increasing investments in Pell grants and creating the American 
Opportunity Tax Credit, and making student debt more manageable by 
providing loan repayment options that cap payments based on income.
    Building on those efforts, the President's America's College 
Promise proposal would make 2 years of community college free for 
responsible students, effectively reducing the cost of obtaining a 
bachelor's degree to about half. America's College Promise also 
provides grants to 4-year HBCUs and MSIs to provide more new or 
transfer low-income students with up to 2 years at a 4-year college at 
zero or significantly reduced tuition. Further, in addition to seeking 
full funding for the Pell grant maximum award and continuing to index 
the grant to inflation indefinitely in this year's budget request, the 
Administration is making it easier for students to access Federal 
financial aid. In September, President Obama announced significant 
changes in the process for filing FAFSAs starting in the 2017-2018 
award year, allowing students to apply earlier and using ``prior-
prior'' income information. Both of these changes will streamline the 
student aid process and provide families with an earlier picture of 
their aid eligibility more consistent with the timeline for applying 
for college. For too long, though, America's higher education system 
has lacked a focus on outcomes and value for students and families--the 
degree students truly can't afford is the one they don't complete, or 
that employers don't value. That's why, in this year's Budget Request, 
we proposed a number of completion-focused reforms, including Pell for 
Accelerated Completion and the On-Track Pell Bonus. I look forward to 
working with you and the committee to address these critical issues.
                           senator whitehouse
    Question 1. During the implementation of ESSA how will you work to 
support greater innovation, unshackling schools and teachers, so that 
they have higher degrees of autonomy and can actually act to improve 
academic outcomes?
    Answer 1. We know that the best ideas about education always come 
from educators closest to students--those in schools and districts. We 
encourage States, LEAs and schools to use the flexibility they have 
under the ESSA to design school accountability and support systems that 
work best in their local context while being attentive to the serious 
equity issues that are too often present in our schools. We will 
continue our efforts to support the development, evaluation, and 
scaling of innovative practices through the new Education Innovation 
and Research authority, which is the successor to the Investing in 
Innovation (i3) program and a key means for the Department to balance 
the ESSA's recognition of the need to use both innovation and evidence 
to ensure effective use of taxpayer dollars in improving student 
outcomes. In addition, the Institute for Education Sciences will 
continue its work through the Regional Educational Laboratories and 
other efforts to build our collective knowledge about what works.

    Question 2. In ESSA, I authored several provisions to help keep 
kids who encounter the juvenile justice system stay on track, including 
having States establish procedures around timely transitions, upon 
release, to schools or re-entry programs, and to better facilitate 
transferring academic credits and records between school and juvenile 
justice facilities. Is the Department open to issuing regulatory 
guidance to States on best practices around these issues?
    Answer 2. Students who encounter the juvenile justice systems are 
one of the most high-risk and vulnerable student populations we serve. 
Thank you for all of your work and leadership in helping these students 
stay engaged and on track to graduate college- and career-ready.
    We take our obligations to meeting their needs seriously. The 
Department has issued guidance over the past several years on juvenile 
reentry, from best practices to putting the spotlight on facilities and 
programs around the country with good reentry outcomes. Last summer, 
the Department released a guidance package specifically addressing 
issues facing students in juvenile detention facilities--which included 
clarifying students' rights under the Individuals with Disabilities 
Education Act while they are in correctional facilities. We plan to 
continue issuing technical assistance on this complex and inherently 
inter-agency challenge. These products are available at http://
www.neglected-delinquent.org/topic-areas/transition.
    In April 2013 the Department issued guidance on juvenile justice 
records transfers through a myth buster which explains what is required 
and permissible under the Family Educational Rights and Privacy Act. In 
addition, at a correctional education symposium we hosted in 2014, 
along with DOJ, ED issued guidance on having well-coordinated 
transition and reentry plans for youth.
    The ESSA is a big and complex law, with a lot of new pieces and new 
opportunities for States, districts and their students. As I have 
mentioned, this is the beginning of a long process, and we want to make 
sure we are supporting States and districts as they transition from 
NCLB to ESSA. We appreciate your attention to this critical issue and 
will continue to listen to and are open to feedback from stakeholders 
on guidance priorities for ESSA.
    In the meantime, the Department continues to strive to improve 
juvenile reentry education outcomes through our monitoring and 
performance management of the ESSA Title I, Part D and IDEA, Part B 
programs as they pertain to juvenile detention and corrections 
programs.

    Question 3. In ESSA I also authored provisions requiring States to 
outline how they will work to better support transitions for students 
from middle school to high school, and better identify and support 
middle schools students who are at-risk of falling off track. Is the 
Department open to issuing regulatory guidance to States on best 
practices on how they can best support middle school students at-risk?
    Answer 3. I agree, the transition from middle to high school is one 
that can be critical to the future success of a student and is an 
important piece for States and districts to consider as they work to 
ensure that all students graduate high school college- and career-
ready. As a high school teacher, I saw the critical importance of 
middle school and that was what inspired me to start a high-performing 
middle school to ensure students had the foundational skills they 
needed to succeed. Thank you for your leadership and interest in 
supporting middle school students. We will take your recommendations 
under advisement as we continue to engage with and hear from 
stakeholders on the implementation of the ESSA and are working closely 
to support States and districts as they prepare to implement the new 
law.

    Question 4. Question 23 on the FAFSA asks about a student's 
conviction for possessing or selling drugs. Drug convictions are one of 
the only infractions which can cause students to lose financial aid 
eligibility. And more than 300 organizations have called for repealing 
the question and the aid penalty because it is a collateral 
consequence. In 2005, the congressionally created Advisory Committee on 
Student Financial Assistance recommended Congress remove the drug 
question FAFSA, calling it ``irrelevant'' to eligibility. In an effort 
toward both greater fairness and simplification do you support 
eliminating the drug question on the FAFSA?
    Answer 4. As you know, Congress included in the Higher Education 
Act (HEA) a requirement that eligibility for student aid be suspended 
for certain drug-related offenses. I know that many are concerned about 
this policy and the implications it has, not only in terms of the 
barriers it presents to applicants in submitting applications, but also 
in the inequity of imposing a consequence that is effectively targeted 
at lower- and middle-income students who, unlike their wealthier peers, 
are more reliant on Federal student aid in accessing a higher 
education. In addition, I am aware of the questions about whether the 
policy actually helps to deter drug use. As a result of these issues, 
the upcoming reauthorization of the HEA provides a great opportunity to 
the Department to work with Congress in evaluating the efficacy of this 
policy and whether it should be removed from the HEA.

    Question 5. The Department of Education is currently in the midst 
of negotiated rulemaking on borrower defense to repayment. I am 
concerned that the Department's chief concern in this seems to be the 
Federal fiscal impact of forgiving loans and not that students are 
currently on the hook for loans they took out to go to schools that 
were engaged in misrepresentation and fraud. I believe that first and 
foremost the Department needs to focus on is setting up a fair process 
for students who are in debt and who were wronged by their school. In 
this rulemaking process is the Department's primary concern providing 
relief to student borrowers or the Federal fiscal impact of forgiving 
loans? How will you be weighing those two issues in this rulemaking?
    Answer 5. This Administration is committed to ensuring that 
students are protected from unscrupulous institutions that misrepresent 
educational opportunities, and holding institutions accountable for 
actions that violate the law. While many colleges play a critical role 
in helping students succeed in their educational and training pursuits, 
the unfortunate reality is that some of America's colleges are failing 
to provide the education and training promised to advance students' 
careers. Rather than providing students with promised quality 
education, some institutions have only left students with significant 
debt and few job prospects due to the institutions' actions or 
omissions. Not only does this jeopardize the students' future, but also 
puts the taxpayers' investment at risk. For those reasons, last year 
the Department began the negotiated rulemaking process to revise the 
borrower defense to repayment regulations to ensure that the 
regulations are working both for students and for taxpayers. Where 
students have been harmed by fraudulent practices, we are fully 
committed to making sure they receive the relief they are entitled to, 
and where possible, we will recover that money from the schools that 
created the harm to ensure that colleges understand they will be held 
accountable for any wrongdoing.
                             senator warren
                         student loan servicing
    Question 1. In your nomination hearing, you mentioned servicer 
recompete as an opportunity to improve student loan servicing. 
Regarding the recompete of student loan servicing contracts:

    What is the current timeline for announcing recompete of the Direct 
Loan servicing contracts? Will the new servicer contracts include 
specific servicing standards and borrower protections? If so, please 
describe how the Department will write those standards and protections. 
If so, will the Department publish draft standards and protections for 
public comment? If so, will these standards and protections be stated 
in the publicly available contracts? If so, will borrowers be able to 
enforce the standards?
    Answer 1. The Department is committed to supporting borrowers and 
strengthening student loan servicing is a key priority for the 
Administration. We expect to begin the procurement process this fiscal 
year. New contracts will include specific servicing standards, as well 
as a requirement to comply with all Federal and State consumer 
protection laws. These standards will reflect the President's vision 
for student loan servicing outlined in the Student Aid Bill of Rights 
and include input from an interagency task force that included the 
Department of the Treasury and the Consumer Financial Protection 
Bureau, as well as responses to a Request for Information and 
conversations with borrowers, schools, consumer advocates, loan 
servicers, and other program participants. While procurement law and 
regulations prevent us from publishing specific contract provisions 
prior to the release of the final contract, the Department has greatly 
benefited from the public input received to date. Also, the Department 
plans on providing opportunities for additional public input in the 
coming weeks on ways to further strengthen the student loan borrower 
customer experience. Additionally, a key goal of the Department's 
efforts include ensuring strong borrower protections are available to 
allow borrowers the opportunity to reach out to the Department in cases 
where standards are not met to see their concerns resolved, and will 
have all rights available to them under the law to enforce violations 
of consumer protection laws. We look forward to working with your 
office throughout this process.

    Question 2. If confirmed, will you commit to barring any servicer 
under investigation or any servicer that owes fines from previous 
investigations from competing in the new recompete process? If not, why 
not?
    Answer 2. Under Federal statutes such as the Competition in 
Contracting Act (41 U.S.C. 253), the Department is not allowed to 
exclude specific vendors from submitting a proposal for a solicitation 
issued for a full and open procurement. Consistent with the Federal 
Acquisition Regulations, however, the procurement process includes a 
formal determination of responsibility prior to any award. This 
determination is conducted by the contracting officer and explicitly 
includes an assessment of whether the potential vendor has a 
satisfactory record of integrity and business ethics. If this 
assessment determines that the prospective vendor does not meet 
required standards of integrity and ethics, the vendor would not 
receive an award.

    Question 3. How many full-time employees spend at least 50 percent 
of their time overseeing the department's loan servicers' compliance 
with Federal and State rules and laws?
    Answer 3. There are currently 84 full-time staff whose primary 
responsibility is conducting oversight of private collection agencies 
and servicers. Most of these staff focus on compliance with contractual 
requirements, which include adherence to Federal and State laws.
    Federal Student Aid's Financial Institution Oversight Service 
(FIOS) provides oversight of guaranty agencies, lenders, and servicers 
participating in the Department of Education Federal Family Education 
Loan (FFEL) Program. In addition, FIOS oversight responsibilities 
include reviewing the Department's Title IV Additional Servicers 
(TIVAS) and Not-for-Profit (NFP) Servicers that service Department-held 
student loans and Private Collection Agencies (PCAs) that service 
Department-held defaulted student loans.

    Question 4. In 2015, the Department released repayment rate data 
for institutions. These data represents a huge step forward in exposing 
how our students and borrowers are struggling to repay their debts. A 
2016 report by the Institute for Higher Education Policy \1\ indicated 
substantial variation in repayment rate by student loan servicer. 
Please provide repayment rate data that were included on the college 
scorecard disaggregated by each of the student loan servicers in the 
Direct Loan program.
---------------------------------------------------------------------------
    \1\ http://www.ihep.org/sites/default/files/uploads/docs/pubs/
making_sense_of_student_
loan_outcomes_paper.pdf.
---------------------------------------------------------------------------
    Answer 4. The Department is working hard to make more information 
available to the public about the Federal student loan portfolio. While 
we appreciate the interest in repayment rates disaggregated by student 
loan servicer, those data are not readily available at this time. 
Through the FSA Data Center, however, the Department has released in 
recent years new performance data on the Federal student loan portfolio 
disaggregated by student loan servicer, including the loan status of 
each servicer's portfolio, delinquency rates, as well as repayment plan 
usage for the borrowers in each servicer's portfolio.

    Question 5. More than 6 years ago, the Department of Education's 
Inspector General (IG) found that Navient illegally overcharged the 
Federal Government for subsidies on government guaranteed Federal 
student loans.\2\ In September 2013 the Department of Education issued 
a final determination, agreeing that Sallie Mae had overcharged 
taxpayers, and instructed Sallie Mae to change its billing 
practices.\3\ To date, the Department of Education has still not 
recovered these funds, and according to Navient's public SEC filings, 
the Department has not ordered the immediate return of the funds. 
Instead, the Department of Education has given multiple extensions to 
Navient.\4\
---------------------------------------------------------------------------
    \2\ Office of Inspector General, Department of Education, Special 
Allowance Payments to Sallie Mae's Subsidiary, Nellie Mae, for loans 
Funded by Tax-Exempt Obligations, Final Audit Report, August 2009 
https://www2.ed.gov/about/offices/list/oig/auditreports/fy2009/
a03i0006.pdf.
    \3\ James W. Runcie, Chief Operating Officer, Federal Student Aid, 
Letter to Senator Elizabeth Warren, December 9, 2013.
    \4\ Navient has disclosed to its investors that ``[t]he last date 
to file an appeal in this matter has been extended by ED several times 
and is currently November 12, 2015.'' Navient, Form 10-Q, Quarterly 
Report, October 30, 2015 https://investor.shareholder.com/navi/
secfiling.cfm?
filingID=1193125-15-360320&CIK=1593538.
---------------------------------------------------------------------------
    Has Navient fully repaid the $22.3 million in illegal overbillings 
related to the 2009 Inspector General report? Please provide dates and 
amounts of all payments made to date by Navient.
    If Navient has not fully repaid the fines:

    Has the Department of Education assessed, or does it plan to 
assess, interest, fees, or penalties for Navient's lack of timely 
repayment? Has the Department of Education approached the Department of 
Justice about potential actions against Navient under the False Claims 
Act? Does the Department of Education have a detailed timeline for 
Navient to repay the full amount? If so, please provide details on this 
timeline. Please provide all documents sent to and received from Sallie 
Mae and Navient regarding delays in payment or requests for extension, 
including the Final Audit Determination Letter that the Department has 
sent to Navient.
    Answer 5. The Department is committed to recovering funds that were 
overbilled to taxpayers. We cannot provide further details as this is 
an ongoing enforcement matter. A copy of the Final Audit Determination 
letter is attached as Attachment A.

    Question 6. Many student loan borrowers who file Chapter 13 
bankruptcy would like to participate in administrative income-based 
repayment plans (IBR, PAYE, etc.) while they are in bankruptcy. 
However, borrowers in Chapter 13 are typically placed in a forbearance 
status by student loan servicers and are prevented from remaining in 
good status on IBR plans, and from enrolling in such plans, while the 
bankruptcy is pending.
    What steps has the Department taken to address this problem, so 
that borrowers in bankruptcy are not discriminated against based on 
their bankruptcy filing? What is the Department's policy regarding 
participation in repayment plans when a borrower is in a Chapter 13 
case?
    Answer 6. The Department is always looking for ways to better 
assist borrowers in distress, including those who have filed for 
bankruptcy protection.
    Due to financial constraints leading up to a bankruptcy filing, a 
borrower in bankruptcy may not be making payments under the repayment 
plan. Borrowers in bankruptcy are protected by an automatic stay, which 
prevents creditors, including the Federal Government, from making any 
attempts at collection of a debt while the borrower is in bankruptcy. 
Due to the automatic stay, what would otherwise be normal student loan 
servicing activity (i.e., switching repayment plans) may be suspended 
by loan servicers to ensure that no violation of the automatic stay 
occurs.
    The Department has helped borrowers establish alternative repayment 
arrangements in several recent Chapter 13 bankruptcies, where the 
student loan borrowers' Chapter 13 plans contained language that 
provided for a student loan debtor to repay his or her student loan 
debt under one of our income driven repayment plans, rather than have 
the Department receive the allotment that would otherwise be provided 
to the unsecured non-priority creditor class in the bankruptcy.
    The borrowers wanted to pursue this option so that the time period 
in repayment could count toward the maximum time required prior to loan 
forgiveness in those plans. The plans were confirmed, permitting the 
debtor to participate in an income driven repayment plan during the 
Chapter 13 bankruptcy. The Department worked with the attorneys in 
those specific cases to ensure that the borrower could repay under 
repayment plans for which the borrower was otherwise eligible and that 
the Department and/or loan servicers were protected from any servicing 
activity that resulted from such accommodation while the automatic stay 
was in place.
                            debt collection
    Question 7. In the hearing, I mentioned problems with abusive debt 
collection practices. How does the Office of Federal Student Aid 
measure and track debt collection success? Is it based only on dollars 
collected? If other measures are used, what are they and how are they 
tracked?
    Answer 7. The Department is deeply committed to ensuring that all 
borrowers in default on a student loan are treated fairly and has taken 
a number of steps to ensure that borrower customer service is at the 
center of measuring PCA performance.
    First, the Administration has put into place new rules that allow 
many defaulted borrowers an opportunity to rehabilitate their loans and 
get into an affordable repayment plan more easily, an important step to 
improve their credit and ensure continued eligibility for Federal 
financial aid for future education pursuits.
    For new private collection agency (PCA) contracts beginning last 
year and under any future awards, the Department has implemented a 
performance evaluation approach called Continuous Performance 
Monitoring and Evaluation (CPME). This methodology drives allocations 
of new accounts to the PCAs, which we believe is the most effective way 
of incentivizing agencies to pursue Department priorities that reflect 
the interest of borrowers. CPME focuses on three factors: borrowers 
resolved, quality of service, and dollars collected.

    <bullet> Under ``borrowers resolved,'' PCAs will receive equal 
credit for every borrower that resolves their account by, for example, 
paying in full, rehabilitating, consolidating, or being approved for a 
total and permanent disability discharge. We believe this will provide 
a significant incentive for the PCAs to promote the resolution option 
most appropriate for each borrower and keep borrowers from remaining in 
default.
    <bullet> The ``quality of service'' factor will be based on the 
number of complaints each PCA receives and on quality reviews conducted 
by FSA. FSA will define a minimum acceptable service quality score PCAs 
must meet in order to be eligible for any new placements.

    Question 8. When does the Department intend to stop paying debt 
collectors that are accused of breaking Federal consumer protection 
laws that I referenced in the hearing, including Enterprise Recovery 
Systems, Pioneer Credit Recovery, and West Asset Management? How many 
borrowers? accounts are still with these debt collectors?
    Answer 8. The Department believes that every borrower--including 
those in default--deserve to be treated with dignity and respect. These 
borrowers should also get accurate information from our contractors 
about their options.
    Regarding your specific question, we have already recalled all non-
paying accounts from these PCAs and will continue to do so on a monthly 
basis for borrowers who stop making payments. The only accounts still 
placed with these PCAs are active accounts from borrowers who are 
making voluntary payments, being garnished, or are under review for a 
disability discharge to avoid any disruption in the borrower's 
resolution efforts, particularly to ensure continuity for borrowers who 
are working toward rehabilitation. FSA plans to recall all remaining 
accounts under these contracts, but to allow all borrowers to have the 
requisite 10 months to complete the terms of a rehabilitation 
agreement.
    Following the Department's findings that these PCAs had violated 
Federal consumer protection laws, each satisfactorily documented that 
it had taken action to put in place stronger controls to address those 
problems. As a result, pursuant to Federal procurement law, those 
entities were then eligible to continue competing for Department 
contracts. The Department also has put in place increased monitoring of 
PCAs.

    Question 9. Some recent default rehabilitation agreements state 
that the Department of Education will charge collection fees that have 
been previously waived if a borrower re-defaults after a successful 
rehabilitation.
    Is this the Department's policy? If so, how do the Department and 
its collectors separate fees that were previously waived from any new 
fees? Does the Department track data on borrowers who re-default? If 
so, how is this data tracked and is it public? If so, what are the 
variables the Department studies regarding causes of re-default? If the 
Department does not currently track or study this information, does it 
have future plans to do so?
    Answer 9. While default rehabilitation agreements include a 
provision that allows the Department to charge previously waived fees, 
in practice the Department does not pursue additional collection fees 
from borrowers who have re-defaulted after a successful rehabilitation.
    The Department believes that tracking the success of borrowers 
enrolled in rehabilitation is critical. We are in the process of 
analyzing preliminary numbers on borrowers who re-default and we intend 
to make data on re-defaults public in the future.

    Question 10a. How many full-time employees spend at least 50 
percent of their time overseeing the Department's private debt 
collectors' compliance with Federal and State rules and laws?
    Answer 10a. There are currently 84 full-time staff whose primary 
responsibility is conducting oversight of private collection agencies 
and servicers. Most of these staff focus on compliance with contractual 
requirements, which include adherence to Federal and State laws.

    Question 10b. Please provide a copy of the Department's Private 
Collection Agency handbook/manual.
    Answer 10b. The Department has not made the manual public based on 
the advice of the Office of the General Counsel and the Inspector 
General's Office. However, we would be pleased to provide your office 
with an opportunity to review the manual at your convenience and can 
make staff available to help answer any questions that arise from that 
review. I will instruct the Department's Office of Legislation and 
Congressional Affairs to reach out to your office to make arrangements 
for such a review upon submission of this response.

    Question 11. During the hearing, you said that you are ``deeply 
committed to ensuring that Federal Student Aid serves students well, 
serves borrowers well, and protects the taxpayer interest.'' I share 
this commitment, but in order to achieve this, FSA's staff must be able 
to hold its contractors--particularly student loan servicers and debt 
collectors--more accountable. The problems I've identified are about 
FSA's employees consistently prioritizing the interests of its 
contractors over the interests of taxpayers and students. And one of my 
concerns in this area is that there seems to be a number of FSA staff 
that have left the government and gone to work for student loan 
servicers or contractors--presenting the appearance of a revolving 
door. As Acting Secretary, you currently oversee FSA and its staff;
    Please provide a copy of your policies for employees who are 
leaving or considering leaving government service and are considering 
jobs with student loan servicers, contractors, or other entities that 
have business before FSA. Are there requirements that employees 
disclose contact or job offers from these firms? Are there requirements 
for employees to recuse themselves from work affecting these firms? Are 
there post-employment restrictions on these employees if they take jobs 
with contractors or student loan servicers? Similarly, provide a copy 
of your policies for employees who are moving from FSA contractors or 
student loan servicers into ED employment. Are there disclosure or 
recusal requirements? Please provide a list of FSA employees who have 
previously worked at an FSA contractor or a company owned by an FSA 
contractor. Please provide a list of former FSA employees who currently 
work at an FSA contractor or a company owned by an FSA contractor.
    Answer 11. Every agency, including the Department of Education, 
must ensure that the public is fully confident that the agency's 
actions are in the best interest of the public and are not--or even 
appear to be--influenced by the so-called ``revolving door.''
    Attached as Attachments B and C are the guidance documents shared 
with employees specific to seeking employment, including post-
employment rules. These documents are distributed by the Department's 
Ethics Division. As you will see from the documents, the April 15, 2014 
document provides guidance on specific laws and regulations that govern 
employment matters. The second document provides employees information 
in a conversational tone to help ensure the technical aspects of the 
laws and regulations are understood. Both documents make clear that 
there are certain restrictions on Federal employees, particularly those 
that have been involved in procurement activities.
    The Department makes clear that all new employees are subject to 
the Standards of Ethical Conduct and other ethics laws. Among other 
things, new employees are required to disqualify themselves from 
participating in particular matters involving specific parties in which 
their former employer is, or represents, a party for 1 year. In 
addition, under the Standards of Ethical Conduct and the criminal 
conflict of interest statute at 18 U.S.C.  208, employees must be 
recused from any particular matter that will have a direct and 
predictable effect on an entity with which they are seeking employment.
    Per the Procurement Integrity Act (41 U.S.C.  2101-2107), the law 
imposes job-search restrictions on Federal employees who have been 
involved in agency procurements. This means an employee who is 
participating personally and substantially in procurement for a 
contract in excess of the simplified acquisition threshold and is 
contacted by a bidder regarding non-Federal employment or is seeking 
employment with a bidder must report the contact, in writing, to his or 
her supervisor and the Designated Agency Ethics Official. Additionally, 
the employee must either reject the offer of non-Federal employment or 
disqualify himself or herself from further personal and substantial 
participation in the procurement until authorization to resume 
participation is granted in accordance with the conflict of interest 
rules (18 U.S.C.  208) on the grounds that the offeror is no longer a 
bidder or all discussions with the offeror regarding possible non-
Federal employment have terminated without an agreement for employment.
    Additionally, Section 17 of the STOCK Act requires employees who 
file public financial disclosure reports to notify the Designated 
Agency Ethics Official within three business days of commencing post-
government employment negotiations or entering into an agreement for 
post-government employment.
    The Department's hiring process has resulted in hiring staff from 
current or former vendors. We believe this has been of benefit to the 
Department as there are limited opportunities for individuals to become 
familiar with the student loan process. The Department has a thorough 
vetting process to ensure the skills and requirements of the vacant 
position meet the needs necessary for the advertised position. We 
immediately provide new hires with information as to the legal 
restrictions with respect to their interactions with their former 
employers. We do not keep a list of current or former employees that 
once worked for a contractor. However, other than the legal 
restrictions surrounding employee conduct with former employers 
(oftentimes known as the ``cooling off'' period), there are no 
restrictions in the government's hiring protocol with regards to 
applicants that once were employed by a current or former contractor.
    The Department does not require employees to provide post-
governmental employment information, nor do we track the employment 
activities of our staff once they leave the agency. Therefore, I am 
unable to provide a list of former staff that now work for a contractor 
or a company owned by an FSA contractor.
    I share your desire to ensure that the Department meets the highest 
standards of ethics and integrity, and I appreciate feedback on ways 
that the public can remain confident in the Department's work.
                     student loan debt relief scams
    Question 12. Shortly after you became the Acting Secretary, the 
Department issued cease and desist letters to a number of student loan 
``debt relief'' companies.\5\ Have these companies abided by the 
Department's request? In cases where the companies have not, how does 
the Department plan to respond?
---------------------------------------------------------------------------
    \5\ http://blog.ed.gov/2016/01/dont-be-fooled-you-never-have-to-
pay-for-student-loan-help/.
---------------------------------------------------------------------------
    Answer 12. Both companies that were sent cease and desist letters 
on January 28, 2016 no longer include the seal of the U.S. Department 
of Education on their Web sites. If companies do not comply with our 
cease and desist letters, we will work internally and with our partners 
at the Department of Justice to determine the most appropriate 
response.
                        student loan complaints
    Question 13. In April 2015, Senators Reed, Durbin, Brown, and I 
sent a letter to the Office of Management and Budget, with copies to 
the Department of Education and the Consumer Financial Protection 
Bureau (CFPB), asking the Administration to examine the feasibility of 
using the existing student loan complaint system at the CFPB for 
Federal student loans. Since that time, the Department of Education has 
announced plans to develop its own complaint system.
    What considerations were given to leveraging the CFPB's system? 
What have been the costs of developing the proposed system, and what 
does the Department estimate the costs will be going forward? When will 
the system be fully operational? How will the Department's system 
interact with the CFPB complaint system? Will the Department share all 
applicable completed complaints it receives with Consumer Sentinel? If 
not, why not? Will the complaint system be public and searchable? If 
not, why not? Will the Department ask borrowers who submit complaints 
whether they are satisfied with the outcomes? If not, why not?
    Answer 13. The Enterprise Complaint System is being developed in 
response to the directive in the President's Student Aid Bill of 
Rights, published on March 10, 2015, for the Department to ``Create a 
Responsive Student Feedback System'' to ``give students and borrowers a 
simple and straightforward way to file complaints about Federal student 
loan lenders, servicers, collections agencies, and institutions of 
higher education.'' The Student Aid Bill of Rights notes that, as a 
result of such a system, ``[s]tudents and borrowers will be able to 
ensure that their complaints will be directed to the right party for 
timely resolution, and the Department of Education will be able to more 
quickly respond to issues and strengthen its effort to protect the 
integrity of the student financial aid programs.''
    In developing the Complaint System, the Department has consulted 
with other entities including the Consumer Financial Protection Bureau, 
and others in its consideration of the design of a new system to 
leverage the knowledge and experience of other systems currently in 
use.
    The Department expects total development costs to be approximately 
$7.4 million across fiscal years 2015 and 2016. The Department has 
estimated annualized ongoing costs, including operations and 
maintenance, software licenses, and contractor customer service 
support, to be approximately $2.5 million per year. In accordance with 
the President's Student Aid Bill of Rights, the Enterprise Complaint 
System will be implemented by July 1, 2016.
    Interactions between the Enterprise Complaint System and the CFPB 
complaint system are governed by the Memorandum of Understanding (MOU) 
between the CFPB and the Department regarding Federal Student Aid (FSA) 
Ombudsman data. Cases that are determined to be related to the scope of 
the CFPB complaint system and not the Department, e.g., cases related 
to private student loans, will be forwarded to the CFPB for resolution 
through a process that is seamless to the customer. The customer will 
be informed when this occurs.
    The Department will continue to share all applicable completed 
complaints it receives with Consumer Sentinel, in accordance with 
existing processes and data-sharing agreements. The information and 
data gathered through the complaint system will also be used to aid in 
compliance reviews and improve servicer oversight.
    Although the Department recognizes the value that a searchable 
public database can provide to customers, this functionality is not 
planned for initial implementation. However, the Department is 
exploring ways to develop this capability for a future release, and 
does plan to provide reports to the public. For example, the Department 
will release an annual report on complaint data beginning in October 
2016, and is exploring the possibility of releasing standardized 
complaint data at more frequent intervals on the FSA Data Center in 
addition to improvements to the usability of the data presented, as 
well as periodic reports on significant or timely issues.
    The Department will ask borrowers who submit complaints whether 
they are satisfied with the outcomes. For technical reasons, this 
capability will not be available by July 1, 2016, but is expected to be 
included as an enhancement soon afterwards.
           borrower defense, other discharges, and corinthian
    Question 14. My last question at the hearing was about borrower 
defense to repayment and Corinthian. You said that you are committed to 
protect the interests of borrowers and taxpayers, yet the Department 
still has not established and published a policy for proactively 
identifying and reaching out to borrowers who are eligible for 
discharges. Besides borrower defense rulemaking, when will the 
Department create and make publicly available its policies for 
identifying and reaching out to borrowers who are currently eligible 
for discharges (not borrowers who might be eligible after a new rule is 
written in 2017)?
    Answer 14. Our goal is to ensure that every student who is eligible 
for relief--either because they were defrauded by their college or 
because their school closed down--receives every penny of the debt 
relief they are entitled to in an efficient manner. For students who 
may be implicated by our findings of wrongdoing by schools, we have 
engaged in multiple rounds of e-mail or postal mail outreach to notify 
borrowers that they may be eligible for relief. For example, last month 
we sent out nearly 50,000 followup e-mails to Heald borrowers that 
included links to the form that borrowers could fill out to seek 
relief. We tested different subject lines to see which would create the 
highest e-mail open rate. Preliminary data about the open rates for 
these e-mail outreach campaigns show they are performing relatively 
well.
    However, we still are not satisfied with the response and plan to 
begin another round of postal mail outreach, which will include a copy 
of the attestation form for Heald students and a return envelope.

    Question 15. Please provide the guidance that the Department 
currently gives student loan servicers regarding borrower defense 
discharges, closed school discharges, and other student loan 
discharges.
    Answer 15. The goal of the Department's direction to student loan 
servicers regarding discharges is aimed at ensuring borrowers 
understand the options available to them to obtain relief on the loans 
eligible for discharge. We would be pleased to further discuss our 
guidance to the student loan servicers in a meeting with you or your 
staff.

    Question 16. Is the Education Department advising the Treasury 
Department not to garnish wages or offset Federal payments for students 
attending schools where the Department of Education has an open 
investigation into potential misconduct?
    Answer 16. No. The Treasury Department administers the Federal 
offset program, and we would direct any questions related to program 
operations to that Department.

    Question 17. The Treasury Department is conducting a debt 
collection pilot program in coordination with the Department of 
Education to examine if debt collection should be brought in-house 
rather than managed by private contractors. Is the Department of 
Education working with Treasury to ensure that no students eligible for 
relief under borrower defense to repayment have their wages garnished 
through this joint debt collection pilot program?
    Answer 17. The Department of Education and the Treasury Department 
have discussed Treasury's debt collection pilot. Although we have not 
specifically discussed whether students eligible for relief under 
borrower defense to repayment should have their wages garnished, we are 
in regular contact about the debt collection pilot, and I will be sure 
to keep your views in mind as we continue through this process.

    Question 18. Federal Student Aid has provided information on its 
Web site suggesting that former Corinthian Colleges students seeking to 
assert a defense to repayment on their loans should submit 
``transcripts and registration documents indicating your specific 
program of study and dates of enrollment.'' However, in June 2015, a 
lawyer representing Corinthian warned that the records of former 
students might soon be abandoned. What is the Department of Education 
doing to ensure that former students of the now defunct Corinthian 
Colleges--or future schools that go out of business--can actually track 
down copies of the documentation the Department requests?
    Answer 18. Prior to a closure, institutions are required to make 
accommodations for the storage and maintenance of student records and 
for communicating information about the location of academic 
transcripts and records once the location has been determined. 
Additionally, closed institutions are required to provide State 
licensing agencies with information regarding the location of those 
student records.
    In the case of Corinthian and other institutions that have recently 
closed, the Department worked closely with the requisite State 
licensing agencies to ensure information regarding the location of 
student records was widely available but, ultimately, the storage and 
maintenance of student records rests with the State licensing agencies.
    When Corinthian closed, the school directed students who needed 
transcripts to their State authorizing agencies. This reflects the 
important role States have in authorizing institutions to operate 
within their borders, as well as in protecting consumers. The 
Department looks forward to a continued partnership with State 
authorizing agencies for such situations.
                   college accountability/for-profits
    Question 19. Many of us have expressed concern that the Department 
of Education failed to shut off the spigot of Federal aid to Corinthian 
when it should have despite overwhelming evidence that it was cheating 
its students. There are currently dozens of State and Federal 
investigations and lawsuits into other predatory schools like 
Corinthian. I commend the Department for setting up its new enforcement 
unit to better address these types of problems, but my understanding is 
that the enforcement unit will report to Federal Student Aid.
    Why does this unit, which will include borrower defense, report to 
FSA, whose mission is to maximize collections for the student loan 
program? Would you be open to having this enforcement unit report 
directly to you?
    Answer 19. The Department has a track record of taking aggressive 
action against bad-acting schools when it has evidence; several such 
actions have been taken quite recently. In the most recent case of 
Corinthian Colleges, the FSA's efforts resulted in findings of 
misrepresentation by the colleges that led to progressive sanctions and 
eventual closure. Still, FSA and other Federal agencies, including the 
Government Accountability Office and the U.S. Securities and Exchange 
Commission, have highlighted the need to build FSA's institutional 
enforcement capacity significantly, which led to the creation of the 
Enforcement Unit.
    The Department decided to organize the new enforcement unit in 
Federal Student Aid for several reasons. First, many cases that the 
Enforcement Unit could investigate include issues that are found via 
the routine institutional review processes conducted by FSA's Program 
Compliance unit. Placing the Enforcement Unit within FSA will foster 
close coordination and collaboration between these units, enhancing 
information flows that are often critical to conducting effective 
investigations. Second, as the Enforcement Unit is built out, Federal 
Student Aid, as a Performance Based Organization, has more flexible 
hiring authorities, thus enhancing our ability to put in place a strong 
leadership team and staff. Third, the Enforcement Unit will be an 
independent part of Federal Student Aid and Robert Kaye, the head of 
the Enforcement Unit, will report directly to the Chief Operating 
Officer of FSA under the overall management of Under Secretary Ted 
Mitchell. I am confident that our leadership team throughout the 
Department understands and will implement my vision for a strong, 
rigorous and effective compliance and enforcement regime that will 
better protect students.

    Question 20. The Department of Education has the authority under 
the Higher Education Act to claw back the compensation of executives of 
colleges and universities should that school be found to not be 
financially responsible under the general standards and provisions in  
668.171. If confirmed, will you be willing to use this authority?
    Can you please provide all the instances in the last 5 years where 
the Department has exercised this authority, including details on each 
individual subject to a claw back and how much compensation was 
collected in each instance?
    Answer 20. In certain limited situations, ED has the authority to 
require financial guarantees from or the assumption of liability by 
owners, board members and executives of an institution with regard to 
liabilities to/financial losses of the United States, student 
assistance recipients or other program participants. 20 U.S.C. 
1099c(e). We have not used this authority in the last 5 fiscal years; 
the HEA limits the imposition of these types of consequences only to 
certain, narrowly defined, cases. We'd be pleased to talk with you or 
your staff about other possible authority in this area.

    Question 21. The Department currently has other tools to hold 
predatory schools more accountable. Currently, when an institution's 
cohort default rate exceeds 30 percent, the institution must create a 
task force and develop a default management plan.
    Please provide a list of all institutions that have developed a 
default management plan and the outcomes of such plans on default 
rates. What have been the features of successful default management 
plans?
    Answer 21. We are continuing to collect these data, and will 
supplement these responses as soon as possible.

    Question 22a. Colleges are subject to a number of rules that 
require judgment by you as the Secretary of Education. For each of the 
following authorities, please list each instance in which Department 
has used that authority in enforcement actions.
    Rules that prohibit an institution from making ``any statement that 
has the likelihood or tendency to deceive'' students ``about the nature 
of its educational program, its financial charges, or the employability 
of its graduates.'' (34 CFR 668.71)
    Answer 22a. The spreadsheet attached as Attachment D reflects 
administrative actions taken in the last 5 fiscal years that were based 
on non-compliance with 34 CFR  668.71 concerning misrepresentations as 
outlined in the regulations and as further defined in  668.72-668.74 
regarding the nature of educational programs, nature of financial 
charges, and employability of graduates.

    Question 22b. Rules that require an institution to provide 
``adequate'' counseling to students regarding students' ``rights and 
responsibilities . . . with respect to enrollment at the institution.'' 
(34 CFR 668.16)
    Answer 22b. This request specifically refers to paragraph (h)(3) of 
the administrative capability standards under 34 CFR  668.16. We did 
not have any adverse actions in the last 5 fiscal years that were based 
upon this specific ground.

    Question 22c. Rules that require an institution to ``act with the 
competency and integrity necessary to qualify as a fiduciary'' on 
behalf of taxpayers, ``in accordance with the highest standard of care 
and diligence.'' (34 CFR 668.82)
    Answer 22c. While all enforcement actions inherently result from a 
failure to meet the fiduciary standard of conduct, the adverse actions 
in the spreadsheet attached as Attachment E specifically reference the 
fiduciary standard of conduct set forth in 34 CFR  668.82.

    Question 22d. Rules that require an institution to administer 
Federal aid ``with adequate checks and balances in its system of 
internal controls.'' (34 CFR 668.16)
    Answer 22d. This request regarding adverse actions is based upon 
the administrative capability standards outlined in 34 CFR  
668.16(c)(1), which requires that institutions administer Federal aid 
with adequate checks and balances in its system of internal controls. 
The spreadsheet attached as Attachment F specifically outlines adverse 
actions in the last 5 fiscal years that were based on that particular 
ground.

    Question 22e. Rules that prohibit an institution from receiving 
Federal aid if ``any criminal, civil, or administrative proceeding'' 
reveals ``evidence of significant problems that affect . . . the 
institution's ability to administer'' Federal aid. (34 CFR 668.16)
    Answer 22e. The administrative capability standards at 34 CFR  
668.16(j) has two sections. The information requested related to 34 CFR 
 668.16(j)(2). We did not have any adverse actions in the last 5 
fiscal years that were based on this specific ground.

    Question 23a. Colleges submit independent annual audits that, under 
the audit guide, are supposed to check for possible violations of the 
incentive compensation rule, among other things. Do the audits that the 
Department receives include evidence of a college's compliance with the 
incentive compensation rule?
    Answer 23a. Yes, for audits that include a finding questioning a 
school's compliance with the incentive compensation provisions, they 
will have that specific finding identified. The auditor's finding will 
explain the violation. In this sense, the audit and the finding provide 
``evidence'' of the institution's possible violation.

    Question 23b. Please list all instances in which a school has 
reported violations or possible violations of the incentive 
compensation rule and how the Department responded in each instance.
    Answer 23b. The spreadsheet attached as Attachment G reflects in 
the comment section how the Department responded to each identified 
violation/possible violation of the incentive compensation rules during 
the relevant time period.

    Question 23c. Are there any rules are regulatory safe-harbors that 
currently prevent the Department from fully enforcing the incentive 
compensation rule?
    Answer 23c. This Administration successfully removed through 
regulations all of the safe harbors that previously plagued meaningful 
enforcement of the incentive compensation ban. In addition, it withdrew 
a directive put in place by the prior Administration that directed the 
Office of Federal Student Aid to avoid recovering student aid dollars 
that were improperly received as a result of illegal recruitment 
activity and, instead, seek to fine institutions for noncompliance. 
There remains at least one False Claims Act case that was initiated 
under the prior regulatory regime, which has been made more complicated 
because of these prior rules. Going forward, the Department has no 
current regulatory barriers to fully enforcing the ban. In 2015, ED 
also repealed a Bush administration directive that inhibited ED's 
enforcement of the statutory ban on incentive compensation and re-
trained enforcement staff to utilize ED's full authority to hold 
violating colleges accountable.

    Question 24. The Department's auditors are expected to look for 
risk indicators, including those listed below. How do the auditors 
assess these indicators and how do the auditors respond when the audits 
indicate a potential problem?

    <bullet> Rapid growth in a short period of time.
    <bullet> Use of high-pressure recruitment tactics.
    <bullet> High turnover of management, faculty, and other staff.
    <bullet> Large number of students dropping/withdrawing after the 
last date when funds would have to be returned to the Education 
Department.
    <bullet> High student enrollment but low student attendance.
    <bullet> High rate of withdrawals or defaults.
    <bullet> Signs of inadequate or overworked faculty.

    Answer 24. Audits of for-profits institutions are conducted in 
accordance with the OIG Audit Guide, ``Audits of Federal Student 
Financial Assistance Programs at Participating Institutions and 
Institution Servicers (http://www2.ed.gov/about/offices/list/oig/
nonfed/sfgd2000.pdf).'' Audits of private non-profits and public 
institutions are conducted in accordance with the OMB A-133 Compliance 
Supplement (https://www.whitehouse.gov/omb/circulars/
a133_compliance_supplement_2015). The audits are submitted to the 
Department for resolution of the findings that have been identified. 
The testing procedures provided in the audits do not provide the level 
of detail to respond to this question.

    Question 25. The audit guide has not been updated since 2000. If 
you are confirmed, when will the Department update this audit guide?
    Answer 25. The Office of Inspector General (OIG) is responsible for 
issuing the ``GUIDE FOR AUDITS OF PROPRIETARY SCHOOLS.'' The OIG 
intends to issue the updated guide by the end of April 2016.

    Question 26. The Higher Education Act was amended in 2008 to 
require Education Department investigators to share their findings with 
colleges before ever notifying the public of the exposed problems, and 
permanently prohibits public disclosure of those original investigator 
findings.
    How is this provision affecting the Department's ability to act on 
its findings, and on the type and timing of information that is 
available to the public? What types of changes have been made to 
program reviews before they have been made public?
    Answer 26. The HEA prohibits the public disclosure of a program 
review report until an institution has had an opportunity to respond 
and a final determination is issued. However, the final determination 
which becomes public includes a copy of the program review report with 
the original findings. This provision does not impact the Department's 
ability to act on its finding. It does delay program review information 
being publicly available.
    Changes are not typically made to a program review report that has 
been issued to the institution. Those that are made are generally to 
correct an administrative error. Even findings that are resolved remain 
in the report and the final determination will indicate that the issue 
has been satisfactorily resolved. Final Program Review Determinations 
are posted on the FSA Data Center.
                        legal rights of students
    Question 27. Many predatory schools require forced arbitration 
clauses, prevent students from joining together with other students to 
file complaints, or take other steps to limit students' recourse and 
prevent regulators and law enforcement agencies from gaining 
information about these students. What steps is the Department taking 
to ensure that students who enroll in college are not forced to sign 
away their legal rights, and that the Department and other agencies 
have timely information about complaints and disputes?
    Answer 27. It is absolutely critical that students are able to 
obtain redress if they have been taken advantage of by bad actors. The 
Department recently established an Enforcement Unit which will beef up 
oversight over higher education institutions, and, as part of the 
President's Student Aid Bill of Rights, we will be launching a state-
of-the-art student feedback and complaint system by July 1, 2016. 
Regarding your specific question, we share your concern about avenues 
for adequate legal remedy being restricted for students and borrowers 
and we are looking broadly at how students can pursue disputes, and we 
will include the specific issue you raise--of students being forced to 
sign away their legal rights--in our analysis and efforts. We plan to 
report on the progress of this work in the coming months.
                             accreditation
    Question 28. You spoke briefly about accreditation in response to a 
question from Senator Murphy.
    How will you ensure that accreditation agencies are proactively 
protecting students during upcoming National Advisory Committee on 
Institutional Quality and Integrity (NACIQI) review hearings?
    Does the Department have the legal authority to ask for and obtain 
accreditation team reports and self studies? If yes, when will the 
Department work to make these public? If not, please provide me with 
the legal rationale for why that is not the case.
    Does the Department have the legal authority to require accreditors 
to disclose accreditation team reports, self studies, or at least the 
personnel who participate in team visits? If yes, when will the 
Department work to make these public? If not, please provide me with 
the legal rationale for why that is not the case.
    Has the Department obtained or will it obtain and publish any of 
the accreditation documents related to Corinthian Colleges, FastTrain, 
Westwood, or other large college companies that have closed in recent 
years or are in the process of closing?
    Answer 28. The Department shares many of the concerns that Members 
of Congress have raised about accrediting agencies.
    Accrediting agencies must play a key role in ensuring quality in 
post-secondary education and protecting students. The Department's 
Office of Post-Secondary Education (OPE) provides recognition, 
oversight, and monitoring of accreditation agency compliance with 
statutory and regulatory requirements. In addition to the ongoing 
accreditation oversight that OPE has provided, the Department announced 
a number of executive actions in November 2015 to improve transparency, 
accountability, and focus on student outcomes in its recognition and 
oversight processes.
    The Department is taking a number of steps in order to better 
inform staff and NACIQI recommendations, particularly related to 
student outcomes and problematic institutions. First, the Department 
has made publicly available, via its Web site, performance data for 
institutions sorted by accreditor, as well as information regarding 
each recognized accrediting agency's student achievement standards. At 
its last NACIQI meeting, NACIQI expressed interest in incorporating 
these data into its review processes for the June 2016 meeting. Toward 
this end, NACIQI adopted a plan for the June 2016 meeting which 
includes analysis of key data points that NACIQI wishes to include as 
part of its review of accrediting agencies, and NACIQI identified 
questions regarding student achievement measures that it will pose to 
agencies in a systematic format. In addition, Department staff 
incorporate the number of complaints received for each accrediting 
agency and provides that information to NACIQI.
    All of these actions, taken together, are increasing accountability 
of agencies for the performance of their institutions. We also make the 
documents collected in the agency recognition process available to the 
public for inspection in accordance with the Federal Advisory Committee 
Act. This includes accreditation team reports and self-studies provided 
by agencies to the Department.
    The Department is working to conduct a rigorous review of the 
accreditors scheduled for re-recognition in June 2016, including some 
that accredited recently closed institutions. The Department is 
gathering relevant information that will inform staff and NACIQI 
recommendations. We will continue to work to strengthen accreditation 
and ultimately ensure high-quality options for students.
    As you know, in addition to the executive actions we are taking to 
strengthen accreditation, the Administration has called for legislative 
action to advance a focus on student outcomes in accreditation. We look 
forward to continuing to work with you and your colleagues on this 
effort.
                                  tcpa
    Question 29. In December 2015, Senators Lee, Markey, Hatch and I 
sent your predecessor a letter to express our concerns about using 
``robocalls'' to collect student loan debt.\6\ While a caller must 
generally have a person's consent before using autodialers and pre-
recorded messages to ``robocall'' the person's cell phone or 
residential line, Title III of the Bipartisan Budget Act of 2015 
creates an exemption allowing anyone to robocall a person's phone--
without consent--for the purpose of collecting a debt owed to or 
guaranteed by the Federal Government.
---------------------------------------------------------------------------
    \6\ Letter from Senators Elizabeth Warren, Michael S. Lee, Edward 
J. Markey and Orrin G. Hatch to Hon. Arne Duncan, Secretary, U.S. 
Department of Education (Dec. 21, 2015) available at http://
www.warren.senate.gov/?p=press_release&id=1038.
---------------------------------------------------------------------------
    Our letter asked the Department not to use this new authority until 
the Department can demonstrate with data that robocalling is in the 
best interest of student loan borrowers and taxpayers and will not 
result in abusive debt collection practices. The Department's response 
dated February 24, 2016 indicated that the Department would ``provide a 
detailed cost-benefit analysis and burden assessment [] in accordance 
with Executive Orders 12866 and 13563.'' In other words, the Department 
responded to our request for this specific data with a commitment to 
conduct a general cost-benefits analysis that agencies must provide 
anyway as part of a rulemaking process.
    In addition, our letter asked two questions: whether the Department 
agrees with our reading of the Bipartisan Budget Act of 2015 that 
robocalling is not permitted until after the Federal Communications 
Commission (FCC) has issued implementing regulations; and whether the 
Department interprets the new authority to permit robocalling to the 
relatives and references of student loan borrowers. The Department 
responded that it has not concluded its ``review of implementation 
issues'' and that the Department ``has not developed guidance on the 
scope of the authority under Title III.'' In other words, the 
Department did not answer our questions.
    Given the Department's inadequate response, I ask again for the 
Department to provide the data requested in our letter and answers to 
our questions--specifically:

    Will you commit to not permitting robocalling under this authority 
until the FCC issues implementing regulations? Will you commit to 
ensuring that this authority cannot be used to robocall relatives or 
references who may be secondarily responsible for student loan debt? 
Will you commit to providing the data we requested, rather than simply 
committing to conduct the standard cost-benefit analysis?
    Answer 29. We continue to support efforts to protect borrowers from 
harassing phone calls and recognize the important role the TCPA plays 
in safeguarding consumers from excessive, unsolicited phone calls. 
Shortly after the Bipartisan Budget Act of 2015 was passed, we sent a 
notice to our servicers to not implement any changes related to the 
TCPA provision. The Department will not permit robocalling under this 
authority until the FCC issues implementing regulations and we will not 
allow our servicers to use this authority to robocall relatives or 
references who may be secondarily responsible for student loan debt.
    Regarding data and analysis to show whether this is in the public 
interest, we are determining the best way to be responsive to this 
request and plan to followup with your staff and staff of other 
interested offices.
    Please contact Josh Delaney (202-224-4543) in my office if you have 
any questions.
    [Editor's Note: The attachments indicated above were not available 
at time of print.]
                 additional questions of senator warren
Regarding the Department's Review of Student Loan Servicers and the 
Education Inspector General 3/1/2016 Report. See http://www.ed.gov/
about/offices/list/oig/misc/scrareport02292016.pdf.

    Question 1. How and why did the Department make the decision not to 
rely on DOJ's and the FDIC's investigation, and instead conduct 
separate reviews of Navient's conduct to determine whether Navient 
should be subject to penalties in the student loan program as a result 
of its settlement with DOJ and the FDIC?
    Answer 1. The misconduct of Sallie Mae/Navient that was alleged by 
the Justice Department and the Federal Deposit Insurance Corporation 
was disturbing, and the Education Department was greatly concerned by 
this development. While the Department worked closely with the Justice 
Department in developing the relief provided to Federal student loan 
borrowers under the Consent Order, under the Department's contracts 
with loan servicers, we needed to determine whether Navient had 
complied with the terms of that contract, the HEA and regulations, and 
the guidance we provided to determine if we had a legal basis to take 
any action under the contract. Additionally, while working with Justice 
on the Consent Order we discussed how to apply the procedures required 
of Navient going to other servicers and to the FFEL Program. As a 
result, the Department issued new guidance to ensure that 
servicemembers could automatically receive the interest rate reduction 
on their Federal student loans and operationalized that guidance to 
ensure that every servicemember is guaranteed the benefits to which 
they are entitled on their Federal student loans under the 
Servicemembers Civil Relief Act.

    Question 2. Given that neither the Department of Education nor its 
Office of Federal Student Aid--the Department's student loan bank--
administers or enforces the SCRA, why was this review conducted by the 
Office of Federal Student Aid, and not a certified auditor with SCRA 
expertise or an arm of the Department that does not regularly engage 
with student loan servicers?
    Answer 2. Every office within the Department, including offices 
within the Office of Federal Student Aid, is deeply committed to 
protecting the interests of students and borrowers.
    The Department's review was to determine whether or not the 
servicers were in compliance with the requirements of the Higher 
Education Act, our regulations and guidance, and the servicers' 
contracts with the Department. That expertise is in Financial 
Institutions Oversight Service Group (FIOS), which is located within 
the Office of Program Compliance, a separate component within FSA that 
is not involved in the business operations of the loan servicers. FIOS 
is responsible for monitoring the servicers' compliance with the 
statutory and regulatory requirements for the Federal loan programs. 
Federal Student Aid did engage a certified auditor, CPA firm Ernst & 
Young, to conduct an independent review. The results of the Ernst & 
Young review aligned with those of the FIOS review. We are in the 
process of reviewing the OIG's recommendations to determine what 
additional action can be taken.

    Question 3. Did the Office of Federal Student Aid seek input on the 
scope of the review from the Department of Justice or the Consumer 
Financial Protection Bureau's Office of Servicemember Affairs, or from 
elsewhere in the Department of Education?
    If not, why not? If so, how did their input factor into the program 
review?
    Answer 3. The Department worked closely with DOJ to understand the 
scope of its review and the differences between our compliance standard 
applicable under our contracts and the standard DOJ incorporated into 
the Consent Order.
    Since the scope of the Department's review was significantly 
different from the scope of the action taken by DOJ, neither DOJ nor 
CFPB was contacted regarding the scope of the FSA review.
    More broadly, the Department has benefited from a close working 
relationship with both the Department of Justice and the CFPB, and will 
continue to look for ways to ensure our oversight responsibilities meet 
the highest standards for servicemembers, students, and borrowers by 
seeking opportunities to incorporate the expertise of other agencies 
where they may have relevant expertise. As an example, most recently, 
the Department's FSA has added an enforcement unit that includes a 
focus on protecting Federal student loan borrowers headed by Robert 
Kaye, one of the Nation's top enforcement attorneys and a leader in the 
consumer protection work at the Federal Trade Commission. In addition, 
Mr. Kaye coordinates enforcement activities with the Department's 
Office of the Inspector General.

    Question 4. When the Department was first briefed by both the 
Consumer Financial Protection Bureau and Department of Justice on 
possible SCRA violations by Sallie Mae/Navient? When did officials at 
the Department of Education know the details of the DOJ's May 13, 2014 
announcement?
    Answer 4. The Department is in regular contact with partner 
agencies, particularly our Federal law enforcement agencies, such as 
the Department of Justice and the CFPB. We continue to strengthen our 
cooperation through strong Memoranda of Understanding with such 
agencies that allow for greater information sharing to aid in 
investigative efforts. And we lead an interagency working group under 
the Principles of Excellence for Educational Institutions Serving 
Service Members, Veterans, Spouses, and Other Family Members focused on 
ensuring better educational resources and strong protections for our 
Nation's military families.
    While it was before I arrived at the Department, my understanding 
is that the Department first learned about the Department of Justice's 
investigation and findings of Sallie Mae's compliance with the SCRA 
during the summer of 2013. The Department learned about the details of 
the investigation during a series of communications primarily with the 
Department of Justice. As noted in the Department of Justice's press 
release of May 13, 2014, the Department of Justice's settlement with 
Navient was the product of a joint effort with the Department of 
Education, the Consumer Financial Protection Bureau and the Federal 
Deposit Insurance Corporation. The Consent Order that resulted from the 
settlement was negotiated over a period of months and the Department of 
Justice consulted with the Department of Education throughout that 
period.

    Question 5. For each of the following reviews, who oversaw the 
first FIOS review of Navient, the second FIOS review of Navient, and 
the review of the other three TIVAS? How many full-time FSA and/or non-
FSA employees were assigned to and/or worked on each of these three 
reviews? How was the methodology for each of these three reviews 
established and reviewed? Who set the parameters for the methodology 
and sampling methods for each of these three reviews?
    Answer 5. As with all reviews, Departmental employees receive 
training and guidance on conducting appropriate compliance activities 
in order to protect the interests of students, borrowers, and 
taxpayers. The reviews were managed by the Director of the Financial 
Institution Oversight Service Group. The Department's internal review 
was undertaken by 15 employees in FSA's Program Compliance office.
    The methodology was established based on the Department's 
requirements--mirroring statutory requirements of the SCRA--that 
borrowers request in writing the SCRA interest rate and provide a copy 
of their military orders. For the first review, FIOS relied on more 
limited data that were accessible in NSLDS to conduct the four TIVAS 
reviews in the timeframe provided. Since FSA's first review of Navient 
resulted in substantially different results than DOJ, FSA management 
wanted to do a second review utilizing the data match. We also engaged 
a CPA firm, Ernst & Young, to conduct an independent review. Ernst & 
Young selected a sample from the results of a data match with DMDC. 
FIOS used this same sample to conduct the second review. Despite the 
DMDC match used for the second review--and the threefold sample size 
increase--the second review identified the same results as the first 
review.

    Question 6. What policies and procedures guide FIOS' approach to a 
review such as these, and how are these policies and procedures similar 
to the reviews of other Department guaranty agencies, private debt 
collectors, contractors, and other financial institutions? Is it the 
Department's policy that a certain number of mistakes are appropriate 
from its servicers? What number and scope of mistakes would warrant 
punitive action against a servicer?
    Answer 6. FSA has policies and procedures to guide oversight 
activities, such as those related to the review of the TIVAS for 
compliance with SCRA-related regulations and guidance under the Higher 
Education Act. This review was not designed to be a formal statistical 
study. Rather, it was to review data for management's assessment of 
compliance and to determine the need for corrective or other actions.
    In certain situations, the Department can assess fines, such as 
when a guaranty agency's or lenders' violation, failure, or substantial 
misrepresentation is material and the entity knew or should have known 
that its actions violated the provisions of the HEA or Department's 
regulations. In the case of a violation by a contractor, the Department 
can pursue remedies available under the contract.
    Typically, if the cause of any instances of noncompliance were 
systemic in nature, such as a lack of controls, inaccurate controls, or 
a system coding issue, then the entity is instructed to take corrective 
actions, including adjusting individual accounts or implementing 
accurate controls or system changes. If FSA determines that the nature 
of the noncompliance is severe or willful, the Department may seek 
additional remedies, including contract termination.
    In addition, later this year, the Department will begin a new loan 
servicing procurement process to create a limited set of streamlined, 
consistent systems and processes that will allow Department staff to 
more effectively manage and oversee vendors' performance, leading to 
better outcomes for borrowers. Providing high quality service to 
servicemembers, and ensuring they receive all benefits to which they 
are entitled, will be among our top priorities.
    We appreciate any feedback you may have related to our policies and 
procedures as we consider steps to ensure that the Department's reviews 
of financial institutions meet the highest standards.

    Question 7. Was the first Navient review (initiated June 2014) 
completed, or merely stopped before completion? If it was stopped, then 
why was it stopped? Who made the decision to stop it?
    Answer 7. The review was completed.

    Question 8. Please provide the results of the first Navient review 
and explain why its existence and its content have not been previously 
disclosed to the public. If the review was not completed, then please 
provide materials produced as part of the review.
    Answer 8. For the first Navient review, the sample was selected 
from a National Student Loan Data System (NSLDS) population of 33,837 
unique records of military deferment and military grace periods granted 
from June 17, 2009, through April 14, 2014, for FFEL Program and Direct 
Loan Program loans owned by the Department with an interest rate in 
excess of 6 percent that were serviced by Navient under the TIVAS 
contract. The DMDC match was not available at that time, and the NSLDS 
selection criteria were used to yield a more likely population of 
borrowers to have requested the SCRA benefit. The review identified one 
borrower out of the sample being incorrectly denied.
    The second review was conducted using the DMDC data match, which 
was unavailable when the first review was conducted. FSA decided to 
initiate a second review utilizing the data match. The second review, 
based on the larger sample, also identified one borrower that had been 
incorrectly denied. Since the second review was based on the larger 
DMDC data match and resulted in similar results as the first review, we 
had greater confidence in the results and focused efforts on the 
development of a public report on this second review.

    Question 9. Why didn't FIOS attempt to determine whether the TIVAS 
has information in their own servicing systems that could have helped 
them to identify a complete universe of servicemembers who might be 
eligible for the SCRA benefit? Why didn't the FIOS review of Great 
Lakes, PHEAA, and Nelnet use the Defense Manpower Data Center to 
identify potential SCRA-eligible servicemembers?
    Answer 9. The Department appreciates the importance of 
understanding the architecture of key servicing systems used by the 
TIVAS. This understanding helps to inform data sources for conducting 
oversight activities.
    Regarding your specific question, FIOS reviewed DOJ's sampling 
method and understands that Deloitte, on behalf of DOJ, first 
identified a population by matching the Navient borrowers against DMDC. 
They then determined if the borrower's active duty was in scope, then 
removed loans with an interest rate less than 6 percent or loans that 
were not eligible because they were originated during the borrowers 
active duty.
    From that they matched the population against Navient's imaging 
system to determine if any of the borrowers had a military document in 
the system (as designated by a code). Deloitte then manually reviewed 
the files of 12,400 borrowers (their ``sample''), and only 2,800 
borrowers had both orders and a notice in the file, even after using 
the data that Navient had in their imaging system. Therefore FIOS 
believed the data in the imaging system was not sufficient to identify 
the population of eligible servicemembers.
    If, as stated by the OIG, Navient instituted a computer system code 
as a result of the settlement, that code would not have been effective 
during the time of the first FIOS Navient review because the settlement 
had not been implemented. Although FIOS did not inquire directly of the 
other three servicers as to whether there was information in their 
system to identify SCRA eligible borrowers, FIOS did have a familiarity 
with these systems and did not believe that to be the case.
    During the time that the reviews were being performed, July/early 
August, 2014, Great Lakes, PHEAA and Nelnet had not yet fully 
implemented the data match. FIOS' goal at the time was to provide a 
timely response to inform management's assessment prior to the full 
implementation of this data match; however, FIOS did not have ready 
access to the information. In addition, based upon the results of the 
two Navient reviews, we concluded that there was not a meaningful 
difference between using the DMDC data base or NSLDS.

    Question 10. What percentage of servicemembers with Federal student 
loans are in military grace periods or deferment at any given time?
    Answer 10. We are continuing to collect these data, and will 
supplement these responses as soon as possible.

    Question 11. How much was Ernst and Young paid to corroborate the 
FIOS reviews of the TIVAS? Please provide copies of the contract, 
guidance, and directive that FIOS/FSA gave Ernst and Young. Did Ernst 
and Young ever raise concerns about the FIOS methodology? If so, what 
were those concerns and who received them? How did the Department 
respond to these concerns?
    Answer 11. Ernst and Young (EY) was paid $94,471.00 to offer its 
independent perspective. A copy of the contract and RFP are attached. 
In order to maintain independence, EY did not have a copy of the FIOS 
review methodology.

    Question 12. Why did the Department assert in its May 26, 2015 
press release that its reviews showed violations in ``less than 1 
percent of cases'' when the ``acceptance'' sampling methodology used by 
FIOS to analyze the non-Navient services makes it impossible to draw 
such conclusions? \2\ Who at FSA approved the substantive content of 
the May 26, 2015 press release? Does he or she still oversee financial 
institution oversight or compliance?
---------------------------------------------------------------------------
    \2\ http://www.ed.gov/news/press-releases/us-department-education-
completes-review-major-student-loan-servicers.
---------------------------------------------------------------------------
    Answer 12. Improving transparency in all we do is an important 
principle for the Department and I am very committed to it. We are 
currently reviewing the facts of this situation and the findings of the 
Inspector General. We will followup with your staff to provide a more 
detailed response.

    Question 13. Why did the Department assert in its May 26, 2015 
press release that its reviews showed violations ``in less than 1 
percent of its cases'' when the small sample and methodology of its 
sampling design preclude the reporting of a statistically valid 
aggregate denial rate, and its own reported raw data indicated 
incorrect denials in 8 percent of reviewed cases? Why did the 
Department combine the program review of all four TIVAS in its May 26, 
2015 press release?
    Answer 13. We summarized the reviews to provide a brief and simple 
explanation of the results. Our summary was not based on only those 
borrowers who applied for the SCRA interest rate cap. We modeled our 
review after the universe that DOJ used which was all eligible 
servicemembers; not only those who applied.
    We also provided in the press release a link to all of the 
underlying reports completed in order to provide all of the details 
about the reviews to be fully transparent.

    Question 14. Why did the dataset FIOS used to review PHEAA 
compliance with SCRA not exclude the more than 50 percent of reviewed 
loans for which borrowers could not benefit from the 6 percent interest 
cap?
    Answer 14. This is attributable to error. The sample was pulled 
incorrectly, and although the borrower's primary loan had an interest 
rate of 6 percent or less, some of the borrowers had secondary loans 
that had interest rates greater than 6 percent, so the actual number of 
borrowers with all loans having an interest rate of 6 percent or less 
was 16.

    Question 15. Why did the second FIOS analysis of Navient credit 
Navient with providing SCRA benefits to three servicemembers who did 
not receive those benefits during the designated review period, and 
only received them after the review period as the result of new SCRA 
compliance procedures implemented in the wake of the Navient SCRA 
scandal?
    Answer 15. The borrowers were correctly included in the sample and 
therefore should have been in the program review, but the borrowers 
should not have been reported as having requested and been granted the 
benefit. This situation had no impact on the number of borrowers 
incorrectly denied within the sample. Ernst & Young was also engaged to 
provide assurance regarding the accuracy of the results, mitigating any 
potential errors by staff in the first review.

    Question 16. Second Navient Review Methodology: a. Did this review 
sample at the loan level or the borrower level? b. What was the 
rationale for the sample design? c. What was the expected deviation 
rate for the sample design? d. What was the tolerable deviation rate 
for the sample design? e. What was the expected precision for the 
sample design? f. Why has the Department never previously disclosed the 
level of the review sample, the rationale for the sample design, the 
expected deviation rate for the sample design, the tolerable deviation 
rate for the sample design, and the expected precision for the sample 
design? g. Why didn't FSA consult with or use a statistician to assist 
with designing the sample it used in its program reviews?
    Answer 16. Improving transparency in all we do is an important 
principle for the Department and I am very committed to it. We are 
currently reviewing the facts of this situation and the findings of the 
Inspector General. We will followup with your staff to provide a more 
detailed response.

    Question 17. Why didn't FIOS recommend that all of the TIVAS--
especially PHEAA and Great Lakes, whose program reviews identified SCRA 
compliance errors--review their borrowers to identify and correct all 
potential instances of incorrect denial of the SCRA interest rate cap? 
What corrective actions did FSA recommend for SCRA noncompliance with 
these two servicers?
    Answer 17. As a result of our oversight work and engagement with 
our partner agencies, the Department has taken a series of steps to 
ensure that any borrower who may have been improperly denied relief 
will receive the benefit.
    Recently, the Department has directed our servicers to review their 
SCRA records, going back to the start of their contracts, to determine 
whether there were any instances of servicemembers being improperly 
denied the SCRA benefit based on the guidance that existed at that 
time. In addition, I am pleased to report that we have initiated a 
process to conduct a data match, based on current guidance, to 
automatically provide credit for any servicemember who was on active 
duty since Federal student loans became eligible for the benefit in 
2008, including servicemembers who did not apply for the benefit.
    Importantly, servicers were also directed to develop and implement 
internal controls to prevent future errors. See the response to 
Question 25 for additional actions taken by the Department to protect 
servicemembers.

    Question 18. Why didn't FIOS ask the TIVAS for a sample of SCRA 
benefit denials?
    Answer 18. Based on its knowledge of the servicers' systems, FIOS 
did not believe that the servicers' databases contained data related to 
SCRA benefit eligibility or denials. This has been confirmed by FSA 
Business Operations. We wanted to look at all instances of compliance 
and non-compliance with the SCRA-related regulations under the Higher 
Education Act.

    Question 19. The Department of Education told the Inspector General 
that ``it was a management decision not to require further [TIVAS] 
corrective actions for the periods reviewed.'' The Department also said 
that this decision was ``not primarily based on a statistical 
analysis.'' Please explain how this decision was made, who made it, and 
what factors formed the basis for this decision. Similarly, what was 
the basis for the Department's decision not to pursue further 
corrective actions against Navient?
    Answer 19. Due to the urgency of the issue, the Department's review 
was not designed to be a formal statistical study but rather the review 
of data to quickly assess compliance and to determine the need for 
corrective or other actions. We currently are reviewing the findings of 
the OIG report. We take OIG's feedback very seriously and will take any 
appropriate steps to ensure that the Department's reviews of financial 
institutions meet the highest standards. I am pleased to report that we 
have initiated a process to conduct a data match and automatically 
provide credit for any servicemember who was on active duty since 
Federal student loans became eligible for the benefit. This would 
provide the benefit to any servicemember who was on active duty, going 
back to 2008, whether or not they had applied for the benefit. We look 
forward to engaging with you as we move forward with that process.
    Based upon the level of non-compliance, the Department used a 
corrective action plan focused on the limited number of incidences, and 
ensuring that the broader issue of servicemembers not ever applying for 
the benefit was addressed prospectively in order to ensure that all 
servicemembers receive the benefits they are entitled to automatically. 
The corrective action plan already in place uses a DMDC data match so 
that all eligible servicemembers will automatically get the SCRA 
benefit without applying. In addition, we modified the servicing 
contracts to provide premium service to all servicemembers and include 
(i) specially trained staff to work with servicemembers, (ii) dedicated 
web and phone services, and (iii) established premium pricing for 
servicemember accounts to ensure the highest quality services and 
resources. We also expanded our monitoring staff and increased focus on 
explicit reviews of SCRA compliance. We established a dedicated mailbox 
on StudentAid.gov where servicemembers can notify the Department of 
potential harm. Separately, we also posted a notification of the DOJ 
settlement and provided DOJ contact information for servicemembers.

    Question 20. Given FSA's demonstrated inability to conduct an 
accurate program review, does the Department plan to act to penalize 
Navient based on the Department of Justice and FDIC findings? Does the 
Department feel the need to conduct another review of Navient based on 
those findings or will the Department defer to the investigation and 
conclusions of the DOJ and the FDIC? Is the Department willing to fine, 
to cancel the contracts of, or to otherwise penalize Navient based on 
the DOJ and the FDIC findings?
    Answer 20. We take very seriously the issues raised by the 
Inspector General and will take any appropriate steps to ensure that 
the Department's reviews of financial institutions meet the highest 
standards.
    As noted, while the Department worked closely with the Justice 
Department in developing the relief provided to Federal student loan 
borrowers under the Consent Order, under the Department's contracts 
with loan servicers, we needed to determine whether Navient had 
complied with the terms of that contract, the HEA and regulations and 
the guidance we provided to determine if we had a legal basis to take 
any action under the contract.

    Question 21a. Given FSA's demonstrated inability to conduct an 
accurate program review, how will the Department ensure that an 
independent, thorough, reliable, statistically sound review of whether 
Great Lakes, PHEAA, and Nelnet complied with SCRA during the time 
period in question occurs? Is the Department willing to fine, to cancel 
the contracts of, or to otherwise penalize the Great Lakes, PHEAA, and/
or Nelnet based on the results of any additional, reviews?
    Answer 21a. We are currently reviewing and take very seriously the 
issues raised by the Inspector General and will take any appropriate 
steps to ensure that the Department's reviews of financial institutions 
meet the highest standards.

    Question 21b. Will the Department direct every TIVAS to 
independently review every servicemember student loan based on the 
Department of Defense's Defense Manpower Data Center data base from 
June 19, 2009 to May 31, 2014 to identify servicemembers eligible for 
SCRA benefits who did not receive them?
    Answer 21b. The Department has directed our servicers to review 
their records going back to 2008. In addition, we have been working to 
find additional measures we can take to ensure that any Direct student 
loan borrowers who were entitled to the interest rate cap and did not 
receive it are made whole. To that end, I am pleased to report that we 
have initiated a process to conduct a data match and automatically 
provide credit for any servicemember who was on active duty since 
Federal student loans became eligible for the benefit. This would 
provide the benefit to any servicemember who was on active duty, going 
back to 2008, whether or not they had applied for the benefit. We look 
forward to engaging with you as we move forward with that process.

    Question 22. Will the Department take corrective action to require 
TIVAS to make whole any and all borrowers who were eligible for SCRA 
benefits from June 19, 2009 to May 31, 2014 and didn't receive them?
    Answer 22. After recent conversations with the OIG, on February 23, 
2016, we asked each servicer to review its SCRA records, going back to 
the beginning of their contract with the Department--to ensure that 
there are no borrowers who should have received the benefit but did 
not, in accordance with the Department's guidance at the time. If the 
servicer discovers borrowers who did not receive the benefit even 
though they submitted a written request and appropriate military 
orders, they will apply the benefit and submit to FSA the number of 
corrections made.
    As noted above, we have been working to find additional measures we 
can take to ensure that any Direct student loan borrowers who were 
entitled to the interest rate cap and did not receive it are made 
whole. To that end, I am pleased to report that we have initiated a 
process to conduct a data match and automatically provide credit for 
any servicemember who was on active duty since Federal student loans 
became eligible for the benefit. This would provide the benefit to any 
servicemember who was on active duty, going back to 2008, whether or 
not they had applied for the benefit. We look forward to engaging with 
you as we move forward with that process.

    Question 23. Given the serious and basic flaws here, do you feel 
that the Office of Federal Student Aid is equipped to do these kinds of 
reviews? Will the Department move financial institution oversight out 
of the Office of Federal Student Aid?
    Answer 23. We are always seeking to improve our training, 
operations, and policies to work in the best interest of borrowers.
    FSA is equipped to conduct these types of reviews and is familiar 
with the servicing records required by the Department's servicers under 
the contracts and can determine if the servicer properly determined if 
a borrower was eligible and the rate was properly applied. We take very 
seriously the issues raised by the Inspector General and will take any 
appropriate steps to ensure that the Department's reviews of financial 
institutions meet the highest standards. The Department and FSA are 
both committed to continuous improvement and will continue to look 
across government and private industry for best practices in performing 
reviews.

    Question 24. Please provide any and all communication between the 
Office of Federal Student Aid and Navient regarding this review.
    Answer 24. Attached are communications between FSA and Navient 
regarding the review. We are continuing to review our records and will 
supplement this response as appropriate.

    Question 25. What's the Department's full explanation for how this 
happened, and how will the Department ensure that this never happens 
again?
    Answer 25. We take very seriously the issues raised by the 
Inspector General and will take any appropriate steps to ensure that 
the Department's reviews of financial institutions meet the highest 
standards.
    In addition, when the issues regarding SCRA arose, the Department 
embarked on a comprehensive effort to ensure that all eligible 
servicemembers received the SCRA benefit to which they are entitled.
    In December 2013, we instructed our Direct Loan servicers to do a 
match with a DOD database to identify SCRA eligible borrowers.
    In April 2014, we instructed servicers to conduct outreach to the 
potentially eligible SCRA borrowers identified through the match and 
make them aware of the benefit and solicit, and process, the paperwork 
required at that time to grant the borrowers the benefit.
    In the few months that followed, we further simplified the process 
and requirements for servicers and borrowers. In May 2014, we 
instructed our servicers to match their portfolios against the DOD 
database of active duty service members and proactively and 
automatically grant the benefit to servicemembers.
    More specifically, we instructed our servicers to identify all 
servicemembers who were on active duty during the year, and 
automatically grant the SCRA benefit for the entire time the eligible 
borrower was on active duty.
    As a result of the new process, eligible Direct Loan borrowers on 
active duty and in the DOD database receive the benefit without having 
to apply for the benefit or submit copies of their orders, as was the 
case under our prior regulations. This addresses the most significant 
issue of potentially more than 90 percent of eligible servicemembers 
not applying for the benefit.
    To help address borrowers with loans issued under the older bank-
based FFEL program, we issued guidance in August 2014 to the FFEL 
community informing them of our actions for Direct Loan borrowers and 
permitting them to take similar actions for FFEL borrowers.
    We modified our servicing contracts to provide enhanced service to 
all servicemembers, including specially trained staff to work with 
servicemembers, dedicated support, and have established premium pricing 
for servicemember accounts to ensure that servicers provide high 
quality services and resources.
    We established a mailbox on StudentAid.gov where servicemembers and 
other borrowers can notify the Department of potential harm. 
Separately, we also posted a notification of the DOJ settlement and 
provided DOJ contact information for servicemembers.
    We now perform quarterly SCRA reviews of servicers to ensure they 
are correctly applying the match and automatically granting the 
benefit. The first review of servicers' compliance with SCRA 
requirements illustrates consistent servicer processing of these 
borrower benefits, as 332 of the 335 accounts reviewed passed 
examination. And beginning this month, we will monitor as many as 200 
calls per servicer each month on SCRA.
    And, in October 2015, we issued regulations requiring FFEL 
servicers to follow the same procedures we developed for Direct Loan 
borrowers.
    As noted above, we have been working to find additional measures we 
can take to ensure that any Direct student loan borrowers who were 
entitled to the interest rate cap and did not receive it are made 
whole. To that end, I am pleased to report that we have initiated a 
process to conduct a data match and automatically provide credit for 
any servicemember who was on active duty since Federal student loans 
became eligible for the benefit. This would provide the benefit to any 
servicemember who was on active duty, going back to 2008, whether or 
not they had applied for the benefit. We look forward to engaging with 
you as we move forward with that process.
                              attachments
                     U.S. Department of Education, 
                     Office of Federal Student Aid,
                                        New York, NY 10005,
                                                      May 20, 2014.
John F. Remondi,
Chief Executive Officer,
Navient Corporation,
300 Continental Drive,
Newark, DE 19713.

UPS Tracking# 1ZA879640293294699

Re: Program Review, Servicer ID: 700578, PRCN: 20143025005

    Dear Mr. Remondi: This letter notifies Navient Corporation 
(Navient) that a program review has been scheduled at your institution 
beginning on June 2, 2014 through June 6, 2014. The review will assess 
Navient's participation in the William D. Ford Federal Direct Loan 
(Direct Loan) Program and the Federal Family Education Loan (FFEL) Loan 
Programs and its compliance with provisions of the Servicemembers Civil 
Relief Act of 2003 (SCRA) and the Higher Education Opportunity Act 
(HEOA), dated August 14, 2008. The HEOA amended Sections 428(d) and 438 
of the Higher Education Act of 1965, as amended. The review will cover 
the period July 1, 2008 through April 30, 2014, but may be expanded as 
appropriate.
    The U.S. Department of Education's (ED) authority to examine 
program and financial records and conduct reviews is reflected at 34 
CFR  682.414(c). We will contact you in writing concerning the 
documents, records and data files that Navient must supply prior to and 
during the review. Please make arrangements for all required 
information, hard copy, and electronic, to be available when requested.
    Included with this letter is Attachment A: Information Required for 
the Review which lists the general information Navient must supply for 
the review. Please provide the remaining information to this office by 
May 22, 2014. Also, please make arrangements for the review team to 
have access (view and print capability) to any computer databases 
containing information related to the FFEL and Direct Loan Programs. 
The review team will also require access to Navient's administrative 
staff.
    At the start of the review, the review team will conduct an 
entrance conference with you and your staff. We will contact you to 
establish a time for the conference. Please inform the appropriate 
program administrative staff, so they or their designees can attend the 
entrance conference and remain available during the review.
    During the review, we request that Navient provide a secure working 
space for the review team to ensure the confidentiality of the 
financial records being reviewed and the security of ED equipment. We 
will also require access to a telephone, Internet connections, copier, 
fax machine, and printer.
    At the conclusion of the review, the review team will conduct an 
exit conference to discuss the preliminary review findings. Your 
presence at the exit conference would be appreciated. If it is not 
possible for you to attend, we request that you designate a 
representative.
    If you have any questions, please contact Naomi Facey at 646-428-
3853 or by e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="256b444a484c0b634446405c6540410b424a530b">[email&#160;protected]</a> Thank you for your 
cooperation.
            Sincerely,
                                        Susan C. Ferraiole,
                              Compliance Manager, Eastern Division.
           attachment a: information required for the review
    Please provide all remaining information to the lead reviewer by 
May 22, 2014. Provide as much information as possible in electronic 
format. If any of this information cannot be provided, please note it 
in writing.

Servicer ID: 700578
General:

        <bullet> All policies and procedures for acceptance, review, 
        approval, and denial of requests for Servicemember Civil Relief 
        Act (SCRA) benefits for borrowers in active military 
        service.\1\
---------------------------------------------------------------------------
    \1\ Sallie Mae has provided all policies, procedures, and training 
associated with SCRA guidance, as of May 16, 2014.

---------------------------------------------------------------------------
Sample:

        <bullet> Universe of borrowers considered for SCRA benefits 
        including all borrowers in the Department of Defense database 
        identified as having military service.
                                 ______
                                 
                     U.S. Department of Education, 
                     Office of Federal Student Aid,
                                        New York, NY 10005,
                                                      May 30, 2014.
Patricia Potomis, Senior Director,
Navient Corporation,
220 Lasley Avenue,
Wilkes-Barre, PA 18706.

Re: Program Review, Servicer ID: 700191 and 700578, PRCN: 20143025006 
        and 20143025005

    Dear Ms. Potomis: On May 20, 2014, we notified Navient Corporation 
(Navient) of an upcoming program review scheduled to begin on June 2, 
2014, at your institution.
    Included with this letter is Attachment A which lists the 
information Navient must supply to the U.S. Department of Education. 
Also included is the selected borrower samples in a password-protected 
WINZIP file; please note the tabs within the Excel files that identify 
the review populations for both of the referenced reviews. The password 
will be sent separately. This data should be made available at the 
beginning of the program review on June 2, 2014.
    Documentation may be provided in hard copy or electronically. If 
any of the information submitted contains sensitive personal data, 
Navient must place the file(s) in a password-protected WINZIP archive 
or other secure means.
    Thank you for compiling the materials referenced in the 
attachments, and for your cooperation. If you have any questions, 
please call 646-428-3771 or e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2774525446490961425555464e484b426742430940485109">[email&#160;protected]</a>
            Sincerely,
                                        Susan C. Ferraiole,
                              Compliance Manager, Eastern Division.
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                     U.S. Department of Education, 
                               Federal Student Aid,
                                        New York, NY 10005,
                                                   January 8, 2015.
John F. Remondi,
Chief Executive Officer,
Navient Corporation,
300 Continental Drive,
Newark, DE 19713.

UPS Tracking# 1Z A87 964 01 9477 6794

Re: Program Review, Servicer ID: 700578, PRCN: 20152025099

    Dear Mr. Remondi: This letter notifies Navient Corporation 
(Navient) that a program review has been scheduled to begin on January 
20, 2015 through January 30, 2015. The review will assess Navient's 
participation in the William D. Ford Federal Direct Loan (Direct Loan) 
Program and the Federal Family Education Loan (FFEL) Loan Programs and 
its compliance with provisions of the Servicemembers Civil Relief Act 
of 2003 (SCRA) and the Higher Education Opportunity Act (HEOA), dated 
August 14, 2008. The HEOA amended Sections 428(d) and 438 of the Higher 
Education Act of 1965, as amended. The review will cover the period 
June 19, 2009 through May 31, 2014, but may be expanded as appropriate.
    The U.S. Department of Education's (ED) authority to examine 
program and financial records and conduct reviews is reflected at 34 
CFR  682.414(c). We will contact you in writing concerning the 
documents, records and data files that Navient must supply prior to and 
during the review. Please make arrangements for all required 
information, hard copy, and electronic, to be available when requested.
    If any of the information submitted contains sensitive and/or 
personal data, Navient must place the file(s) in a password-protected 
WINZIP file or other secure means. Any passwords must be telephoned or 
emailed under separate cover to Naomi Facey.
    At the start of the review, the review team will conduct an 
entrance conference via conference call with you and your staff to 
discuss the review process. We will contact Navient to establish a time 
for the conference. Please inform the appropriate program 
administrative staff, so they or their designees can attend the 
entrance conference and remain available during the review.
    At the conclusion of the review, the review team will conduct an 
exit conference via conference call. Your presence at the exit 
conference would be appreciated. If it is not possible for you to 
attend, we request that you designate a representative.
    If you have any questions, please contact Naomi Facey at 646-428-
3853 or by e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e604f41434700684f4d4b576e4b4a0049415800">[email&#160;protected]</a> Thank you for your 
cooperation.
            Sincerely,
                                        Susan C. Ferraiole,
                              Compliance Manager, Eastern Division.
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 

    [Whereupon, at 4:10 p.m., the hearing was adjourned.]

                                   

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
